<html>
<title> - FEDERAL EFFORTS TO MITIGATE VULNERABILITIES IN THE FOOD SUPPLY CHAIN</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
  FEDERAL EFFORTS TO MITIGATE VULNERABILITIES IN THE FOOD SUPPLY CHAIN

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON EMERGING
                      THREATS, CYBERSECURITY, AND
                         SCIENCE AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 24, 2007

                               __________

                           Serial No. 110-59

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC NOT IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                        U.S. GOVERNMENT PRINTING OFFICE
48-933 PDF                      WASHINGTON: 2009
______________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001 





                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina         MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrara-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

   SUBCOMMITTEE ON EMERGING THREATS, CYBERSECURITY, AND SCIENCE AND 
                               TECHNOLOGY

               JAMES R. LANGEVIN, Rhode Island, Chairman

ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    DANIEL E. LUNGREN, California
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
AL GREEN, Texas                      PETER T. KING, New York (Ex 
VACANCY                              Officio)
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                    Jacob Olcott, Director & Counsel

        Dr. Chris Beck, Senior Advisor for Science & Technology

                       Carla Zamudio-Dolan, Clerk

       Dr. Diane Berry, Minority Senior Professional Staff Member

                                  (II)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island, Chairman, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, Ranking Member, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science and Technology:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, Chairman, Committee on Homeland 
  Security
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    36
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    40
The Honorable Marcy Kaptur, a Representative in Congress From the 
  State of Ohio..................................................    38

                               Witnesses
                                Panel II

Dr, David Acheson, Assistant Commissioner, Food Protection, U.S. 
  Food and Drug Administration:
  Oral Statement.................................................     8
  Prepared Statement.............................................    11
Mr. Dan Baldwin, Assistant Commissioners, Office of International 
  Trade, U.S. Customs and Border Protection:
  Oral Statement.................................................    28
  Prepared Statement.............................................    30
Dr. Carol Maczka, Assistant Administrator, Office of Food Defense 
  and Emergency Response, Food Safety Inspection service:
  Oral Statement.................................................    16
  Preapred Statement.............................................    17
Dr. Tom McGinn, Chief veterinarian and Director, Food and 
  Agriculture Security, Office of Health Affairs, U.S. Department 
  of Homeland Security:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24

                                Panel II

Dr. Craig Henry, Senior Vice President, Chief Operating Officer, 
  Scientific and Regulatory Affairs, Grocery Manufacturers 
  Association and Food Products Association......................    61
Mr. Shaun Kennedy, Deputy Director, National Center for Food 
  Protection and Defense, University of Minnesota--Twin Cities 
  Campus:
  Oral Statement.................................................    47
  Prepared Statement.............................................    49
Dr. Allen Mathys, Vice President for State and Federal 
  Regulations, Grocery Manufacturers Association and Food 
  Products Association:
  Prepared Statement.............................................    63
Dr. Lee M. Myers, State Veterinarian, Assistant Commissioner of 
  Animal Industry, Georgia Department of Agriculture:
  Oral Statement.................................................    54
  Prepared Statement.............................................    56

                                Appendix

Additional Questions and Responses:
  Responses from Dr. David Acheson...............................    71
  Responses from Dr. Craig Henry.................................    90
  Responses from Dr.Tom McGinn...................................    91
  Responses from Dr. Lee M. Myers................................    96


                      FEDERAL EFFORTS TO MITIGATE



                      VULNERABILITIES IN THE FOOD



                              SUPPLY CHAIN

                              ----------                              


                         Tuesday, July 24, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
           Subcommittee on Emerging Threats, Cybersecurity,
                                and Science and Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:21 a.m., in 
Room 311, Cannon House Office Building, Hon. James R. Langevin 
[chairman of the subcommittee], presiding.
    Present: Representatives Langevin, Christensen, Etheridge, 
Green, Kaptur, Thompson (ex officio) and McCaul
    Mr. Langevin. The subcommittee will come to order. The 
subcommittee is meeting today to take testimony on Federal 
Efforts to Mitigate Vulnerabilities in the Food Supply Chain.
    Good morning. I would like to thank our witnesses for being 
here today. This hearing was originally scheduled, as you know, 
for last Thursday, but we had to postpone the hearing due to 
the House-Senate Conference Committee on the 9/11 bill. So I 
appreciate the witnesses' flexibility and patience, and I 
sincerely thank you all for coming back here today on what I 
know is a very important subject.
    Recent months have brought increased attention to 
vulnerabilities in the United States' food supply chain. 
Today's hearing will present us with both the public and 
private sector perspectives on how best to secure our food 
distribution networks. In the last year, we have witnessed 
food-borne illness outbreaks associated with spinach lettuce, 
and peanut butter, among others. This spring, incidents 
including the melamine contamination of vegetable proteins used 
in pet foods, the diethylene glycol contamination of toothpaste 
and drug residues in fish demonstrate how intentional food 
adulteration can pose a far greater challenge than 
unintentional contamination.
    Now, many of these incidents were traced back to problems 
associated with the Chinese food supply. And it is evident that 
China's food and drug safety standards are often weak, poorly 
enforced or both, though I am encouraged by recent indications 
that China's food and drug administration will be making their 
processes more transparent in order to ensure more stringent 
safety measures.
    Unfortunately, China isn't the only problem country. 
Developing nations in Africa and parts of Latin America also 
have significant food safety issues, and it would be 
shortsighted to place the blame on one country or one region. 
This is a global problem and has the potential to cripple the 
food supply throughout the United States. We are here today to 
figure out how, in working with both the private sector and 
public sector partners, we can mitigate vulnerabilities and 
secure our food supply chain here at home.
    Just as the Nation's food sector is comprised of a variety 
of distinct businesses and operations, so, too, is the Federal 
Government's effort in defending the food supply from 
intentional attacks and natural hazards. Now it is not an easy 
task, and there is a lot of work that we must complete, but we 
all understand what is at stake.
    Now I am reminded that, 100 years ago, Upton Sinclair's 
investigation into the Chicago meatpacking plants led to the 
formation of the Food and Drug Administration in the United 
States. That investigation is still relevant today and 
demonstrates the need for transparency in ensuring the safety 
of these systems.
    In fact, in 2004, the President issued Homeland Security 
Presidential Directive 9 to help achieve this goal. HSPD-9 
establishes a national policy to defend the agriculture and 
food system against terrorist attacks, major disasters and 
other emergencies. In March 2005, the GAO identified confusion 
over the Department of Homeland Security's role in 
agroterrorism. The GAO voiced concern that the agency hadn't 
yet evolved into its leading role under Homeland Security 
Presidential Directive 9. Though 2 years have passed, 
significant problems still remain. Now, as the DHS Office of 
the Inspector General reported in a February 2007 review of 
Homeland Security food defense activities, the enormity of the 
food sector and the complexity of government oversight pose 
substantial challenges to the food defense and critical 
infrastructure protection. The complexity of both systems has 
resulted in the recent publication of several reports critical 
of the bureaucracies associated with these efforts.
    In February 2007, GAO designated the Federal oversight of 
food safety as a high risk area for the first time. GAO found 
that a fragmented system, whereby 15 agencies collectively 
administer at least 30 laws related to food safety, causes 
inconsistent oversight, ineffective coordination and 
inefficient use of resources. This report found several 
management problems that reduced the effectiveness of the 
agencies' routine efforts to protect against agroterrorism. For 
example, GAO noted that weaknesses in the flow of critical 
information existed among key stakeholders.
    Also, in February, the Department of Homeland Security's 
Inspector General issued a record that found that DHS, USDA and 
HHS were failing to meet their obligations under HSPD-9 to 
prepare an integrated food defense plan. The Inspector General 
recommended that DHS pursue recruitment, hiring and retention 
of staff with expertise in matters of post-harvest food 
defense; work collaboratively with USDA and HHS on grants and 
other funding mechanisms to carry out food defense missions; 
and identify a single senior DHS official to be accountable for 
coordinated implementation of all DHS food sector 
responsibilities; and provide this official with clear 
authorities and adequate staffing to perform this function.
    Now, I hope that the officials before us today can discuss 
their efforts to improve some of the issues that have been 
raised. The integrity of our Nation's food supply is critical 
to our national, economic and health security. There is much 
work to be done to fully secure our food supply chain, and we 
must act swiftly to shore up the remaining vulnerabilities. 
That concludes my opening statement.
    The chair now recognizes the ranking member of the 
subcommittee, the gentleman from Texas, Mr. McCaul, for the 
purpose of an opening statement.
    [The statement of Mr. Langevin follows:]

   Prepared Statement of the Honorable James R. Langevin, Chairman, 
   Subcommitteee on Emerging Threats, Cybersecurity, and Science and 
                               Technology

  Good morning. I'd like to thank our witnesses for being here today. 
This hearing was originally scheduled for last Thursday, but we had to 
 postpone the hearing due to the 9/11 conference, so I appreciate the 
witnesses' flexibility and patience and I thank you all for coming back 
                           to be here today.

    Recent months have brought increased attention to vulnerabilities 
in the United States' food supply chain. Today's hearing will present 
us with both the public and private sector perspectives on how to best 
secure our food distribution networks. In the last year, we have 
witnessed food-borne illness outbreaks associated with spinach, lettuce 
and peanut butter, among others. This spring, incidents including the 
melamine contamination of vegetable proteins used in pet foods, the 
diethylene glycol contamination of toothpaste, and drug residues in 
fish demonstrated how intentional food adulteration can pose a far 
greater challenge than unintentional contamination.
    Many of these incidents were traced back to problems associated 
with the Chinese food supply. It is evident that China's food and drug 
safety standards are often weak, poorly enforced or both, though I am 
encouraged by recent indications that China's Food and Drug 
Administration will be making their processes more transparent in order 
to ensure more stringent safety measures. Unfortunately, China isn't 
the only problem country. Developing nations in Africa and parts of 
Latin America also have significant food safety issues, and it would be 
short-sighted to place the blame on one country or in one region. This 
is a global problem, and has the potential to cripple the food supply 
throughout the United States.
    We are here today to figure out how--in working with both private 
sector and public sector partners--we can mitigate vulnerabilities and 
secure our food supply chain here at home. Just as the nation's food 
sector is comprised of a variety of distinct businesses and operations, 
so too is the Federal government's effort in defending the food supply 
from intentional attacks and natural hazards.
    It's not an easy task, and there is a lot of work that we must 
complete, but we all understand what is at stake. I am reminded that, 
100 years ago, Upton sinclair's investigation into the Chicago 
meatpacking plants led to the formation of the Food and Drug 
Administration in the United States. That investigation is still 
relevant today and demonstrates the need for transparency in ensuring 
the safety of these systems.
    In fact, in 2004 the President issued Homeland Security 
Presidential Directive 9 (HSPD-9) to help achieve this goal. HSPD-9 
establishes a national policy to defend the agriculture and food system 
against terrorist attacks, major disasters, and other emergencies. In 
March 2005, GAO identified confusion over the Department of Homeland 
Security's role in agroterrorism. The GAO voiced concern that the 
agency hadn't yet evolved into its leading role under Homeland Security 
Presidential Directive 9 (HSPD-9). though two years have passed, 
significant problems remain.
    As the DHS Office of the Inspector General reported in a February 
2007 review of homeland security food defense activities, ``the 
enormity of the food sector and the complexity of government oversight 
pose substantial challenges to food defense and critical infrastructure 
protection.'' The complexity of both systems has resulted in the recent 
publication of several reports critical of the bureaucracies associated 
with these efforts.
    In February of 2007, GAO designated the federal oversight of food 
safety as a high-risk area for the first time. GAO found that a 
fragmented system--whereby 15 agencies collectively administer at least 
30 laws related to food safety--causes inconsistent oversight, 
ineffective coordination, and inefficient use of resources. This report 
found several management problems that reduce the effectiveness of the 
agencies' routine efforts to protect against agroterrorism. For 
example, GAO noted that weaknesses in the flow of critical information 
existed among key stakeholders. Also in February, the Department of 
Homeland Security's Inspector General issued a report that found that 
DHS, USDA, and HSS were failing to meet their obligations under HSPD-9 
to prepare an integrated food defense plan.
    The Inspector General recommended that DHS pursue recruitment 
hiring, and retention of staff with expertise in matters of post 
harvest food defense; work collaboratively with USDA and HHS on grants 
and other funding mechanisms to carry out food defense missions; and 
identify a single senior DHS food sector responsibilities, and provide 
this official with clear authorities and adequate staffing to perform 
this function.
    I hope that the officials before us today can discuss their efforts 
to improve some of the issues that have been raised. The integrity of 
our nation's food supply is critical to our national, economic and 
health security. There is much work to be done to fully secure our food 
supply chair, and we must act swiftly to shore up the remaining 
vulnerabilities.

    Mr. McCaul. Thank, Mr. Chairman.
    Thank you for holding this hearing. I would like to start 
out by pointing out that the United States' food supply is 
among the safest in the world. Still, public health officials 
estimate that over 5,000 people die and many more get sick from 
food-borne illnesses each year. Recent incidents of 
nonterrorist-related food contamination, such as the E-coli 
outbreaks in produce and antibiotics in fish from China, show 
just how easy it would be for a terrorist to manipulate our 
food supply against us and to utilize it as a weapon of mass 
destruction. I don't want to overstate the threat posed by 
terrorist attacks against food supply. In fact, there are very 
few recorded acts of intentional food contamination, I believe 
only two in the United States. But there is no question that 
the food supply chain is vulnerable, and I am not very 
confident that we are protecting this critical asset.
    The U.S. food and agricultural sector is comprised of more 
than 2 million farms, approximately 900,000 firms and 1.1 
million facilities, almost entirely under private ownership. 
This sector accounts for about 20 percent of the Nation's 
economic activity, and we cannot afford to have consumer 
confidence undermined. Federal efforts to ensure the safety of 
our food supply have historically been fragmented. There are at 
least 30 different food safety laws and a patchwork of 
regulations administered by 15 different agencies. Subtle 
differences between food products can dictate which agency 
regulates it. For example, if a packaged ham sandwich is open-
faced, it is regulated by the USDA. If it has two slices of 
bread, it is regulated by the FDA. That is almost comical when 
you think about it.
    What is needed here is a cross-agency perspective, one plan 
that provides a single framework to ensure that all agencies' 
goals are complementary and reinforcing, not redundant. We can 
and must do better. There are some encouraging signs, including 
the recent establishment of DHS's Office of Health Affairs and 
the consolidation of agriculture inspectors within Customs and 
Border Patrol's overall antiterrorism mission.
    The focus of today's hearing is on the food safety and food 
defense efforts. It is a sensitive topic, and I hope that we 
hear more about what we are doing to enhance the protection of 
our food supply rather than on the vulnerabilities themselves. 
We certainly don't want to advertise our specific 
vulnerabilities, so please consider this in your testimony.
    And with that, I yield back the balance of my time.

  Prepared Opening Statement of the Honorable Michael McCaul, Ranking 
 Member, Subcommittee on Emerging Threats, Cybersecurity, and Science 
                             and Technology

    <bullet> The United States' food supply is among the safest in the 
world. Still, public health officials estimate that over 5,000 people 
die (and many more get sick) from food borne illnesses each year. 
Recent incidents of non-terrorist related food contamination, such as 
the E. coli outbreaks in produce and the antibiotics in fish from China 
showed just how easy it would be for a terrorist to manipulate our food 
supply against us and to utilize it as a weapon of mass destruction.
    <bullet> Yesterday I traveled back to Washington from my home 
district in Texas via airplane. Like many other Members of Congress I 
travel by plane frequently, either back and forth from my district or 
on House business. And every time I board an aircraft I think of 9/11 
and of the potential danger of air travel posed by terrorists to myself 
and my family. Now imagine that feeling of apprehension every single 
time you pick up your fork to eat dinner or drink a glass of milk. It 
would change the way we live.
    <bullet> I don't want to overstate the threat posed terrorist 
attacks against the food supply. In fact there are very few recorded 
acts of intentional food contamination (and only 2 in the US). And an 
attack on the food supply does not have the explosive effect of an 
incident like 9/11 or a nuclear bomb that is typically associated with 
groups like al-Qa'ida.
    <bullet> But there is no question that the food supply chain is 
vulnerable--and I am not so confident that we are protecting this 
critical asset. The U.S. Food and Agriculture Sector comprises of more 
than 2 million farms, approximately 900,000 firms, and 1.1 million 
facilities, and is almost entirely under private ownership. This sector 
accounts for about 20% of the Nation's economic activity when measured 
from inputs to tables of consumers at home and away from home. We 
cannot afford to have consumer confidence undermined.
    <bullet> I am concerned when I hear the terms ``inconsistent 
oversight'', ``ineffective coordination'', and ``inefficient use of 
resources,'' associated with the Federal Government's handling of food 
and agriculture defense activities. We MUST and we CAN do better.
    <bullet> The Homeland Security Act of 2002 assigned DHS the lead 
coordination responsibility for protecting the Nation against terrorist 
attacks, including agroterrorism. Subsequent homeland security 
presidential directives provide more detailed guidance. DHS was 
assigned this coordinating role because Federal efforts in this area 
have historically been fragmented. There are at least 30 different food 
safety laws and a patchwork of regulations administered by 15 agencies. 
With such a fragmented approach, I question whether the government can 
really provide useful guidance to the private sector in protecting the 
food supply chain? Subtle differences in a food products presentation 
result dictate which agency regulated the product. For example, if a 
packaged ham sandwich is open-faced, it is regulated by the USDA; if it 
is a closed sandwich (2 sliced of bread as opposed to one, FDA is the 
regulating agency.
    <bullet> DHS is admittedly somewhat late to the game in its efforts 
to protect the Nation's food supply as the other leading agencies with 
missions in this area, FDA and USDA, have long histories of protecting 
the Nation's food products. But there was, and still is, a lack of 
coordination between those two agencies. For example, USDA and FDA each 
provided to DHS separate Food and Agriculture Sector Specific Plan(s) 
to fulfill the National Infrastructure Protection Plan--that is two 
separate plans for the same sector. What is needed here is a cross 
agency perspective, one plan that provides a single framework to ensure 
all agencies' [USDA, FDA, DHS] goals are complementary and reinforcing, 
not redundant.
    <bullet> We are encouraged with the recent establishment of DHS' 
Office of Health Affairs. The Secretary's designation of this Office as 
the single focal point for internal and external coordination on the 
Department's food and agriculture responsibilities demonstrates that 
this sector is starting to get recognition as critical infrastructure 
that needs protecting.
    <bullet> The challenges posed by food defense are not easy. I don't 
want to give the impression that I think protecting this critical 
infrastructure will take simple physical security measures such as that 
we use to secure chemical facilities and nuclear power plants. Food is 
not a fixed asset. It moves into and across the country rapidly so it 
can be eaten before it perishes without enough time to detect whether 
there has been contamination. There are several opportunities whether 
in manufacturing, processing, packaging, or transit for would-be 
terrorists to gain access to products and introduce harmful agents.
    <bullet> A positive example that shows how DHS can contribute to 
reducing fragmentation and compartmentalization is their effort to 
consolidate the agriculture inspector function within Customs and 
Border Patrol's overall antiterrorism mission. There are 131 million 
conveyances entering this country every year and with the volume of 
trade continuing to increase dramatically, CBP is best positioned to 
meet the agriculture inspection demands. CBP has developed a 
sophisticated, streamlined and efficient process to identify and target 
high risk shipments which is being applied to identify high risk 
agriculture shipments. Although when the agriculture inspection 
function transferred from USDA to DHS, there certainly were cultural 
and managerial differences to overcome, they have been overcome with 
the support of both agencies. Now they are focused on strengthening 
CBP's capability to apply their automated targeting and risk analysis 
techniques to agriculture. Transferring the inspector function back to 
USDA would be a step in the wrong direction back toward an inefficient 
and fragmented approach to safeguarding the Nation's imported goods. 
USDA would have to rebuild capacity and create a new capability to 
automatically target high risk agriculture goods, rather than leverage 
mechanisms employed by CBP.
    <bullet> DHS and our Committee need to engage stakeholders in the 
agriculture community, and establish direct relationships with those 
stakeholders and regularly solicit input. As I learned in drafting H.R 
1717, which authorizes the National Bio--and Agro-Defense Facility, it 
is critical to engage the private sector and state and local officials 
in the policy discussions. Doing so will build trust between the 
homeland security and agriculture communities and facilitate 
information sharing that is in the best interest of the Nation.
    <bullet> Which brings me to my last point. The focus of today's 
hearing is on food safety and food defense efforts. It is a sensitive 
topic. I hope today what we hear is more about what the Federal and 
State governments and the private sector are doing to enhance the 
protection and defense of our food supply, than on the vulnerabilities 
themselves--which have been mentioned in certain press pieces recently. 
We certainly don't want to advertise our specific vulnerabilities so 
please consider this in giving your testimony. . .

    Mr. Langevin. Thank the gentleman. The chair now recognizes 
the chairman of the full committee, the gentleman from 
Mississippi, Mr. Thompson, for the purposes of an opening 
statement.
    Mr. Thompson. Thank you very much. I would like to begin by 
thanking the distinguished chairman for reconvening the 
previously postponed hearing today. The theme of this hearing 
is extremely fitting, given the circumstances this past year, 
where our Nation has had to deal with issues of pet food, 
spinach, peanut butter and, more recently, bans on toothpaste 
and even the FDA ban on seafood products. The major threat to 
the food agriculture sector is a crisis of confidence, where a 
poorly prevented or recognized event causes people to question 
the safety of food regionally or nationally. The time to 
address whether our food infrastructure is designed to mitigate 
our abilities is before an occurrence and not after the fact.
    We have been extremely fortunate that our agriculture has 
been safe, but we have got work to do if we want to be more 
secure. Currently, 15 agencies collectively administer at least 
30 laws related to food safety, causing ineffective oversight, 
inefficient coordination and inconsistent agency leadership.
    One concern I look forward to hearing our witnesses address 
today is the current agency leadership structure in place in 
the event of a food-borne emergency. HSPD-9 sets out to address 
this by establishing the Department of Homeland Security as 
having the lead role in policy coordination in an event of 
national significance. However, a recent GAO report says that 
USDA is not planning for DHS to assume the lead coordinating 
role if an outbreak among poultry occurs that is sufficient in 
scope to warrant a Presidential declaration of an emergency or 
major disaster, or a DHS declaration of an Incident of National 
Significance. Such an inconsistency in planning perpetuates the 
confusion of who is in charge. I look forward to the second 
panel, comprised of industry, academic and State agricultural 
officials, giving us a more local perspective of what 
uncoordinated efforts mean for our communities. Further, I look 
forward to discussing State and industry involvement throughout 
all of the coordinating and planning. Reports indicate that 
they do not have the ability and information to fulfill their 
assigned roles in protecting agriculture.
    Though I am pleased to hear that strides have been made in 
CARVER + Shock technology in hardening our infrastructure 
against an international attack, technology is only as good as 
its application. Unless the relevant agencies begin to take 
HSPD-9 a step further, the United States will lack a 
coordinated national approach to protect against agroterrorism, 
possibly resulting in gaps and needless duplication of effort. 
By overcoming these challenges, the United States will be in 
better position to protect against and respond to a food-borne 
disease outbreak, whether natural or intentional.
    Thank you, Mr. Chairman, and I yield back.
    [The statement of Mr. Thompson follows:]

   Prepared Statement of the Honorable Bennie G. Thompson, Chairman, 
                     Committee on Homeland Security

    The theme of this hearing is extremely fitting given the 
circumstances this past year, where our nation has had to deal with 
issues of pet food, spinach, peanut butter, and more recently bans on 
toothpaste, and even the FDA ban of seafood products.
    The major threat to the food agriculture sector is a crisis of 
confidence, where a poorly prevented or recognized event causes people 
to question the safety of food regionally or nationally. The time to 
address whether our federal infrastructure is designed to mitigate 
vulnerabilities is before an occurrence and not after the fact. We have 
been extremely fortunate that our agriculture has been safe, but we've 
got work to do if we want to be more secure.
    Currently, 15 agencies collectively administer at least 30 laws 
related to food safety, causing ineffective oversight, inefficient 
coordination, and inconsistent agency leadership. One concern I look 
forward to hearing our witnesses address today, is the current agency 
leadership structure in place in the event of a food-borne emergency.
    HSPD-9 sets out to address this by establishing the Department of 
Homeland Security as having the lead role in policy coordination in an 
event of national significance. However, a recent GAO report says that 
USDA is not planning for DHS to assume the lead coordinating role if an 
outbreak among poultry occurs that is sufficient in scope to warrant a 
presidential declaration of an emergency or major disaster, or a DHS 
declaration of an Incident of National significance.
    Such an inconsistency in planning perpetuates the confusion of 
who's in charge. I look forward to the second panel--comprised of 
industry, academic and state agriculture officials--giving us a more 
local perspective of what uncoordinated efforts mean for our 
communities. Furthermore, I look forward to discussing State and 
industry involvement throughout all of the coordination and planning. 
Reports indicate that they do not have the ability and information to 
fulfill their assigned roles in protecting agriculture. Though I am 
pleased to hear that strides in CARVER+sHOCK technology have been made 
in hardening our infrastructure against an intentional attack, 
technology is on as good as its application.
    Unless the relevant agencies begin to take HSPD-9 a step further, 
the United States will lack a coordinated national approach to protect 
against agroterrorism, possibly resulting in gaps or needless 
duplication of effort. By overcoming these challenges, the United 
States will be in a better position to protect against and respond to a 
food-borne disease outbreak, whether natural or intentional.

    Mr. Langevin. I thank the Chairman.
    Other members of the subcommittee are reminded, under the 
rules, opening statements may be submitted for the record. 
Before I turn to the panel. I ask unanimous consent that the 
gentlelady from Ohio, Ms. Kaptur, be allowed to participate in 
today's hearing. I thank her for her attendance. Under the 
committee rules, Ms. Kaptur will be recognized for questions 
after the committee members.
    I think it is appropriate to recognize here that Ms. Kaptur 
serves on the Appropriations Subcommittee of Agriculture, Rural 
Development, and Food and Drug Agencies, and actually 
introduced H.R. 2997, the Assured Food Safety Act of 2007, that 
would require a seal approval of imported foods coming into the 
country by seal of approval by USDA or FDA. And I was proud to 
cosponsor the legislation with the gentlelady. So I ask 
unanimous consent she be allowed to participate in the hearing.

     STATEMENT OF DAVID ACHESON, M.D., F.R.C.P., ASSISTANT 
 COMMISSIONER FOR FOOD PROTECTION, FOOD AND DRUG ADMINISTRATION

    Mr. Langevin. Without objection, I welcome the first panel 
of witnesses.
    Our first witness is Dr. David Acheson, Assistant 
Commissioner of Food Protection, Food and Drug Administration, 
at the U.S. Department of Health and Human Services. Dr. 
Acheson provides advice and counsel to the Commissioner on 
strategic and substantive food safety and food defense matters. 
Dr. Acheson has published extensively, and is internationally 
recognized both for his public health expertise in food safety 
and his research in effective diseases.
    Welcome, Dr. Acheson.
    Our second witness, Dr. Carol Maczka, is the Assistant 
Administrator, Office of Food Defense and Emergency Response, 
Food Safety Inspection Service, at the U.S. Department of 
Agriculture. Dr. Maczka has more than 20 years of experience in 
the field of risk assessment.
    Our third witness, Dr. Tom McGinn, Office of Health 
Affairs, Department of Homeland Security. Dr. McGinn is the 
Director of Veterinary and Agriculture Security for the Office 
of the Chief Medical Officer. In his position, he is 
responsible for internal and external coordination of DHS 
veterinary and agricultural programs.
    Welcome to you as well.
    Our fourth witness is Dan Baldwin, Assistant Commissioner, 
Office of International Trade, Customs and Border Protection, 
Department of Homeland Security. Mr. Baldwin's office directs 
the national trade policy and national trade program functions 
at CBP and provides uniformity and clarity for the Department 
of CBP's national strategy to facilitate legitimate trade.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I want to welcome the panel here. Thank you for your 
testimony and your presence. And I now recognize each witness 
to summarize his or her statement for 5 minutes, beginning with 
Dr. Acheson.
    Dr. Acheson. Good morning, Chairman Langevin, and members 
of the subcommittee. I am Dr. David Acheson, Assistant 
Commissioner for Food Protection of the FDA.
    FDA appreciates the opportunity to discuss our food defense 
activities, and I am pleased to be here today with my 
colleagues from the Department of Homeland Security and the 
Department of Agriculture.
    The Commissioner of Food and Drugs, Dr. Andrew von 
Eschenbach, recently appointed me to the new position of 
Assistant Commissioner For Food Protection. My first priority 
in this position is to develop a new strategy for the 
integration of food safety and food defense that will address 
changes in the global food safety and food defense system, 
identify our most critical needs and serve as a framework to 
help us address the challenges we face.
    Food safety and food defense continue to be top priorities 
for this administration. A terrorist attack on the food supply 
could have both severe public health and economic consequences, 
while damaging the public's confidence in the food we eat. To 
promote the safety of imported products, last week the 
President established an interagency working group to review 
the procedures, regulations and practices that are in place to 
make sure that imported food and other products are safe. 
Secretary of Health and Human Services Michael Leavitt will 
chair this working group. FDA will play a key role in the 
group's activities. The group expects to report back to the 
President within 60 days with its recommendations.
    At FDA, ensuring the products we regulate are safe and 
secure is a vital part of our public health mission. The agency 
regulates everything Americans eat, except meat, poultry and 
processed egg products, which are regulated by USDA. A great 
deal has been done in the past few years to enhance the safety 
and defense of the food supply in the United States. FDA has 
worked with other Federal, State, local, and tribal food safety 
agencies, as well as law enforcement and intelligence-gathering 
agencies, and with industry to significantly strengthen the 
Nation's food safety and defense systems across the entire 
distribution chain, from farm to table, to better protect our 
food supply against deliberate and accidental threats. This 
cooperation has resulted in greater awareness of potential 
vulnerabilities, the creation of more effective prevention 
programs, new surveillance systems, and the ability to respond 
more quickly to outbreak of food-borne illness.
    FDA is working closely with DHS and other Federal agencies 
to implement the President's Homeland Security Presidential 
Directives. The HHS and USDA Secretaries, or their designees, 
exercise key responsibilities as food-sector-specific agencies. 
DHS serves as the coordinator of the food agriculture sector 
with the Government Coordination Council. HHS and USDA serve as 
co-leads for the food sector, and USDA serves as the lead for 
the agriculture sector. With the close working relationship of 
FDA and USDA and the other government and industry 
collaborators, the Food and Agriculture Sector activities to 
protect critical infrastructure have set the organizational and 
operational standard for other critical infrastructure sectors. 
DHS recently released our sector-specific plants. To implement 
HSPD-9, FDA has been involved in numerous activities.
    For example, to increase lab surge capacity, FDA, in 
coordination with USDA, established the Food Emergency Response 
Network, or FERN, to include a substantial number of Federal, 
State and local labs that are capable of analyzing large 
numbers of food samples for agents of concern. At present, the 
FERN network includes 134 laboratories, representing all 50 
States and Puerto Rico. FDA has also developed an online food 
defense awareness training course in partnership with USDA. We 
have completed 13 vulnerability assessments as part of the 
strategic partnership program on agroterrorism. FDA has also 
conducted or provided funding for food defense research 
activities and participated in numerous emergency response 
exercises. In our food defense activities, FDA works closely 
with our State partners. For example, earlier this year, FDA 
conducted a Food Defense Surveillance Assignment for FDA and 
USDA personnel and participating State and local authorities to 
conduct food-defense-related inspections and reconciliation 
exams, and to collect and analyze samples of food products.
    This year, FDA, in cooperation with CDC, USDA and State and 
local organizations representing food, public health and 
agricultural interests, initiated the ALERT awareness program. 
It provides a uniform and consistent approach to food defense 
awareness at any point in the supply chain, from farm to 
retail. ALERT identifies five key points that industry and 
businesses can use to decrease the risk of intentional food 
contamination at their facility. In 2003, FDA issued guidance 
on the security measures the food industry may take to minimize 
the risk that food will be subject to tampering or other 
malicious or terrorist actions. FDA issued a general guidance 
entitled, Food Producers, Processors and Transporters: Food 
Security Preventive Measures, and a number of others.
    Also in 2003, FDA began using the CARVER+Shock analytical 
tool to perform vulnerability assessments. FDA's approach has 
been to seek voluntary, mutually beneficial partnerships with 
various segments of the food industry. We have completed such 
cooperative assessments with segments of the regulated 
industry. The CARVER+Shock method to determine the 
vulnerability of individual food facilities to biological, 
chemical or radiological attack has resulted in the development 
of a software tool now available free of charge on the FDA's 
Web site. In conclusion, due to the enhancements being made by 
FDA and other agencies, and due to the close coordination 
between the Federal and State food safety, public health, law 
enforcement and intelligence-gathering agencies, the United 
States food defense system is stronger than ever before.
    Although we have made progress, we are continuously working 
to improve our ability to prevent, detect and respond to 
terrorist threats. Thank you for the opportunity to discuss 
FDA's food defense activities. I would be happy to answer any 
questions you may have.
    [The statement of Dr. Acheson follows:]

          Prepared Statement of David Acheson, M.D., F.R.C.P.

INTRODUCTION
    Good afternoon, Chairman Langevin and Members of the Subcommittee. 
I am Dr. David Acheson, Assistant Commissioner for Food Protection at 
the Food and Drug Administration (FDA or the Agency) which is part of 
the Department of Health and Human Services (HHS or the Department). I 
am pleased to be here today with my colleagues from the Department of 
Homeland Security (DHS) and the Department of Agriculture (USDA). FDA 
appreciates the opportunity to discuss our food defense activities.
    A great deal has been done in the past few years to enhance the 
safety and defense of the food supply in the United States. FDA has 
worked with other Federal, state, local, and tribal food safety 
agencies, as well as with law enforcement and intelligence-gathering 
agencies, and with industry to significantly strengthen the nation's 
food safety and defense system across the entire distribution chain, 
from farm to table, to better protect our food supply against 
deliberate and accidental threats. This cooperation has resulted in 
greater awareness of potential vulnerabilities, the creation of more 
effective prevention programs, new surveillance systems, and the 
ability to respond more quickly to outbreaks of foodborne illness. The 
Office of Management and Budget and the relevant food safety agencies 
are collaborating on ways to most effectively address issues raised in 
the Government Accountability Office's designation of Federal oversight 
of food safety as a high-risk item in February 2007.
    Food safety and food defense continue to be top priorities for this 
Administration. A terrorist attack on the food supply could have both 
severe public health and economic consequences, while damaging the 
public's confidence in the food we eat. The changes in food defense 
that we have been implementing in the last few years are fundamental 
enhancements.
    The Commissioner of Food and Drugs, Dr. Andrew von Eschenbach, 
recently appointed me to the new position of Assistant Commissioner for 
Food Protection. My first priority in this position is to develop a new 
strategy for the integration of food safety and food defense that will 
address changes in the global food safety and food defense system, 
identify our most critical needs, and serve as a framework to help us 
address the challenges we face. The goal is to ensure a comprehensive 
and robust food safety and food defense program that is tailored to 
meet the risks posed by the types of foods we regulate and that focuses 
on prevention, ensures compliance with preventive controls, and rapidly 
responds when contaminated food or feed is detected, or when there is 
possible risk to humans or animals.
    In my testimony today, I will first briefly describe HHS' role in 
counterterrorism activities. Then, I will discuss our collaborative 
activities with our food safety and defense partners. I will also 
describe some of FDA's food defense activities to enhance protection of 
the food supply.

HHS' ROLE IN FOOD-RELATED COUNTERTERRORISM ACTIVITIES
    Under the President's National Response Plan, HHS leads Federal 
public health activities to ensure an integrated and focused national 
effort to anticipate and respond to biological weapons, emerging 
diseases, and other threats. HHS is also the principal Federal agency 
responsible for coordinating all Federal-level assets activated to 
support and augment the State and local medical and public health 
response to mass casualty events.
    FDA is the Federal agency that regulates all of the food we eat 
except for meat, poultry, and processed egg products, which are 
regulated by our partners at USDA. FDA also is responsible for ensuring 
that human drugs, human biological products, medical devices, and 
radiological products as well as veterinary drugs are safe and 
effective and that cosmetics are safe.
    FDA's primary mission is to protect the public health. Ensuring 
that FDA-regulated products are safe and secure is a vital part of that 
mission. While performing our mission, we play a central and a 
leadership role in the nation's defense against terrorism. First, 
terrorists could use an FDA-regulated product, such as food, as a 
vehicle to introduce biological, chemical, or radiological agents into 
the U.S. stream of commerce. Second, FDA-regulated products, such as 
human drugs, vaccines, tissues, blood, blood products, and medical 
devices, as well as veterinary drugs, will play a central role in 
preventing or responding to human and/or animal health concerns created 
by an act of terrorism. It is HHS's goal, with FDA working closely with 
other HHS agencies and other Federal agencies, and with State, local, 
and tribal governments, industry, and the public, to reduce the 
likelihood that an FDA-regulated product could be used to poison or 
otherwise harm Americans. We also help ensure that the nation's public 
health system is prepared to deter a potential threat and is ready to 
respond to an act of terrorism.
    By way of background, although FDA has the lead responsibility 
within HHS for ensuring the safety of food products, the Centers for 
Disease Control and Prevention (CDC) has an important complementary 
public health role. As the lead Federal agency for conducting disease 
surveillance, CDC monitors the occurrence of illness in the U.S. 
attributable to the entire food supply. The disease surveillance 
systems coordinated by CDC provide an essential early-information 
network to detect dangers in the food supply and to reduce foodborne 
illness.

COLLABORATION WITH FOOD SAFETY AND FOOD DEFENSE PARTNERS
    In its food safety and defense efforts, FDA has many partners--
Federal, State, local, and tribal agencies, academia, and industry. FDA 
is working closely with our Federal partners such as USDA, DHS, the 
Homeland Security Council at the White House, the Department of State, 
the Central Intelligence Agency (CIA), and the Federal Bureau of 
Investigation (FBI) to have the best information possible and to be 
prepared to act as needed. I also want to emphasize FDA's close working 
relationships with its sister public health agency, CDC, with Customs 
and Border Protection (CBP) in DHS, and with USDA's Food Safety and 
Inspection Service (FSIS). Some of our many Federal partners include 
USDA's Animal and Plant Health Inspection Service (APHIS), USDA's 
Foreign Agriculture Service, USDA's Agricultural Research Service, 
USDA's Food and Nutrition Service, Department of the Army Veterinary 
Services Activity, the Environmental Protection Agency (EPA), and the 
Department of Treasury's Alcohol and Tobacco Tax and Trade Bureau.
    FDA's activities in a public health emergency are coordinated 
through the HHS Secretary's Operations Center. This relationship 
facilitates communication among all HHS Operating Divisions, the 
Department, and other Federal agencies and departments, including DHS. 
FDA also has worked closely with the Interagency Food Working Group of 
the White House Homeland Security Council on three initiatives--
development of a national network of food laboratories, identification 
of vulnerabilities and subsequent mitigations for commodities of 
concern, and the development of a national incident management system. 
Further, FDA worked in partnership with EPA, USDA, DHS, and the 
Department of Defense (DoD) to describe general Federal roles and 
responsibilities for decontamination and disposal in response to 
animals, crop, and food incidents.
    In addition, FDA's Office of Criminal Investigations (OCI) 
maintains professional relationships with domestic and foreign law 
enforcement agencies as well as the intelligence community so that it 
can receive and act on any information regarding the intentional 
contamination of FDA-regulated products. OCI has a specialized 
counterterrorism staff with the clearances, capabilities, and 
backgrounds to analyze information from law enforcement and 
intelligence community agencies and to assist those agencies in 
conducting terrorism-related threat assessments involving FDA-regulated 
products. OCI has agents assigned to selected FBI Terrorism Task Forces 
throughout the United States.
    FDA is working closely with DHS and other Federal agencies to 
implement the President's Homeland Security Presidential Directives 
(HSPDs). The Secretary of DHS is responsible for coordinating the 
overall national effort to enhance the protection of the critical 
infrastructure and key resources of the nation, including food and 
agriculture defense. The President has issued HSPD-7,-8, and)--9, which 
identify critical infrastructures, improve response planning, and 
establish a national policy to defend the agriculture and food systems 
against terrorist attacks, major disasters, and other emergencies. 
Among other things, HSPD-9 calls for the development of a National 
Veterinary Stockpile (NVS). FDA and CDC participate in NVS Steering 
Committee activities.
    The HHS and USDA Secretaries or their designees exercise key 
responsibilities as food sector-specific agencies. DHS serves as the 
coordinator of the Food and Agriculture Sector within the Government 
Coordination Council (GCC). The GCC is charged with coordinating 
agriculture and food defense strategies, activities, and communication 
across government and between the government and the private sector 
partners.
    Within the GCC, HHS and USDA serve as co-leads for the food sector, 
and USDA serves as the lead for the agriculture sector. The Food and 
Agriculture Sector is a public-private partnership that combines 
expertise from several Federal agencies (FDA, USDA, EPA, DoD, 
Department of Commerce, Department of the Interior, and the Department 
of Justice) as well as that of state, local, and tribal officials 
(representing agriculture, public health, and veterinary services), and 
the private sector (more than 100 trade associations and individual 
firms participate). As part of the HSPD-7 National Infrastructure 
Protection Plan (NIPP) development, FDA and USDA developed sector-
specific plans with input from states and the private sector. DHS 
recently released the sector specific plans. With the close working 
relationship of FDA and USDA and the other government and industry 
collaborators, the Food and Agriculture Sector activities to protect 
critical infrastructure have set the organizational and operational 
standard for other critical infrastructure sectors. DHS has applauded 
the Food and Agriculture Sector's organizational structure, consensus 
building, and the steps it has taken to improve food defense.
    FDA also is working closely with our state partners to enhance food 
defense. For example, earlier this year, FDA conducted a Food Defense 
Surveillance Assignment for FDA and USDA personnel and participating 
state and local authorities to conduct food defense-related inspections 
and reconciliation examinations (to verify the accuracy of declarations 
in the shipping documents by comparing them with the actual products) 
and to collect and analyze samples of food products that may have an 
elevated risk for intentional contamination. The activities in this 
exercise were planned in cooperation and collaboration with USDA and a 
number of organizations representing state and local interests 
including the Association of American Feed Control Officials, 
Association of Food and Drug Officials, Association of Public Health 
Laboratories, Association of State and Territorial Health Officials, 
National Association of County and City Health Officials, National 
Association of Local Boards of Health, National Association of State 
Departments of Agriculture, National Environmental Health Association, 
and United States Animal Health Association. The purpose of this 
assignment was to deter intentional contamination of food through 
heightened and targeted preventive activities at various points in the 
food supply and to test the system for responding to an increased risk 
from food so that gaps in the system can be identified and addressed. 
This assignment enhanced multiple Federal, state, and local government 
agencies' preparedness for a future threat involving an FDA-regulated 
product. Since that time, FDA has issued a Protein Surveillance 
Assignment (PSA) to increase food defense awareness and assess the 
safety of the human food and animal feed supply following the finding 
of contaminated vegetable protein concentrate coming into the country 
from China. FDA continues to further integrate our food defense 
activities into our food safety work.
    In addition, FDA and CDC have collaborated with the Council of 
Association Presidents to develop a nationwide food defense awareness 
training program. This Council, which consists of ten of the major 
state and local public health and regulatory professional associations, 
has an outreach capability to reach virtually all state and local 
public health officials. The training program, which began in March 
2006 with a satellite downlink nationwide broadcast, has helped to 
raise food defense awareness at the local, state, and Federal levels. 
This program is now available for streaming download on the website of 
FDA's Center for Food Safety and Applied Nutrition.
    Now, I would like to describe some of FDA's other food defense 
activities.

INDUSTRY GUIDANCE AND PREVENTIVE MEASURES
    This year, FDA, in cooperation with CDC, USDA, and state and local 
organizations representing food, public health, and agriculture 
interests, initiated the ALERT awareness program. It provides a uniform 
and consistent approach to food defense awareness at any point in the 
supply chain, from farm to retail establishment.
    ALERT identifies five key points that industry and businesses can 
use to decrease the risk of intentional food contamination at their 
facility: They are:
        <bullet> A. How do you ASSURE that the supplies and ingredients 
        you use are from safe and secure sources?
        <bullet> L. How do you LOOK after the security of the products 
        and ingredients in your facility?
        <bullet> E. What do you know about your EMPLOYEES and people 
        coming in and out of your facility?
        <bullet> R. Could you provide REPORTS about the security of 
        your products while under your control?
        <bullet> T. What do you do and who do you notify if you have a 
        THREAT or issue at your facility, including suspicious 
        behavior?
    We have prepared ALERT materials in several languages and offer 
training on the ALERT system on our website that is suitable for state, 
local, and industry stakeholders.
    In 2003, FDA issued guidance on the security measures the food 
industry may take to minimize the risk that food will be subject to 
tampering or other malicious, criminal, or terrorist actions. FDA 
issued a general guidance entitled ``Food Producers, Processors, and 
Transporters: Food Security Preventive Measures.'' The guidance is 
designed as an aid to firms that produce, process, store, re-pack, re-
label, distribute or transport food or food ingredients. In addition, 
we have issued specific security guidance for the milk industry, for 
importers and filers, for retail food stores and food service 
establishments, and for cosmetic processors and transporters. During 
domestic inspections and import examinations, FDA's field personnel, as 
well as our state counterparts, continue to hand out and discuss these 
guidance documents.
    To help reduce the risk of an attack on the food supply, FDA and 
our partners at USDA developed a web-based food security awareness 
training program entitled, ``Protecting the Food Supply from 
Intentional Adulteration: An Introductory Training Session to Raise 
Awareness.'' The training is directed at individuals who play an 
important role in defending our nation's food from attack: Federal, 
state, local, and tribal food-industry regulators; school food 
authorities; and nutrition assistance program operators and 
administrators. Representatives from the food industry and individuals 
essential in responding to a food emergency due to an intentional 
attack--such as law enforcement, public health, and homeland security 
officials--also are encouraged to participate in the training program. 
The program is available to any interested individuals free of charge.

VULNERABILITY AND THREAT ASSESSMENTS
    FDA's risk-based approach to food defense helps the Agency 
determine where to focus its resources. As part of its efforts to 
anticipate threats to the food supply, FDA has conducted extensive 
scientific vulnerability assessments of different categories of food, 
determining the most serious risks of intentional contamination with 
different biological or chemical agents during various stages of food 
production and distribution. FDA's initial assessment utilized an 
analytical framework called Operational Risk Management (ORM) that 
considers both the severity of the public health impact and the 
likelihood of such an event taking place. As part of this process, FDA 
has incorporated threat information received from the intelligence 
community.
    To validate our findings, FDA contracted with the Institute of Food 
Technologists to conduct an in-depth review of ORM and provide a 
critique of its application to food security. This review validated 
FDA's vulnerability assessment and provided additional information on 
the public health consequences of a range of scenarios involving 
various products, agents, and processes.
    The ORM approach provided a high-level view of foods and agents 
that were of greatest concern. Since the completion of the ORM, FDA has 
undertaken more in-depth vulnerability assessments of specific food 
commodities using a method called CARVER+Shock. This method uses 
processes adapted from techniques developed by DoD for use in assessing 
the vulnerabilities of military targets to asymmetric threats. Results 
of these updated assessments are being used to develop technology 
interventions and countermeasures, identify research needs, and provide 
guidance to the private sector.
    In 2003, FDA began using the CARVER+Shock analytical tool to 
perform vulnerability assessments to identify what an individual or 
group, intent on doing damage to the food and agriculture sector, could 
potentially do based on the person's or group's capability, intent, and 
past history. The CARVER+Shock methodology was modified under Homeland 
Security Council leadership for use in the food and agriculture sector 
by FDA, USDA, and DoD with coordination by DHS, CIA, and FBI. FDA's 
approach has been to seek voluntary, mutually beneficial partnerships 
with various segments of the food industry. We have completed such 
cooperative assessments with segments of the regulated industry that 
involve bottled water, fluid dairy products, juice products, and infant 
formula. FDA also has collaborated with USDA to provide assistance to 
the USDA Food and Nutrition Service on the use of this analytical tool 
on specific commodities in the school lunch program.
    Since 2005, FDA has been part of a joint Federal initiative along 
with USDA, DHS, and the FBI called the Strategic Partnership Program on 
Agroterrorism (SPPA). The SPPA initiative is again using the 
CARVER+Shock tool and, through industry and state volunteers, is taking 
the tool to local venues. Local industry, FBI, DHS, FDA, USDA, State 
Departments of Health, and State Departments of Agriculture participate 
in these assessments. These assessments not only identify 
vulnerabilities in other food commodities but also build local 
infrastructure around food defense issues. The SPPA program will run 
for approximately two years and has a goal of completing 40-50 
assessments during this period. The results from these assessments will 
be used to identify mitigation strategies and to focus food defense 
research questions. These assessments included yogurt, export grain, 
baby food--applesauce, frozen entrees/pizza, bottled water, fresh cut 
produce, apple juice, fluid milk processing, milk at retail, infant 
formula, flour, stadium retail food service, and animal feed.
    Just last month, FDA released a new CARVER + Shock software tool to 
help processors, manufacturers, warehousers, and transporters in the 
food industry utilize the CARVER+Shock method to determine the 
vulnerability of individual food facilities to biological, chemical, or 
radiological attack. The software tool is available free of charge on 
FDA's website.

LABORATORY ENHANCEMENTS
    An additional step in enhancing our response capability is to 
improve our laboratory capacity. An important component of controlling 
threats from deliberate foodborne contamination is the ability to 
rapidly test large numbers of food samples that could potentially be 
contaminated for a broad array of biological, chemical, and 
radiological agents. To increase surge capacity, FDA has worked in 
close collaboration with USDA's FSIS to establish the Food Emergency 
Response Network (FERN) to include a substantial number of laboratories 
capable of analyzing foods for agents of concern. We are seeking to 
expand our capacity through agreements with other Federal and state 
laboratories. At present, the network includes 134 laboratories 
representing all 50 states and Puerto Rico. Participation continues to 
grow. Once it is operating at full capacity, FERN will encompass a 
nationwide network of Federal, state, and local laboratories working 
together to build the capacity to test the safety of thousands of food 
samples, thereby enhancing the nation's ability to swiftly respond to a 
terrorist attack.
    Last fall, the FERN network proved to be a critical asset in the E. 
coli O157:H7 outbreak associated with fresh spinach. FERN expanded our 
laboratory capacity to handle the large number of food samples being 
tested. In addition, FERN analysts worked closely with CDC's Laboratory 
Response Network personnel to harmonize and approve a modified FERN 
method for detecting E. coli O157:H7 in spinach. This method allowed 
for substantially improved testing of spinach samples as it allowed for 
the detection of E. coli O157:H7 at lower levels. The FERN program also 
supplied the necessary reagents to the laboratories performing the 
testing.
    More recently, on April 30, 2007, FDA issued a domestic vegetable 
PSA, in conjunction with our state and local regulatory partners, to 
test a variety of protein concentrates commonly found in the U.S. food 
and animal feed supply for the presence of melamine. Eight State FERN 
laboratories are involved in the analysis of the samples being 
collected.

IMPORTS
    To manage the ever-increasing volume of imported food shipments, 
FDA utilizes risk-management strategies in the review of foods that are 
being imported or offered for import into the United States. Currently, 
working with information submitted either through CBP's electronic 
systems used for import entries or through FDA's Internet-based Prior 
Notice System Interface, FDA screens shipments electronically before 
they arrive in the U.S. to determine if the shipment meets identified 
criteria for physical examination or sampling and analysis or warrants 
other review by FDA personnel. This electronic screening allows FDA to 
better determine how to deploy its limited physical inspection 
resources at the border on what appear to be higher-risk food shipments 
while allowing lower-risk shipments to be processed in accordance with 
traditional import procedures after the electronic screening. FDA is 
working to enhance its targeting ability by utilizing data from a much 
wider range of sources to inform our entry decisions.
    These are just a few of the many activities we have underway to 
enhance protection of the food supply.

CONCLUSION
    In conclusion, due to the enhancements being made by FDA and other 
agencies and due to the close coordination between the Federal and 
state food safety, public health, law enforcement, and intelligence-
gathering agencies, the United States' food defense system is stronger 
than ever before. Although we have made progress, we are continuously 
working to improve our ability to prevent, detect, and respond to 
terrorist threats.
    Thank you for this opportunity to discuss our food defense 
activities. I would be pleased to respond to any questions.

    Mr. Langevin. Thank you, Dr. Acheson. I appreciate your 
testimony.
    The chair now recognizes Dr. Maczka to summarize your 
statement for 5 minutes.

  STATEMENT OF CAROL MACZKA, PH.D., ASSISTANT ADMINISTRATOR, 
  OFFICE OF FOOD DEFENSE AND EMERGENCY RESPONSE, FOOD SAFETY 
                    INSPECTION SERVICE, USDA

    Ms. Maczka. Hello, Mr. Chairman and members of the 
subcommittee. I am pleased to appear before you today to 
discuss the issues of defending our food supply. I am Dr. Carol 
Maczka, Assistant Administrator for the Office of Food Defense 
and Emergency Response at USDA's Food Safety and Inspection 
Service, FSIS.
    My office manages all food defense activities within FSIS 
and coordinates its activities through DHS, FDA, other Federal 
and State agencies as well as industry. FSIS is the public 
health agency in USDA responsible for ensuring that meat, 
poultry and egg products are safe, secure, wholesome and 
correctly labeled and packaged. Inspection personnel form the 
backbone of FSIS's food safety system. FSIS has more than 7,000 
inspectors at Federal meat, poultry and egg products plants and 
import establishments. FSIS also has program investigators 
nationwide who conduct food safety and food defense 
investigations and enforcement. Consistent with Homeland 
Security Presidential Directive 9, the agency works with 
government and industry on improving awareness and warning 
systems, vulnerability assessments, mitigation strategies, 
response planning and recovery, and research and development. 
FSIS uses a comprehensive system to ensure that imported meat, 
poultry and egg products are safe and secure. It includes an 
initial determination of the equivalence of a country's 
inspection systems, on-site audits, and reinspection of all 
meat and poultry products coming into the United States. FSIS 
import inspectors ensure shipments are properly labeled and 
examined. Import surveillance offices conduct surveillance 
activities at ports and in commerce, and coordinate with other 
agencies, such as Customs and Border Protection. The agency 
also works with Customs' National Targeting Center to develop 
rule sets for targeting high-risk shipments entering the 
country, and is moving forward on a system that will allow the 
sharing of import tracking data by FSIS, Customs, and DHS.
    FSIS and FDA co-chair the Food Emergency Response Network, 
FERN. It is a coordinated effort between Federal, State and 
local laboratories to provide ongoing surveillance, as well as 
detection and surge capacity for large-scale food-related 
events. The agency has developed specific procedures for 
sampling food, depending upon the threat level designated by 
DHS. The agency also engages in active surveillance through a 
series of food defense verification procedures that are 
performed daily in all FSIS-regulated facilities. The agency's 
Consumer Complaint Monitoring System and national surveillance 
system monitors food-related consumer complaints, which assist 
the agency in identifying potential attacks on the food supply. 
FSIS has conducted food defense awareness training nationwide 
with State and local inspectors, and in cooperation with FDA 
with Federal agencies. FSIS has created and distributed model 
Food Defense Plans for use by meat, poultry and egg products 
facilities, and import establishments. These plans identify the 
types of preventive steps that establishments might take to 
minimize food defense risks. The agency has also held numerous 
workshops and Web casts on Food Defense Plans to reach out to 
small plants. In the area of responding to food emergencies, 
FSIS has developed State response plans and conducted six 
exercises with industry and State and Federal agencies to test 
emergency response procedures. A total of 15 exercises are 
planned, which will take into account 50 States. FSIS also 
continues to enhance its readiness for a possible outbreak of 
avian influenza. The agency has conducted an exercise and 
developed a testing protocol for detecting high path avian 
influenza in poultry meat.
    In addition, FSIS has actively engaged its partners in 
developing pandemic plans. This spring, FSIS worked closely 
with FDA to respond to the discovery that some swine and 
poultry had been fed pet food scraps containing melamine. FSIS 
quickly ensured that swine and poultry were held under State 
quarantine or voluntarily by owners. A joint risk assessment 
concluded that the potential exposure to the public, even in 
the worst case scenario, was well below any level of public 
health concern. Subsequently, FSIS cleared animals on farms in 
question for inspection and processing.
    In conclusion, Mr. Chairman and members of the 
subcommittee, I want to thank you for this opportunity to 
discuss FSIS's leadership role in protecting the food supply. 
We take pride in knowing that our Nation's food supply is among 
the safest in the world, but we also realize that it is vital 
to continue to improve our system. I am happy to answer any 
questions you may have.
    [The statement of Ms. Maczka follows:]

               Prepared Statement of Carol Maczka, Ph.D.

    Mr. Chairman and Members of the Subcommittee, I am pleased to 
appear before you today to discuss the issue of defending our food 
supply system from farm to table. I am Dr. Carol Maczka, Assistant 
Administrator for the Office of Food Defense and Emergency Response at 
the United States Department of Agriculture's (USDA) Food Safety and 
Inspection Service (FSIS).
    The program area within FSIS that I lead is the Office of Food 
Defense and Emergency Response (OFDER), which manages all homeland 
security activities within FSIS. OFDER makes sure that policy makers, 
scientists, field staff and management are prepared to prevent and 
respond to any food security threat. OFDER develops and coordinates all 
FSIS activities to prevent, prepare for, respond to, and recover from 
non-routine emergencies resulting from intentional and non-intentional 
contamination affecting meat, poultry, and processed egg products. 
OFDER also serves as the agency's central office for homeland security 
issues and ensures coordination of its activities with the USDA 
Homeland Security Office, the Department of Homeland Security (DHS), 
the FDA, other Federal and State government agencies with food-related 
responsibilities, and industry.
    FSIS is the public health agency in the USDA responsible for 
ensuring that the nation's commercial supply of meat, poultry, and 
processed egg products is safe, secure, wholesome, and correctly 
labeled and packaged. FSIS is charged with administering and enforcing 
the Federal Meat Inspection Act, the Poultry Products Inspection Act, 
the Egg Products Inspection Act, portions of the Agricultural Marketing 
Act, and the regulations that implement these laws. FSIS also ensures 
compliance with the Humane Methods of Slaughter Act, which requires 
that all livestock be handled and slaughtered in a humane manner. The 
Agency is responsible for determining equivalence to Federal standards 
at the State level and among our foreign trading partners.
    FSIS plays a key role in the nation's food safety system, which 
also includes agencies such as the Department of Health and Human 
Services' Food and Drug Administration as well as state, tribal and 
local food safety partners. FSIS works closely with these agencies and 
other partners to share information and protect public health.
    Our inspection program personnel form the backbone of FSIS' public 
health infrastructure in laboratories, plants, and import houses 
throughout the country. FSIS has more than 7,600 inspectors and 
veterinarians in approximately 6,000 Federal meat, poultry, and 
processed egg product plants, and at approximately 130 import 
establishments every day to prevent, detect, and respond to food-
related emergencies. In fiscal year 2006, inspection program personnel 
performed antemortem and postmortem inspection procedures to ensure 
public health requirements were met in the processing of more than 46 
billion pounds of livestock carcasses, almost 57 billion pounds of 
poultry carcasses, and about 4.4 billion pounds of liquid egg products.
    In fiscal year 2006, FSIS inspection program personnel conducted 
more than eight million procedures to verify that establishments met 
food safety and wholesomeness requirements. In addition, during fiscal 
year 2006, approximately 3.9 billion pounds of meat and poultry and 
about 5.9 million pounds of egg products were presented for import 
inspection at U.S. ports and borders. FSIS also has Program 
Investigators nationwide who conduct food safety, food defense, and 
outbreak investigations and enforcements.
    The Agency also engages in active surveillance through a series of 
food defense verification procedures performed daily in all FSIS-
regulated facilities. With a strong food safety verification system in 
place, FSIS has been focusing on fortifying existing programs with a 
greater emphasis on food defense and improving internal and external 
lines of communication, including the integration of the food defense 
system databases with the larger public health data infrastructure.
    Homeland Security Presidential Directives most relevant to our work 
are:
        <bullet> HSPD-5: Management of Domestic Incidents;
        <bullet> HSPD-7: Critical Infrastructure Identification, 
        Prioritization, and Protection;
        <bullet> HSPD-8: National Preparedness; and especially
        <bullet> HSPD-9: Defense of U.S. Agriculture and Food.
    HSPD-9 was signed on January 30, 2004, and establishes a national 
policy to defend the agriculture and food system against terrorist 
attacks, major disasters, and other emergencies. It directs the 
Secretary of Agriculture to work with other Federal department and 
Agency leaders on improving awareness and warning systems, 
vulnerability assessments, mitigation strategies, response planning and 
recovery, outreach and professional development, and research and 
development.
    FSIS uses a comprehensive system to ensure that imported meat, 
poultry, and processed egg products are safe and secure. It includes a 
thorough analysis of each country's food laws and inspection systems to 
determine initial equivalence; on-site audits of each country's food 
safety system to ensure equivalence is maintained; and port-of-entry 
inspection on all meat, poultry, and processed egg products coming into 
the United States. It is enhanced by FSIS' Import Surveillance Liaison 
Officers, who conduct a broader range of surveillance activities at 
import facilities and in commerce, and serve as liaisons to improve 
coordination with other agencies like U.S. Customs and Border 
Protection (CBP).
    Every day, FSIS personnel are at U.S. ports, inspecting shipments 
as they come in and pulling out samples. The Agency focuses on stopping 
illegal shipments at their point of entry. When meat and poultry 
imports enter the United States, FSIS import inspectors ensure that 
each shipment is properly certified, examine each lot for general 
condition and labeling, and conduct reinspection as directed by a 
centralized computer system, the Automated Import Information System. 
Using protocols developed by FSIS with USDA's Office of Inspector 
General and the Animal and Plant Health Inspection Service (APHIS), 
111,000 pounds of ineligible product were detected and 1,766,050 pounds 
of product detained in fiscal year 2006 out of 9 billion pounds of meat 
and poultry and about 5.9 million pounds of egg products presented for 
import inspection at U.S. ports and borders.
    The Agency also worked with CBP's National Targeting Center to 
develop rules for targeting high-risk, FSIS-regulated shipments 
entering the country. This effort included a two month pilot program in 
2006 in which a total of 3,229 shipments were screened at two ports 
using the rule sets. The Agency is also moving forward on a system 
which will allow the sharing of import tracking data by FSIS, CPB, and 
DHS to further strengthen our ability to ensure the safety and security 
of imported meat, poultry and processed egg products through better and 
more rapid access to data on imports.
    FSIS is currently working with other Federal government agencies to 
integrate its International Trade Data Systems (ITDS) design 
requirements with the ePermits system developed by Animal and Plant 
Health Inspection Service (APHIS) and the larger Automated Commercial 
Environment under development by US Customs and Border Protection. 
Ultimately, these efforts would result in a Federal-government wide 
linkage of all inspection and border control data systems, meeting 
FSIS' regulatory needs along with those of sister agencies.
    FSIS and FDA are leading the development of the Food Emergency 
Response Network, a joint effort of national, State, and local 
laboratories to provide ongoing surveillance and monitoring of food and 
to promptly respond to a foodborne illness outbreak or intentional 
contamination that targets the Nation's food supply. In addition, FERN 
is a critical source of data for the FSIS public health data 
infrastructure.
    FERN enables FSIS to utilize State and local laboratories in 
handling the numerous samples required to be tested in the event of an 
attack on the food supply, a natural outbreak, or even a hoax, 
involving a meat, poultry, or egg product. It is vital for the Agency 
to respond rapidly to such emergencies to not only protect the public's 
health, but also to ensure public confidence in the safety of the food 
supply. The first line of this rapid response is the laboratories, 
which must be provided with training, methodology, and state-of-the-art 
laboratory equipment.
    FERN provides ongoing surveillance, as well as detection and surge 
capacity for large-scale food-related events. It enables not only the 
sharing of standardized methodologies and proficiency testing but also 
a secure electronic reporting system for lab results. Four Federal Labs 
and 18 existing State labs are currently under FSIS cooperative 
agreements. Additionally, FSIS has cooperative agreements targeting 
total of 25 State labs geographically located across the country. The 
FERN laboratories will eventually be proficient to screen for the same 
threat agents as Federal labs, some with capability to do confirmation 
testing. FSIS primarily focuses on microbiological agents with our 
partners at FDA focusing on chemical and radiological agents.
    Another example of interagency coordination and collaboration by 
FSIS is participation in the integrated consortium of lab networks 
developed by DHS. This consortium ensures coordination among Federal 
and State partners focused on both food and agriculture. The consortium 
ensures consistency of methods development, reporting of lab results 
and the sharing of lab results among all Federal and State partners.
    The Agency has developed specific procedures on monitoring and 
sampling to be taken depending on the threat level as determined by the 
DHS. The appropriate testing is based on vulnerability or risk-based 
assessments for selected domestic and imported food products, which 
allows the Agency to rank food products and potential contaminating 
agents in order of highest concern. The Agency's enhanced Consumer 
Complaint Monitoring System (CCMS), a national surveillance system that 
monitors food-related consumer complaints which will eventually be 
integrated with other data systems, also assists in the Agency's 
efforts to track potential attacks on the food supply.
    FSIS' comprehensive and ongoing training and education efforts 
ensure that every FSIS employee fully understands their role in 
preventing, or responding to, an attack on the food supply. Food 
defense awareness training is also conducted at locations nationwide 
with State and local inspectors and in cooperation with other Federal 
agencies. Training courses were also developed in conjunction with the 
FDA; USDA's Food and Nutrition Services; and the Department of 
Transportation (in development) to focus specifically on food defense 
for each agency's respective workforce.
    FSIS has created and distributed model food security plans that 
meat, poultry and processed egg products facilities and import 
establishments can use to develop and implement a Food Defense Plan. 
These plans identify the types of preventive steps that establishments 
might take to minimize food security risks for products under their 
control. A simplified version of guidance on food defense plans was 
developed in consultation with industry trade groups. This guidance 
provides an easy three-step process which will result in a completed 
food defense plan. The Agency has also held numerous workshops and 
Webcasts on Food Defense Plans to reach out to as many small and very 
small plant owners and operators as possible; Webcasts specifically 
targeted to State officials; efforts to reach various targeted 
audiences, such as Spanish speakers and various industry and trade 
associations.
    As it is widely understood that the response to most large-scale 
food emergencies will be initiated at the State level, FSIS and FDA 
have worked with the National Association of State Departments of 
Agriculture (NASDA) to develop, test, and implement an emergency 
response template.
    FSIS continues to enhance readiness for a possible outbreak of 
avian influenza. The agency's goal is to ensure that all appropriate 
preparations are being made for the potential spread of the H5N1 strain 
of the virus to the United States, whether in birds or in humans. FSIS 
has also carried out a tabletop exercise on avian influenza with other 
Federal and State agencies, as well as industry and consumer groups.
    USDA is playing many important roles in this effort. The 
Department's four-part approach to combating avian influenza includes 
limiting the spread of the virus overseas through international 
outreach. Second is educating the American public through a proactive 
campaign to inform without causing alarm. Third is USDA's and the 
Department of Interior's aggressive surveillance program in partnership 
with States, which includes wild birds, live bird markets, backyard 
flocks and thanks to the cooperation of industry--testing of commercial 
flocks. The fourth aspect is to practice executing our response plan. 
As you may know, USDA has a long and successful history of dealing with 
highly pathogenic avian influenza.
    It should be noted, of course, that detection in birds does not 
signal the start of a human pandemic. This virus is not easily 
transmitted from person to person. Most human illnesses that we've seen 
overseas have resulted from direct contact with sick or dead birds. No 
human illnesses have been attributed to properly handled and cooked 
poultry. This is another area where FSIS and USDA have been actively 
engaged with our partners in government, industry and the consumer 
community to make sure concerns related to any possible pandemic are 
addressed before that ever happens.
    As part of its coordinated response plan with the Animal and Plant 
Health Inspection Service (APHIS), the Agency has developed a product 
testing protocol for detecting Highly Pathogenic Avian Influenza in 
poultry meat. In should be stressed, however, that cooking poultry to 
an internal temperature of 165 degrees kills all viruses and all other 
foodborne pathogens, including avian influenza.
    In fiscal year 2006, FSIS' activities better prepared the Agency 
and its stakeholders to detect, respond, and recover from food-related 
emergencies. In the area of food defense, FSIS conducted about 
1,200,000 daily food defense verification procedures in FSIS-regulated 
and State-inspected facilities. The Agency also conducted six tabletop 
exercises with stakeholders and other local, State, and Federal 
agencies to test and validate standard operating procedures and 
directives for responding to non-routine (emergency) incidents. A total 
of 15 tabletop exercises are planned, which will take into account all 
50 states.
    In April and May of this year, FSIS worked together closely with 
FDA to respond to the discovery that some swine and poultry in the 
human food supply chain had been fed animal feed supplemented with pet 
food scraps that contained melamine and related compounds. FSIS and FDA 
alerted the public and investigated the source and extent of the 
situation. As soon as the situation arose, we also ensured that swine 
and poultry on farms known to have received or suspected of receiving 
contaminated feed that had tested positive for melamine and melamine-
related compounds were held under State quarantine or voluntarily by 
the owners. After a risk assessment conducted by scientists from FSIS 
and FDA, in consultation with scientists from CDC, the Environmental 
Protection Agency and DHS, concluded the potential exposure to the 
public, even in a highly unlikely worst-case scenario, was 250 times 
lower than the dose considered safe and therefore well below any level 
of public health concern, FSIS cleared the animals in question for 
inspection and processing.
    FSIS has also developed and implemented a series of FSIS directives 
(two of which have been updated thus far in fiscal year 2007) for each 
of the agency's eight program areas that prescribe how protective 
measures defined by Homeland Security Presidential Directive 3, 
Homeland Security Advisory System are to be implemented. Directive 3 
established a threat advisory system to effectively communicate the 
level of risk of a terrorist attack to the American people. It 
prescribes that agencies develop appropriate ``Protective Measures'' in 
response to each of the five threat levels established. The measures 
developed by FSIS include active surveillance through a series of food 
defense verification procedures performed daily in all FSIS-regulated 
facilities, including import inspection facilities and in-distribution 
facilities. Results of the verification procedures are reported to and 
are analyzed by the agency. The results of the analysis direct outreach 
and guidance initiatives and countermeasures development.
    The Office of Management and Budget and the relevant food safety 
agencies are collaborating on ways to most effectively address issues 
raised in GAO's designation of Federal Oversight of Food Safety as a 
high-risk item in February 2007.
    USDA, the Department of Health and Human Services, and DHS are 
working together to create a comprehensive food and agriculture policy 
that will improve the government's ability to respond to dangers to the 
food supply. For fiscal year 2008, the Agency has proposed a budget 
which includes $31 million to further improve FSIS' ability to detect 
and respond to intentional or accidental contamination of the food 
supply.
    While food defense is critical to our work, another threat to the 
food supply is naturally-occurring pathogens. Our work identifying and 
limiting pathogens in the food supply will also help mitigate 
vulnerabilities in food defense.
    In conclusion, Mr. Chairman and all Members of the Subcommittee, I 
want to thank you again for this opportunity to explain the vital role 
played by USDA and FSIS in protecting the nation's food supply. We take 
pride in knowing that our nation's food safety and food defense system 
for meat, poultry, and processed egg products is the best and safest in 
the world. But we also realize that it is vital not to stand still but 
instead to continue improving our nation's food safety and food defense 
systems. We take this stand not only as public health professionals but 
also as everyday Americans who ourselves rely on the results of what we 
do. I am happy to answer any questions you may have.

               FSIS FOOD Defense Mission and Initiatives

<bullet> To prevent, prepared for, respond to, and recover from an 
intentional attack on the food supply and large scale food-related 
emergencies.
<bullet> Consistent with HSPDs 5,7, and 9.

 
 
------------------------------------------------------------------------
Outreach and training to prepared          -Security guidance materials
 stakeholders to protect the food supply.   for food processors,
                                            transporters, &
                                            distributors.
                                           -Self assessment and food
                                            defense plan tools for
                                            industry, including
                                            training.
                                           -Food defense awareness
                                            training for employees,
                                            industry, and other Federal
                                            and State government
                                            agencies.
------------------------------------------------------------------------
Assessing Food System vulnerabilities for  -Ten FSIS vulnerability
 developing countermeasures.                assessments conducted-
                                            identified products, agents,
                                            and nodes of highest
                                            concern, as well as
                                            countermeasures.
                                           -Participate in Strategic
                                            Partnership Program on
                                            Agroterrorism (DHS, FBI,
                                            FDA) to conduct
                                            vulnerability assessments
                                            (includes States & industry)
                                           -Workshops for industry, G8
                                            task force, & APEC economies
                                            on methodologies to conduct
                                            vulnerability assessments to
                                            protect imports and exports.
                                            Collaborated with FDA and
                                            State Department on the
                                            workshops for G8 countries
                                            and APEC economies
------------------------------------------------------------------------


                      FSIS Food Defense Initiatives
------------------------------------------------------------------------
 

Developing countermeasures to mitigate     -Coordinating with ARS,
 vulnerabilities.                           CSREES, DHS on filing
                                            research needs relating to
                                            critical food defense data
                                            gaps (e.g., detection
                                            methods, feasibility, and
                                            agent characterization
                                            studies).
                                           -Working directly with
                                            industry and through DHS's
                                            Sector Coordinating Council
                                            to develop countermeasures.
------------------------------------------------------------------------
Conducting surveillance to identify        -Daily testing of samples for
 attack on the food supply.                 specified threat agents.
                                           -Homeland security
                                            directives--direct personnel
                                            on what food defense
                                            verification procedures to
                                            perform on a daily basis in
                                            federally-inspected
                                            establishments and in
                                            distribution. working with
                                            industry to harden
                                            infrastructure.
                                           -Targeting illegal & high-
                                            risk shipments with Customs
                                            and Border Protection.
------------------------------------------------------------------------
Managing food defense & food safety        -Created the Emergency
 emergencies.                               Management Committee & a Non
                                            Routine Incident Management
                                            System for managing &
                                            tracking non-routine
                                            incidents.
                                           -Conduct food defense
                                            exercises with States,
                                            industry, consumer groups, &
                                            other federal agencies (eg;
                                            FBI, DHS, FDA). 6 conducted
                                            to date, 4 planned in FY07,
                                            and 5 in FY08. Conducted and
                                            A1 outbreak exercise in FY
                                            06 and planning a Pandemic
                                            exercise in FY 07.
                                           -Guidance for industry on the
                                            disposal of food products &
                                            facility decontamination.
                                           -Template for developing
                                            State response plans for
                                            food emergencies.
                                           -Provide training on Incident
                                            Command System and ESF 11
                                            for key personnel.
------------------------------------------------------------------------
Ensuring Agency Continuity of Operations.  -Conduct agency-wide COOP
                                            exercises.
                                           -SOPs to ensure critical
                                            essential functions are
                                            maintained.
                                           -Established alternative
                                            relocation sites, designated
                                            essential personnel, and
                                            identified vital records.
                                           Developed All-Hazards, Avian
                                            Influenza, & Human Pandemic
                                            plans.
------------------------------------------------------------------------


    Mr. Langevin. Thank you for your testimony, Dr. Maczka.
    The chair now recognizes Dr. McGinn for 5 minutes to 
summarize your statement.

   STATEMENT OF TOM MCGINN, D.V.M, DIRECTOR, AGRICULTURE AND 
       VETERINARY DEFENSE, OFFICE OF HEALTH AFFAIRS, DHS

    Dr. McGinn. Thank you, Mr. Chairman, and members of the 
subcommittee. I appreciate the opportunity to talk to you today 
about the safety of our national food system. My name is Dr. 
Tom McGinn, and I serve as the Director of Food, Agriculture 
and Veterinary Defense within the Department of Homeland 
Security's Office of Health Affairs, which is led by the Acting 
Assistant Secretary and Chief Medical Officer, Dr. Jeff Runge. 
My job is to be the primary point of contact within DHS to 
synchronize our food, agriculture and veterinary assets. One of 
our responsibilities within the Office of Health Affairs is to 
coordinate 30 programs within DHS that address some aspect of 
food, agriculture and veterinary defense. I am pleased to 
testify today with Dr. Acheson, with Carol and with Dan Baldwin 
from Customs and Borders as well. These are valued friends and 
colleagues.
     FDA and USDA represent the sector-specific agencies with 
the subject matter expertise and the legal authority for the 
protection of the food in our country. Together with the 
private sector and our State and local and academic partners, 
who you will hear from later today, we all provide food defense 
for the United States. Together we cultivate a complex, 
effective set of resources that are becoming better known to 
each of us and better able to be integrated into a National 
Incident Management System.
    I will highlight the following three areas: one, the 
contribution of DHS to food defense; two, the Office of Health 
Affairs' strategic plan to further implement HSPD-9; and three, 
the way forward for food defense.
    DHS's contribution to food defense: Food defense includes 
activities beyond our borders and across our domestic food 
supply chain, as well as in our homes. It involves everyone, 
from the local ice cream shop to the most capable sector-
specific agencies of the Department of Health and Human 
Services and the U.S. Department of Agriculture. The large 
majority of incidences involving food issues are handled at the 
private, State and local level, with the leadership of HHS and 
USDA. DHS makes its resources available to instances involving 
food when requested by Federal agencies or the President or 
when multi-agency involvement requires the integration of 
Federal, State and local resources to preserve the security of 
our Nation. DHS also makes its resources available to its 
Federal partners and to its Centers of Excellence to do 
research in the area of threat. It makes its resources 
available to States to build surge capacity to reduce the risk 
to the food supply, and to train and exercise food defense 
systems.
    Secretary Chertoff created the Office of Health Affairs as 
part of a reorganization on January 11th, 2007. Its mission is 
to protect the health and security of the American people, and 
the coordination and collaboration of the DHS components with 
Federal, State and local partners and the private sector. With 
specific reference to agroterrorism, the Secretary appointed 
the chief medical officer to be the official accountable for 
the implementation of the Department's responsibilities for 
veterinary, food and ag security, and it includes the 
coordination of the Department's responsibilities for the 
implementation of HSPD-9, the defense of U.S. agriculture and 
food.
    Number two, in the area of post-harvest preparedness and 
HSPD-9, the enormity and complexity of the food sector poses 
substantial challenges to food defense and critical 
infrastructure. These challenges include overlapping roles and 
responsibilities among Federal departments and agencies, and 
the Office of Management and Budget, but the relevant food 
agencies are collaborating to address these issues. DHS brings 
unique and complementary tools and expertise to bear, and such 
tools as the National Security Risk Assessments and the 
integration of surveillance. The Department of Agriculture and 
FDA provides tools and expertise in the area of food and 
agricultural critical infrastructures. The Food and Drug 
Administration and USDA work closely with Customs and Border 
Patrol on a day-to-day basis in imported food inspections and 
laboratory analysis.
    As a highlight, I would like to mention that these agencies 
worked well together during the recent melamine incident, which 
is consistent with the intention of HSPD-9. HSPD-9 was issued 
to establish a national policy to defend the Nation's food and 
agricultural systems against terrorist attacks, major disasters 
and emergencies. DHS has 17 of the 21 tasks designated to us, 
and we lead or co-lead in 12 of these tasks. The landscape of 
food safety and defense is changing. Evolving risks include a 
tremendous growth of imported food markets.
    Federal and State regulatory programs, as well as 
laboratories, are currently the backbone of our Nation's food 
safety network. Threats to the food supply typically cross 
State borders and have national implications. We need to be 
diligent in coordinating planning involving the key 
stakeholders, importantly including State and local authorities 
and the private sector. Realistic exercises help to develop the 
relationships, plans and preemptive tools we need to prevent, 
mitigate and respond to food system events. An alignment of 
resources at the interagency level with local, State and 
national governments, with strong collaboration with the 
private sector is, or needs to be, continually strengthened.
    Number three, the way forward: We are focusing our efforts 
more completely on resilience within the food chain. DHS is 
currently studying key components of the Nation's food chain in 
partnership with the FBI, USDA and FDA in programs with the 
industries and the States to better understand the 
vulnerabilities of 50 major food and agricultural commodities. 
The challenge is sharing this information in an appropriate 
manner with all relevant stakeholders. FDA has a great example 
of a Web-based tool as a first step. Another tremendous first 
step----
    Mr. Langevin. Dr. McGinn, if you could summarize your 
statement. We are way over the 5 minutes.
    Dr. McGinn. Okay. Thank you. In summary, a more resilient 
food infrastructure is a most important way to build resilient 
communities. The recent Mayor of Gulfport said that a simple 
way of building resiliency is the restoration of a favorite 
restaurant. It gives a place for his people to rest in a 
tragedy, such as in recent hurricanes, and spend a few minutes 
outside of a familiar place with familiar food, and finding 
confidence that the rest of his community will be restored. He 
clearly understood that food system resilience is part of 
community resilience.
    Mr. Chairman, I will stop with those comments, and I will 
be happy to entertain any questions as we go forward. Thank 
you.
    [The statement of Dr. McGinn follows:]

               Prepared Statement for Dr. Tom McGinn, DVM

INTRODUCTION
    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to talk with you about the safety, and in particular the 
post-harvest defense, of our food supply. The United States has not 
only the most bountiful food production capacity in the world, but it 
is among the safest as well. Safety is not an inherent quality of U.S. 
food production--it takes continual dedication to ensure the safety and 
security of the food supply. I appreciate the chance to highlight the 
contributions of the Department of Homeland Security (DHS) to Food, 
Agriculture and Veterinary (FAV) Defense. I will also discuss the role 
that DHS played in the recent pet food contamination incident as 
demonstration of the diversity of DHS programs. Finally, I will discuss 
the Office of Health Affairs' (OHA) strategic plan to further implement 
Homeland Security Presidential Directive 9 (HSPD-9) along with state 
and local governments and the private sector. Importantly, managing any 
event will not be a federal issue alone. Success in the realm of food 
safety and defense will depend upon coordination among states, local 
and private entities, and national programs that utilize our Nation's 
resources effectively.

DHS OFFICE OF HEALTH AFFAIRS (OHA)
    Secretary Chertoff created the Office of Health Affairs as part of 
the departmental reorganization on January 18, 2007 in response to P.L. 
109-295 '516. OHA was created to protect the health and security of the 
American people in coordination and collaboration with other DHS 
components, federal, state and local partners, and the private sector. 
Responsibilities and activities of OHA do not duplicate or supplant 
activities currently being provided by other components of DHS or the 
departments and agencies of the Executive Branch. The Chief Medical 
Officer (CMO) has the following responsibilities:
        <bullet> To serve as the Secretary's principal medical and 
        veterinary authority for DHS;
        <bullet> To coordinate DHS biodefense activities, to include 
        policy, planning, strategy, requirements, operational programs 
        and metrics;
        <bullet> To ensure internal/external coordination of DHS' 
        medical [including veterinary] preparedness and response 
        activities;
        <bullet> To serve as the primary DHS point of contact for 
        federal/state/local/tribal governments and the private sector 
        on medical [including veterinary] and public health issues; and
        <bullet> To discharge DHS' responsibilities under Project 
        BioShield, in coordination with the Science and Technology 
        (S&T) Directorate.
    The Department serves as the integrator of federal, state and local 
resources that are needed to preserve the security of the Nation. With 
specific reference to agroterrorism preparedness, in a memo dated March 
28, 2007, Secretary Chertoff designated OHA's Assistant Secretary and 
Chief Medical Officer as the DHS official accountable ``for the 
implementation of the Department's responsibilities of veterinary, food 
and agriculture security. . .[who] will also coordinate the 
Department's responsibilities for implementation of Homeland Security 
Presidential Directive 9, Defense of the United States Agriculture and 
Food.''
    Within OHA, I serve as the Director of Food, Agriculture and 
Veterinary (FAV) Defense. FAV goals are to ensure that the food and 
agriculture sectors are actualized as Critical Infrastructure; 
understand and strengthen public confidence in food protection through 
assessment and enhancement; ensure critical stakeholders are 
functionally aligned; and assist all DHS Food, Agriculture and 
Veterinary programs in attaining operational capability. OHA/FAV 
Defense activities are working to foster efficiency and effectiveness 
across DHS regarding food, agricultural and veterinary defense.
    HSPD-9, Defense of United States Agriculture and Food, was issued 
to establish a national policy to defend the nation's agriculture and 
food systems against terrorist attacks, major disasters, and other 
emergencies. HSPD-7, Critical Infrastructure Identification, 
Prioritization and Protection, identifies DHS as ``responsible for 
coordinating the overall national effort to enhance the protection of 
the critical infrastructure and key resources of the United States,'' 
and recognizes the DHS Secretary as ``the principal federal official to 
lead, integrate and coordinate implementation of efforts.'' HSPD-9 
assigns to the DHS Secretary tasks in this area that are specific to 
the defense of food and agriculture. These tasks include mitigation of 
vulnerabilities in food, agriculture and water systems, as well as 
developing robust biological threat awareness capacity. Of the 21 tasks 
for which DHS has been designated some degree of responsibility, we 
have the lead for 12. Those 12 activities fall under the following five 
pillars:
        (1) Awareness and Warning--Includes intelligence operations and 
        biological threat assessment and analysis activities
        (2) Vulnerability Assessments--DHS, in coordination with USDA 
        and HHS, is to conduct comprehensive studies to determine the 
        nation's vulnerability to a wide variety of foodborne pathogens 
        and adulterants
        (3) Mitigation Strategies--DHS will aid in prioritizing, 
        developing and implementing, as appropriate, mitigation 
        strategies and shall build upon existing efforts to expand 
        development of screening and inspection procedures at the 
        borders
        (4) Response Planning & Recovery--Includes activities involving 
        local response capabilities and coordinated response planning
        (5) Outreach and Development--Includes information sharing and 
        analysis mechanisms, specialized training in agriculture and 
        food protection, continued development and research for 
        countermeasures against introduction of animal/plant diseases, 
        plans to provide biocontainment labs for researching 
        capabilities and establishing university-based Centers of 
        Excellence.
    All five pillars, in fact, are being undertaken across all sectors, 
in collaboration with all Federal agencies.

THE PET FOOD CONTAMINATION INCIDENT
    Approximately sixty percent of American households contain pets. 
Early this year, the U.S. government became aware that high levels of 
low-grade melamine, which contained not just pure melamine, but 
additional melamine analogues, were intentionally added to products 
labeled as ``wheat gluten'' and ``rice protein concentrate.'' These 
products were imported from China into the U.S. and subsequently 
incorporated into many pet food products. In addition, certain salvaged 
pet food products that were melamine contaminated were unknowingly fed 
to some food producing animals. This combination of contaminants was 
not detected until it was learned that certain pet foods were sickening 
and killing cats and dogs. In addition to the illness and death burden, 
many lessons observed were highlighted by this incident are also being 
addressed.
    Contaminated ``wheat gluten'' and ``rice protein concentrate'' were 
imported into the United States in the fall of 2006. Menu Foods, the 
producer and distributor of many brands of pet foods nationally and 
internationally, became aware of reports of illness and death in pets 
and began recalling certain brands of pet food in March 2007. Chinese 
sources admitted to intentionally adding melamine to increase nitrogen 
content in rice products and wheat gluten, which falsely elevated 
protein measurements. In addition to pet food products, melamine-laced 
feedstuffs were also fed to production animals in the U.S. These 
animals could have entered the human food chain. Compounds fed to food-
producing animals may, through tissue adulterant residues, make it into 
the human food chain. An interagency risk assessment considered the 
risk to humans from melamine-contaminated products fed to food 
producing animals and concluded that this was very unlikely to cause 
harm to humans.
    While more research is needed on the exact cause of the illnesses 
in cats and dogs, this melamine event demonstrated a potentially 
significant vulnerability to the human food supply due to the global 
nature of our food and agricultural systems.

COLLABORATION AMONG DHS ENTITIES
    OHA worked to organize the Department's various components soon 
after the pet food contamination incident began. Initial meetings 
generated a comprehensive list of capabilities that each component 
could leverage to respond to this incident. It also identified methods 
of sharing timely information. As the situation evolved and the true 
scope emerged, an Interagency Working Group (IAG) met at the DHS 
National Operations Center. The IAG established the process for a 
national-level Situational Report (SITREP), as well as the 
corresponding flow of information. OHA took the lead in forming the IAG 
and worked with the Operations Directorate to produce and disseminate 
the SITREP.
    Heretofore, DHS had not established a formalized process for 
reporting on issues such as a food contamination event. The National 
Biosurveillance Group (NBSG), composed of the National Biosurveillance 
Integration System (NBIS) member Federal agencies, developed and 
implemented a formalized process. This was accomplished by coordinating 
information flow among DHS, the components and headquarters of 
Department of Health and Human Services (DHHS), and USDA, as well as 
other affected DHS entities. The efforts of other DHS offices assisted 
in the coordinated response. These efforts are summarized below:
    Customs and Border Protection (CBP)--CBP used its FDA-coordinated, 
automated systems and laboratory analytic capabilities to identify, 
target, sample and test additional incoming shipments of wheat, corn, 
and rice glutens for the presence of melamine. During the enforcement 
operation, CBP tested samples of products from 23 countries shipped by 
suppliers and producers that account for over 59 percent of the 
imported volume of the merchandise in the previous 12-month period. 
That contributed to a greater degree of assurance that products coming 
into the U.S. were free of the contamination and that the melamine 
issue was isolated to a few Chinese producers.
    National Protection & Programs Directorate (NPPD)--The Homeland 
Infrastructure Threat & Risk Analysis Center (HITRAC) is a shared 
program between NPPD and the Office of Intelligence and Analysis. 
HITRAC monitored intelligence and related infrastructure information 
from open sources and classified reporting. HITRAC shared this 
information with the members of the IAG for use in their analysis.
    Science and Technology (S&T)--The S&T National Science, Technology 
and Threat Awareness Reachback (NSTTAR) service provided real time, 
technical information and analysis reachback capability. This was 
provided to the homeland security community for anticipating, 
evaluating and responding to foodborne threats. NSTTAR, the Biodefense 
Knowledge Center, the Chemical Security Analysis Center located at the 
US Army facility in Edgewood, MD and the Department Of Energy Field 
Intelligence Establishment (intelligence division) were all called upon 
for technical and threat support relating to melamine toxicity, 
contamination paths, effects in food chains, production sites and the 
potential for intentional misuse. The National Center for Food 
Protection & Defense, one of the DHS Centers of Excellence, prepared 
and provided a continuous assessment of the situation. The assessment 
included potential impact on the domestic food chain, international 
trade, and public confidence. It also addressed the incident relative 
to the overall trade situation with China and an on-going timeline of 
events.

COLLABORATION AMONG FEDERAL ENTITIES
    As a result of the pet food contamination incident, DHS/OHA 
fostered senior level engagement to enhance partnerships in homeland 
security. DHS brought unique and complementary tools and expertise to 
bear, such as tools for national security risk assessment and 
investment. Other agencies, such as the Department of Agriculture and 
the Food and Drug Administration, provided tools and expertise 
regarding the Food and Agriculture Critical Infrastructure. The Food 
and Drug Administration also worked closely with CBP on a day-to-day 
basis in food inspections and laboratory analysis. In addition, OMB and 
the relevant food safety agencies are collaborating on ways to most 
effectively address issues raised in GAO's designation of Federal 
Oversight of Food Safety as a high-risk item in February 2007.
    Another point of synergy was the overall public communication 
effort. The huge volume of information requests generated by 
governmental and private sources was handled through interagency press 
conferences. During one such call, nearly 200 members of the press 
participated. The government presented a common access point for 
information--questions, concerns, and suggestions.

AREAS OF FUTURE ENGAGEMENT
    In a recent report by the DHS Office of the Inspector General 
(OIG), four main limitations in the Department's food defense and 
security efforts were identified. First, DHS must improve internal 
coordination. Second, DHS needs to engage its public and private food 
sector partners more effectively. Third, DHS could do more to 
prioritize resources and activities based on risk. Finally, DHS must 
fully discharge its food sector responsibilities.
    In response to the OIG report, our Chief Medical Officer has the 
responsibility for food and agriculture efforts including:
        <bullet> Working to ensure collaboration with the Food 
        Information Sharing and Analysis Center (ISAC)
        <bullet> Seeking improvement in DHS' relationship with food 
        sector partners
        <bullet> Expanding national infrastructure coordinating center 
        outreach efforts
        <bullet> Evaluating the feasibility of providing financial 
        support and/or facilitating the detailing of state or local 
        government and private sector representatives to OHA and NPPD
        <bullet> Developing and maintaining a DHS report on sector 
        research and development initiatives
        <bullet> Expediting the review of existing food sector 
        assessments
        <bullet> Expanding food sector modeling
        <bullet> Evaluating the integration of additional federal 
        foodborne illness reporting, surveillance and detection systems
        <bullet> Continuing to develop and disseminate information 
        about food subsystem specific operational protective measures 
        and best practices with FDA and USDA
    Areas the OIG identified that are still in need of attention 
include:
        <bullet> Developing a grant process to support non-urban, 
        multi-jurisdictional preparedness
        <bullet> Working with DHHS and USDA to prepare integrated food 
        defense budget for fiscal year 2009
        <bullet> Considering collaboration of food-specific criteria 
        and guidelines for Customs--Trade Partnership Against Terrorism 
        with food industry with USDA/FDA
        <bullet> Studying the integration of food defense awareness 
        into transportation security and considering additional 
        research to improve the security of food in transit
        <bullet> Expanding efforts to sponsor food contamination event 
        exercises with an emphasis on exercises spanning multiple state 
        and local jurisdictions

COLLABORATION WITH THE PUBLIC AND PRIVATE SECTORS
    The landscape of food safety and defense is changing. Evolving 
risks include the tremendous growth of imported food markets from 
countries that have limited regulatory oversight. Federal and state 
regulatory programs and laboratories are currently the backbone of the 
nation's food safety network. However, threats to the food supply 
typically cross state borders and have national implications.
    A concerted communication strategy for these types of operations is 
essential, and falls within the purview of DHS. Additionally, 
information flow is typically much faster than anticipated, frequently 
outpaces the ability to analyze and interpret, and comes in from 
various sources. Frequently, information is made available to the 
private sector before the government is informed. DHS is building the 
mechanism through its National Operations Center (NOC), the National 
Biosurveillance Integration Center (NBIC) and the National 
Infrastructure Coordination Center (NICC) to gather and analyze such 
information in real time. DHS is forming partnerships with members of 
the food sector and its academic centers of excellence to improve 
information sharing and mutual awareness.

CONCLUSION
    The food chain infrastructure is rapidly globalizing, which demands 
a commensurate improvement in our preparedness posture. This 
globalization, manifested by both the vertical integration of certain 
commodity groups such as poultry and grain, and the seemingly opposite 
phenomenon of `subcontracting' various pieces of common production 
processes (as in the pet food contamination incident), outlines why it 
is so important that our planning efforts be comprehensive and all-
inclusive of intelligence, disciplined information sharing with states 
and local governments and the private sector, coordinated incident 
management, and maintenance of public confidence.
    Mr. Chairman, thank you for the opportunity to address the 
Subcommittee. I look forward to continuing my working relationship with 
you, and I am happy to address any questions or concerns that may arise 
regarding this topic.

    Mr. Langevin. Thank you, Dr. McGinn.
    The chair now recognizes Mr. Baldwin, to summarize your 
statement for 5 minutes.

  STATEMENT OF DAN BALDWIN, ASSISTANT COMMISSIONER, OFFICE OF 
      INTERNATIONAL TRADE, U.S. CUSTOMS AND BORDER PATROL

    Mr. Baldwin. Thank you, Mr. Chairman, members of the 
subcommittee. I am pleased to appear before you today to 
discuss the actions we are taking at Customs and Border 
Protection to ensure the safety of imported food.
    My name is Daniel Baldwin, and I am the Assistant 
Commissioner in the Office of International Trade at U.S. 
Customs and Border Protection. My office holds the 
responsibility of formulating CBP's trade policy, developing 
programs and enforcing the U.S. import laws. The food and 
agriculture industry contributes significantly to the United 
States' economy. And as the value and complexity of our food 
imports continues to grow, CBP recognizes the challenges we 
face to maintain a safe and secure food supply.
    CBP has taken great strides towards securing America's 
borders, including the protection of our food supply, and the 
economic health of American agriculture. Since September 11th, 
2001, CBP's primary mission has to be to secure the Nation's 
borders from terrorists and terrorist weapons, while 
facilitating the flow of legitimate travel and trade. In 
support of this mission, CBP has designed strategies to manage 
the risk of an agricultural product contamination that may 
cause harm to the American public or damage the Nation's 
economy. CBP has worked extensively to coordinate activities 
and enforcement actions with USDA and HHS. As the guardian of 
our Nation's borders, CBP has broad authority to interdict 
imports of food and agriculture products at the ports of entry. 
We frequently interact with FSIS and FDA on questions regarding 
enforcement actions, as those agencies house the subject matter 
expertise on food and agriculture admissibility.
    CBP is able to rely on the statutory authority of other 
Federal agencies, with the specific mandate of enforcing food 
safety regulations to finalize enforcement actions on those 
food safety issues. As with our approach to antiterrorism, CBP 
has taken a multi-layered approach to protect the safety of 
America's food imports.
    In my testimony today, I would like to highlight the three 
key aspects that CBP has utilized in its effort to date: CBP's 
National Trade Strategy, CBP targeting methodologies, and CBP 
personnel. After briefly discussing these three topics, I can 
highlight some of our experiences with these food safety 
operations.
    Pursuant to our twin goals of fostering legitimate trade 
and travel while securing America's borders, CBP has developed 
a National Trade Strategy to help our agencies successfully 
fulfill our trade facilitation and trade enforcement mandate. 
Our National Trade Strategy is based upon six Priority Trade 
Initiatives. These PTIs are antidumping and countervailing duty 
protection; intellectual property rights enforcement; textile 
and wearing apparel enforcement; revenue protection; punitive 
actions; and of course, agriculture and food safety. Under the 
terms of our Trade Priority Strategy, we focus CBP resources in 
our efforts to address these key areas of trade. I would like 
the committee to know that agriculture is one of our key six 
priority issues.
    The goals of our National Agriculture Strategy are, first, 
to detect and interdict any instances of agro and bioterrorism; 
second, to detect and prevent unintentional introduction of 
pests or diseases into the United States; third, to detect and 
prevent unintentional introduction of adulterated, contaminated 
or unsafe agriculture and food products; and fourth, to promote 
our Nation's economic security through the enforcement of these 
trade laws. To support this national strategy, CBP employs 
several robust targeting methodologies, ensuring the compliance 
and safety of our food and agriculture products imported into 
the United States.
    CBP, in coordination with FSIS and FDA, utilizes the 
following mechanisms to ensure safety of the American food 
supply. First, our Automated Targeting System, which is based 
on various algorithms and rules, and is a flexible, constantly 
evolving targeting system that integrates enforcement and 
commercial databases. ATS is essential to CBP's ability to 
target high-risk cargo entering the United States based upon 
advance manifest information. Another system CBP uses is our 
Automated Manifest System, which provides us with the advance 
cargo information, to be used for targeting and screening of 
all imported merchandise. We utilize AMS to ensure appropriate 
coordination with other regulating agencies. And finally, the 
Automated Commercial System, ACS, CBP's automated system of 
record for entry processing and cargo clearance allows us to 
screen for additional food and agriculture risks.
    I would also like the committee to know, the majority of 
the targeting criteria present in the system today are intended 
to prevent the introduction of contamination, pests or disease. 
Approximately 87 percent of the criteria used in our ACS 
systems are agriculture related.
    In addition to these CBP systems, CBP also maintains the 
National Targeting Center. The NTC is the facility at which 
personnel from several separate government agencies are co-
located to review advance cargo information on all inbound 
shipments. Personnel from CBP, FDA, FSIS, APHIS, are all 
stationed at the NTC.
    In addition to the sophisticated targeting systems and 
coordination between the agencies, CBP maintains a diverse 
workforce that is specially trained to detect and prevent 
imports that may be harmful to the health of the American 
public. CBP officers and CBP agriculture specialists receive 
specific training on ag/bioterror incidents. We currently have 
the ability to rapidly deploy more than 18,000 CBP officers, 
2,000 agriculture specialists and 1,000 import specialists in 
response to emerging threats to our agriculture and food 
supply. Furthermore, CBP's Laboratory and Scientific Services 
maintains eight separate laboratories around the country, with 
a 24/7 technical reachback center.
    While we have found various examples recently where we have 
coordinated with FDA and HHS and DHS along the lines of 
melamine, toothpaste, seafood imports, we are finding that that 
level of cooperation has been very important in ensuring the 
safety of our Nation's food supply. Food defense and food 
safety concerns will only increase as world trade in food and 
agriculture continues to grow and diversify. CBP will continue 
to approach this as a challenge worthy of a combined government 
effort. We will continue to partner with other Federal agencies 
in order to refine our targeting skills and ensure the 
prevention of contaminated products entering the United States.
    Thank you, Mr. Chairman, ranking member, other members of 
committee for this opportunity to testify today, and I would be 
happy to answer any of your questions.
    [The statement of Mr. Baldwin follows:]

                  Prepared Statement of Daniel Baldwin

INTRODUCTION
    Mr. Chairman and members of the Subcommittee, I am pleased to 
appear before you today to discuss the actions we are taking at Customs 
and Border Protection (CBP) to ensure the safety of imported food. My 
name is Dan Baldwin and I am the Assistant Commissioner in the Office 
of International Trade at U.S. Customs and Border Protection. My office 
holds the responsibility of formulating CBP's trade policy, developing 
programs, and enforcing U.S. import laws. The food and agriculture 
industry contributes significantly to the United States economy. As the 
value and complexity of our food imports continues to grow, CBP 
recognizes the challenges we face to maintain a safe and secure food 
supply. To meet this challenge, OMB and the relevant food safety 
agencies are collaborating on ways to most effectively address issues 
raised in GAO's designation of Federal Oversight of Food Safety as a 
high-risk item in February 2007.
    CBP has taken great strides toward securing America's borders, 
including the protection of our food supply and the economic health of 
American agriculture. Since September 11, 2001, CBP's priority mission 
has been to secure the nation's borders from terrorists and terrorist 
weapons while facilitating the flow of legitimate travel and trade. In 
support of this mission, CBP has designed strategies to manage the risk 
of an agricultural product contamination that may cause harm to the 
American public or damage to the nation's economy.
    CBP has worked extensively to coordinate activities and enforcement 
actions with USDA and HHS, and in particular the FDA. As the guardian 
of our nation's borders, CBP has broad authority to interdict imports 
of food and agricultural products at the Port of Entry. We frequently 
interact with USDA and FDA on questions regarding enforcement action, 
as those departments house the subject matter expertise on food and 
agriculture admissibility standards. CBP is able to rely on the 
statutory authority of other federal agencies with the specific mandate 
of enforcing food safety regulations to finalize enforcement actions on 
food safety issues.

CBP'S CURRENT ENFORCEMENT STRATEGY
    As with our approach to anti-terrorism, CBP has taken a multi-
layered approach to protect the safety of America's food imports. In my 
testimony today, I would like to highlight the three key aspects that 
CBP has utilized in its efforts to date: CBP's National Trade Strategy, 
CBP Targeting, and CBP Personnel. After briefly discussing these three 
topics, I will discuss our experience with food safety operations.

NATIONAL TRADE STRATEGY: AGRICULTURE ESTABLISHED AS PRIORITY TRADE 
INITIATIVE
    Pursuant to our twin goals of fostering legitimate trade and travel 
while securing America's borders, CBP has developed a National Trade 
Strategy to help our agency successfully fulfill our trade facilitation 
and trade enforcement mandate. Our National Trade Strategy is based 
upon six Priority Trade Initiatives (PTI), these PTI's are: Antidumping 
and Countervailing Duty, Intellectual Property Rights, Textiles and 
Wearing Apparel, Revenue, Agriculture, and Penalties. Under the terms 
of our trade prioritization strategy we focus CBP resources in our 
efforts to address areas of key trade importance. I would like the 
committee to note that Agriculture is one of our six PTIs.

The goals of the agriculture trade strategy include:
        (1) The detection and prevention of agro-terrorism and bio-
        terrorism, i.e., the intentional contamination of an 
        agricultural product or food, or the intentional introduction 
        of diseases or pests intended to cause harm to the American 
        public, American agriculture, or the nation's economy.
        (2) The detection and prevention of the unintentional 
        introduction into the United States of pests or diseases that 
        would cause harm to the American public, American agriculture, 
        or the nation's economy.
        (3) The detection and prevention of the unintentional 
        introduction of adulterated, contaminated, or unsafe 
        agricultural and food products into the United States that 
        would cause harm to the American public, American agriculture, 
        or the nation's economy.
        (4) The promotion of our nation's economic security through the 
        facilitation of lawful international trade and enforcement of 
        regulatory trade laws.

TARGETING
    CBP uses various targeting mechanisms to ensure the compliance and 
safety of food and agricultural products imported into the U.S. These 
mechanisms are specifically designed to incorporate the food safety 
concerns of USDA and HHS.
    One of the systems used is our Automated Targeting System (ATS). 
ATS, which is based on algorithms and rules, is a flexible, constantly 
evolving system that integrates enforcement and commercial databases. 
ATS is essential to CBP's ability to target high-risk cargo entering 
the United States. ATS is the system through which we process advance 
manifest information to detect anomalies and ``red flags,'' and 
determine which cargo is ``high risk'' and should be scrutinized at the 
port of arrival.
    Another system CBP uses is the Automated Manifest System, which 
provides us with advanced cargo information to be used for targeting 
and screening of all imported merchandise. This advance information 
allows CBP to identify shipments of interest in advance of arrival. By 
identifying shipments in advance, CBP is better able to focus resources 
on those shipments which may be of concern, prevent their introduction 
into the commerce, and ensure appropriate coordination with other 
regulatory agencies.
    The Automated Commercial System (ACS), CBP's automated system of 
record for entry processing and cargo clearance, allows us to screen 
for additional food and agricultural risks. The majority of the 
targeting criteria present in this system are used to prevent the 
introduction of contamination, pests, or diseases. Approximately 87% of 
the cargo criteria in ACS are agriculture related.
    In addition to these CBP automated systems, CBP maintains the 
National Targeting Center (NTC). The NTC is the facility at which 
personnel from several separate government agencies are co-located to 
review advanced cargo information on all inbound shipments. At the NTC, 
CBP personnel are able to quickly coordinate with personnel from other 
federal agencies such as the FDA, Food Safety and Inspection Service 
(FSIS), and Animal Plant Health Inspection Service (APHIS) to target 
high risk food shipments
    Furthermore, the Public Health Security and Bioterrorism 
Preparedness and Response Act of 2002 (BTA) authorized FDA to receive 
prior information to target shipments of food for human or animal 
consumption prior to arrival. The BTA gave CBP the opportunity to 
assist FDA with the prior notice requirements. CBP worked in concert 
with FDA to augment an existing automated interface to institute a 
prior-notice reporting requirement with minimal disruption to the 
trade. In addition, under the BTA, we worked with FDA to commission 
over 8,000 CBP officers to take action on behalf of the FDA. This 
commissioning allows FDA to assert a 24/7 presence to enforce the Act 
at all ports.

PERSONNEL
    In addition to sophisticated targeting systems and coordination 
between agencies, CBP maintains a diverse workforce that is specially 
trained to detect and prevent imports that may be harmful to the health 
of the American public. CBP Officers and CBP Agriculture Specialists 
receive specific training on ag/bio-terror incidents. We currently have 
the ability to deploy more than 18,000 CBP Officers, 2,000 Agricultural 
Specialists, and 1,000 Import Specialists in response to emerging 
threats to our agriculture and food supply. Furthermore, CBP's 
Laboratory and Scientific Services (LSS) maintains seven separate 
laboratories around the country, with a 24/7 technical reach back 
center. LSS employs approximately 220 chemists, biologists, engineers, 
and forensic scientists.
    Our diverse workforce enables CBP to mount rapid and effective 
responses to protect U.S. agricultural resources by utilizing the 
specialized training of CBP Officers, Agriculture Specialists, Import 
Specialists, International Trade Specialists, and Laboratory 
Technicians. Each of these CBP occupations works together to gather 
intelligence, establish target criteria, gather and test samples, and 
analyze and report results. Because of their specialized training in 
the use of personal protective equipment for handling potentially 
hazardous or infectious materials, CBP Agriculture Specialists play a 
vital role during food safety operations.

FOOD SAFETY OPERATIONS
    Trade analysis and targeting methodologies designed to ensure the 
safety of the food supply allow CBP to proactively identify shipments 
containing possible food contamination prior to its arrival. This 
targeting allows us to fulfill our mission while allowing us to 
facilitate legitimate trade.
    While food safety has recently grown in importance in the public 
eye, CBP has been involved in food safety related initiatives for the 
past several years.
    In 2006, CBP was involved in the detection of numerous incidents of 
food contamination or smuggling of prohibited food products from China. 
A significant number of shipments of Chinese poultry products were 
seized including 45 containers smuggling prohibited product. CBP 
developed a food safety operation to combat the smuggling by targeting 
known smugglers of prohibited poultry products.
    In April 2007, it was discovered that food from China was 
contaminated with melamine potentially harmful to animals as well as 
humans. CBP initiated a special operation to determine the scope of the 
potential problem. The nature of the operation was to augment FDA's 
focus with the intention to assess the risk of contamination from 
countries worldwide and to identify possible transshipment of Chinese 
product. CBP sampled and conducted laboratory analysis, the results of 
which were coordinated with FDA.
    In this most recent action, CBP targeted and detained 928 entries 
(shipments) over a four-week period. Samples were pulled on 202 
entries, comprising over 400 separate production lot samples, and sent 
to CBP's laboratories for analysis. All samples tested negative for the 
presence of melamine. As a result of the operation, CBP tested samples 
of product from 23 countries and shipped by suppliers/producers that 
account for over 59% of the imported volume of the merchandise in the 
previous 12-month period. This scientific data gives the government and 
the public assurance that the melamine issue relating to imports was in 
fact isolated to a few Chinese suppliers, and not a widespread, global 
problem. In coordination with FDA, CBP developed a follow-up monitoring 
program that uses a computer-generated statistical sample to measure 
ongoing compliance.
    This high profile enforcement effort has helped CBP refine its 
methodology to conduct future food safety operations and enhance our 
working relationship with other federal agencies. In response, CBP has 
developed a Concept of Operations Document for food safety to 
institutionalize our communication and cooperation as well as the 
methods, processes, and procedures. Additionally, this food safety 
incident has brought to the forefront the need to maximize the power of 
the government to respond to future food safety issues.
    As you are well aware, there have been further contamination 
issues, for example, with imported toothpaste and selected seafood. 
Based on lessons learned from the melamine incident, we are 
coordinating with FDA to develop an appropriate action plan 
commensurate with the threat.

CONCLUSION
    Food defense and food safety concerns will only increase as world 
trade in food and agriculture continues to grow and diversify. One of 
the methods CBP will use to ensure the safety of the food supply is to 
use statistical sampling to monitor for compliance. CBP will continue 
to approach this as a challenge worthy of a combined government effort. 
We will continue to partner with other federal agencies in order to 
refine our targeting skills and ensure the prevention of contaminated 
products from entering the U.S.

    Mr. Langevin. Thank you, Mr. Baldwin. I want to thank the 
witnesses for their testimony. I will remind each member, he or 
she will have 5 minutes to question the panel.
    And I now recognize myself for questions. I think the one 
thing that is on everyone's mind today is, how secure are we in 
terms of preventing what happened in terms of contaminated food 
and products coming out of China entering the food supply 
again? Are we there yet to ensure that it can't happen again? 
So my question is, what efforts are underway to ensure that the 
Chinese don't continue to intentionally add melamine or other 
dangerous products to their exports? What is the U.S. doing to 
sanction China? And what does HHS expect yet out of its meeting 
with China at the end of the month? Pose that to the panel.
    Dr. Acheson. This is David Acheson of FDA. Maybe I could 
take the first shot at that, since you specifically addressed 
HHS. Since the melamine issue, and in fact before that in 
relation to a number of technical issues, we have worked very 
closely with Chinese authorities to try to address specific 
food safety concerns. Clearly, the melamine situation was 
something that we did not predict. Since that has happened, 
there has been an ongoing, and continues to be, close dialogue 
with Chinese authorities to address this problem, to deal with 
it.
    I think we have to accept that their food safety system, 
the Chinese food safety system, is not the same as that in the 
United States. It is a rapidly expanding economy. They are 
exporting a lot of food to the United States. And we have to 
work with the government and build systems to essentially 
address that challenge. To that end, there are ongoing meetings 
with Chinese government officials. There will be one occurring 
at the end of this month. There will be another one in August. 
There is a further one planned for September. All towards 
trying to develop a memorandum of understanding that will focus 
on how to address these problems.
    Mr. Langevin. Do you see them moving aggressively to 
mitigate these problems to ensure that it is not going to 
happen again?
    Dr. Acheson. I think, within the capacity of the Chinese 
government to attain those goals, yes. I think they are very 
committed to try to prevent it. But as I said, they are dealing 
with a very fragmented system. So one of the things they are 
trying to put in place, I think very deliberately, is a system 
of certification or authorization that will ensure that 
products that are exported do meet a certain level of safety 
and security to ensure that they won't harm American consumers.
    Mr. Langevin. And since we can't rely necessarily on the 
Chinese to fully solve this problem because the system is so 
fragmented, then what are we doing to step up our efforts? Are 
we there yet to ensure that the food coming in or product 
coming into the United States is secure?
    Dr. Acheson. Well, again, we are obviously focusing on the 
areas that are of the greatest concern. Using a risk-based 
strategy, we focused on testing products that we had concerns 
about, either historically or because of human illness. That 
was what led to the recent announcement of the import alert in 
relation to aquacultured fish of five different species related 
to the use of specific drugs. And as you know, there is now in 
place a hold so that we have to test that material.
    Clearly, the melamine and wheat gluten was something that 
we weren't anticipating. We learn from these things constantly 
and are, as we move forward, trying to focus our strategies 
based on risk. Ultimately, where we need to take this, though, 
however, is to focus it on prevention. We need to prevent these 
problems from happening in the first place, as opposed to 
reacting when they do.
    Mr. Langevin. I agree.
    Dr. Maczka?
    Ms. Maczka. Well, I think FSIS does have a very robust 
import system where we are able to ensure the safety of food 
coming into the United States. It involves an initial 
determination of a country's equivalence to our systems. It 
also involves on-site audits and then reinspection of all 
products coming into the United States. If something were to go 
wrong with a particular product, we can increase audits in a 
country. We can step up reinspection of products coming into 
our country. We also, one of the things that we are working on 
collectively together here with Customs and Border Protection, 
DHS and FDA and the Centers of Excellence is a study on 
melamine and other pathways that can be used for economic 
adulteration, and so that we can put protective measures in 
place.
    Mr. Langevin. Thank you.
    Dr. McGinn?
    Dr. McGinn. We are stronger and more secure than we have 
ever been in our food supply, yet incidences like melamine give 
us an opportunity to get even stronger. Since this incident, 
our Center of Excellence you will hear from this afternoon has 
been looking extensively at food imports from China, and doing 
that in collaboration with USDA and FDA and Customs and 
Borders, as well as the intelligence community. So we are 
actually doing a review of the imported foods to see what 
additional concerns there are. We are certainly going to be 
able to make those available to you.
    Mr. Langevin. Thank you.
    And Mr. Baldwin?
    Mr. Baldwin. Very quickly, just to echo the comments made 
earlier, I think we do have the safest food supply security 
system in the world. And targeting and intelligence gathering, 
I think, is one of the key components, so that even when you do 
detect an incident like this, that we are able to have a 
concept of operations in place how to deploy, how to proceed so 
we can mitigate any of these circumstances and anticipate any 
future developments.
    Mr. Langevin. I thank the panel.
    The chair now recognizes the ranking member, Mr. McCaul, 
the gentleman from Texas, for 5 minutes.
    Mr. McCaul. I thank the chair. Just as a follow-up on the 
food imports from China, particularly the seafood, and maybe 
Dr. Acheson, you are the expert to address this. How confident 
are you that these imports coming into the country now from 
China, as I understand they have not been banned, what is your 
comfort level that there is no contamination, particularly 
given the fact that one of the certifying labs that qualifies 
to certify that it is not contaminated is actually from China?
    Dr. Acheson. FDA is very comfortable that those five fish 
that we have the import alert are essentially being held. You 
are correct in saying that it is not a ban. It is not intended 
to be a ban. What it is intended to be is a hold at the port of 
entry in some way, or in some holding situation, preventing it 
from going into commerce until FDA has seen clear evidence that 
the fish does not contain any of the antimicrobial agents that 
we have concern about.
    Now you point out, what can we do if we don't believe the 
lab results? Well, we can check the lab results. We can test it 
ourselves. We can ensure that the samples were taken correctly, 
that the assays were done correctly, that the controls were 
done correctly by reviewing the paperwork. And if we are not 
comfortable, it doesn't proceed.
    Mr. McCaul. You said, you can test it yourselves. I mean, 
do you?
    Dr. Acheson. We have certainly done that. We challenge 
things on a regular basis in terms of--I mean, import alerts 
are not new. We have been doing them for years. And we have 
many out there.
    Mr. McCaul. Let me just say, let's say it is certified in 
China that it is not contaminated. It comes to our country. Do 
you have any systems to perhaps do any sampling to ensure that 
this food is safe coming into the United States?
    Dr. Acheson. Yes, indeed, we do. We undertake sample 
assignments on top of import alerts. To give you a case in 
point, several years ago, we had problems with cantaloupe from 
Mexico. There was a countrywide import alert, much like China. 
We worked with the government of Mexico to fix it. Once the 
country was coming off the import alert, we continued to test 
cantaloupe. It was fine for a couple years. We then found a 
problem, and we worked with the government again to fix it. So, 
yes, simply the import alert is not it. We will continue to 
follow-up, and we will continue to test, and we will continue 
to look more widely.
    Mr. McCaul. How was this discovered in the first place? How 
did you discover that, gee, we have food coming in from China 
that is contaminated?
    Dr. Acheson. With the melamine or with----
    Mr. McCaul. The anti--or the microbe agents that were found 
in the fish.
    Dr. Acheson. Through testing programs. Those testing 
programs go back to 2001, where we first started to see 
problems and we were putting individual companies on import 
alert. And we have been doing that for some time. And we have 
essentially been ramping up, adding more and more companies, to 
the point at which we said, this isn't working. The technical 
discussions with China aren't solving the problems. We need to 
make this countrywide to protect the American consumer.
    Mr. McCaul. Mr. Baldwin, another topic. We have a farm bill 
coming up this week in Congress, and there is some discussion, 
in fact some Members of Congress would like to move inspection 
authority away from Customs and Border Patrol and give it back 
the USDA at the inspections being done at ports of entry on the 
border. Can you comment, even though the USDA does not want 
that mission, by the way--not something that I support--but can 
you comment on that and then also comment on the transition 
that did take place between USDA to CBP at the border? And how 
well is that transition going, and how well are your 
inspections at the border?
    Mr. Baldwin. Sure. First off, I would offer that I believe 
a transfer of our CBP agriculture specialists back to USDA 
would in fact be a detriment to our food supply security 
efforts. We have a significant number of diverse workforce that 
we have at the border that we can leverage and use for a 
diverse array of food supply chain issues. I think we have had 
tremendous success in the few short years since CBP agriculture 
specialists have been at the border with our CBP officers, who 
look for immigration issues, cargo issues, and agriculture and 
pest contamination issues. I think we are underestimating the 
tremendous improvements we have made with USDA in forming our 
task force and working with our bioterrorism act personnel with 
FDA and soon FSIS and our NTC. I think we are making tremendous 
headway in solidifying our efforts and creating the best food 
supply chain security efforts at the border. I think a move 
back, this reaction would be a detriment to our efforts.
    Mr. McCaul. Thank you. I see my time has expired.
    Mr. Langevin. Thank the gentleman.
    The chair now recognizes the gentlelady from the Virgin 
Islands, Mrs. Christensen, for 5 minutes.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Thank you for holding this hearing and making sure it 
happened, despite the fact that we had to put it off. And thank 
the panelists again for your flexibility in being here this 
morning. I have a lot of concerns about our food safety, given 
all of what has already been referenced here by my colleagues, 
and what seems to be a tremendous increase in food 
contamination, and sometimes the length of time it takes to 
find out what the source is and so forth. So I am hearing that 
coordination is improving and so forth. I hope so.
    I have a quick question for Dr. McGinn. The Office of 
Health Affairs, how does that relate to the Chief Medical 
Officer? Is that the same office? Is there some coordination 
there? What is their role in the food safety issue?
    Dr. McGinn. The Chief Medical Officer is the head of the 
Office of Health Affairs. The Chief Medical Officer is a 
position that is about a year old within DHS, and then most 
recently, that has become the Office of Health Affairs.
    Mrs. Christensen. Okay. I just wanted to know.
    Dr. McGinn. And the veterinary component is a component of 
the medical component within DHS.
    Mrs. Christensen. Okay.
    And Dr. Acheson, you talk about the laboratories that are 
in the FERN, in the network. And they include the 50 States and 
Puerto Rico. How does that network address issues with the 
territories, either the Virgin Islands or the ones in the 
Pacific?
    Dr. Acheson. The network is constantly expanding. And at 
this stage, I don't have specific information as to what is on 
tap in those, but I can certainly find that information and get 
that back to you specifically on that question. But that 
network has worked well. We used it in spinach, and we used it 
in melamine.
    Mrs. Christensen. Okay. And, apparently, a week ago or so, 
there was another hearing in one of the Energy and Commerce 
subcommittees, and what was reported there is a cause for a lot 
of concern, one that--and I read about this in the paper either 
Sunday or Monday as well--that FDA inspects about 1 percent of 
the food over which it has jurisdiction. This is what was 
reported at the subcommittee. And of that 1 percent, just a 
fraction is actually sampled, that the agency sometimes allows 
importers to take possession of suspect foods and arrange for 
the testing by private laboratories that may or may not be 
approved by FDA. This is from testimony given in a hearing at a 
House subcommittee last week.
    And the other issue is the fact that you have 13 
laboratories that test for these kinds of problems, and seven 
of them FDA intends to close. Can you just help me figure out, 
can you just respond to those concerns that were raised in 
another subcommittee hearing?
    Dr. Acheson. Sure. You raised a lot of points there. Let me 
try to cover them briefly.
    Mrs. Christensen. The 1 percent.
    Dr. Acheson. Yeah.
    Mrs. Christensen. The private labs testing for suspect 
goods, private labs that are not FDA approved, and also the 
closing of 7 out of 13 laboratories that are used. And it goes 
on; inspectors, the number of inspectors are less, but the food 
imports have doubled, you know.
    Dr. Acheson. First of all, the 1 percent is correct. In 
order for a product to be imported, a food product to be 
imported into the United States, there are a number of things 
that has to happen. The paperwork for that, usually submitted 
electronically, is 100 percent through our prior notice center, 
in collaboration with Customs and Border Protection. What that 
does is, it will target certain foods that are of concern from 
a food defense and bioterrorist perspective. And if we see 
anything anomalous there, it gets put to one side in terms of 
potentially a hold or an inspection. On the food safety side, 
again, all that food is screened electronically. Some of it, 
where we have never seen a problem historically----
    Ms. Christensen. So 100 percent is screened, but 1 percent 
is inspected. Is that what you are saying?
    Dr. Acheson. Yes, 100 percent is screened electronically. 
About 80 percent of that electronic screening is then diverted 
for an FDA individual to look at it and make a determination, 
should this be inspected or should it not be inspected, based 
upon experience? Now a lot of that is stuff that goes through 
really quickly because, again, it is high volume. It is things 
we have never seen problems with. And that is how the 1 percent 
then gets picked out. It is based upon risk. It is based upon 
areas where we have seen problems, and it is based upon 
concerns that we have either had in the past or currently have. 
So it is vetted 100 percent, but you are correct in saying that 
only 1 percent is actually physically inspected.
    In terms of the private labs, yes, private labs do get 
used, as they are allowed to be used for import alerts. But, 
again, FDA is able to look at the data from the private labs. 
They have to ensure that the samples are collected properly, 
under the appropriate conditions, that the testing is done 
correctly, that the assays are validated, that the controls are 
appropriate. And if there are any problems with that, FDA will 
refuse to take that data and do. I could not tell you what 
percentage that we refuse, but I can find that out for you. But 
we do do that.
    Finally, on the lab closures that you mentioned, yes, you 
are correct, there is a current consideration of consolidating 
labs. Those labs were developed and situated in the days when 
shipping samples around was much more complex than it is now. 
We can obviously, as you all know, ship materials across the 
U.S. very easily. The goal here is to improve efficiency, to 
improve through put and to do more faster, cheaper, so that, at 
the end of the day, even though physically some labs will 
close, we envisage that what we will be able to do here is to 
get more samples tested faster for less money, thus increasing 
overall efficiency, simply because of the way things move in 
modern technology.
    Mrs. Christensen. Thank you for your answer.
    Mr. Chairman, I think that this bears some looking into, 
just so that we can be sure that we are giving the proper 
oversight for some of these changes, closing of the labs and 
the low percentage of inspections and some of the other issues 
raised.
    Mr. Langevin. I couldn't agree more, and I promise you that 
we will continue to exercise aggressive oversight in this area. 
And this hearing will be the first of what I intend to be 
several hearings on the subject.
    The chair now recognizes the gentlelady from Ohio, Ms. 
Kaptur.
    Ms. Kaptur. Mr. Chairman, I want to thank you very much for 
permitting me to come here today and participate in this very 
important hearing. Thank you for your leadership on this issue. 
And it is a pleasure to join the panel, if only briefly.
    Thank you for your focus on food safety, an issue that I 
have followed for quite a number of years. I would like to ask 
any of the panelists to respond to very specific questions 
here.
    Do any of you know what percent of the U.S. food supply is 
currently imported and what percent of the U.S. drug supply is 
currently imported or even, generally speaking, what that might 
be?
    Dr. Acheson. This is David Acheson, FDA.
    Let me start on the food supply because I can speak to 
that. For drugs, I do not have that information, but we could 
certainly get that for you.
    Overall, about 13 to 15 percent of the U.S. food supply is 
imported, but it varies greatly with commodities. Seafood is 
about 80 percent. Others are much less. Produce varies with the 
time of year, but it can be 30 to 40 percent.
    Mr. Baldwin. I would just like to add that I think it is 
somewhere between 4 to 5 percent of all imports in the United 
States that are actually, you know, our food supply, our food 
products. Four to 5 percent of all imports of all products are 
food products.
    Ms. Kaptur. What about drugs?
    Mr. Baldwin. That information I do not have specifically, 
but I would be happy to get that for you.
    Ms. Kaptur. Does anybody want to take a guess? I am talking 
about the components of those products, not just the final 
product.
    Mr. Acheson, you do not want to comment on that?
    Dr. Acheson. I did not come armed with information to 
specifically discuss the importation of drugs, but as I have 
said, I would be very happy to get that information to you.
    Ms. Kaptur. Is it your sense that the majority comes from 
offshore on the drug side?
    Dr. Acheson. I know that drug ingredients are imported, but 
yes, in terms of finished drugs, I think it is not a huge 
number.
    Mrs. Kaptur. I think the American people were very 
surprised to find that large amounts of our medications and, 
perhaps, vitamins are comprised of ingredients that come from 
offshore. I think it is quite a significant number, and it is 
surprising to me that you do not really have that at the top of 
your fingertips here today.
    Dr. Acheson. Well, I apologize. I am focused on food and 
feed as opposed to drugs, but I promise we will get that 
information to you.
    Mrs. Kaptur. Is it your impression that food imports and 
drugs imports into the United States are growing?
    Do any of the panelists want to answer that?
    Ms. Maczka. On the meat, poultry and egg side, no. As far 
as your first question----
    Mrs. Kaptur. Meat and--excuse me?
    Ms. Maczka. Meat, poultry. Meat and poultry, which is what 
FSIS regulates, 6 to 8 percent is imported. That is in response 
to your first question.
    Dr. Acheson. In response to your question about is it 
increasing, certainly, on the food side, yes, it is.
    Mrs. Kaptur. Yes. With 1 percent or less inspected, as a 
country we have been pretty lucky, actually.
    I wanted to ask you: Who are the worst offenders by nation 
in terms of food safety and then drug safety? If you were to 
kick off those who have been cited the most times, which three 
countries would be at the top of your list or which five 
countries would be at the top of your list as the worst 
offenders on the food side and then the worst offenders on the 
drug side?
    Dr. Acheson. In the context of the foods that the FDA 
regulates--and we inspect and refuse foods on a regular basis. 
For example, in June, the FDA refused foods from 80 different 
countries. China and India were at the top of the list and, 
certainly, in recent months have been at the top of the list. 
Part of that is related to the volume of products that are 
imported. We do import a lot of foods from China and from 
India, so there is a denominator component to this.
    I suspect where you are going is the proportion or the 
percentage of foods from individual countries that are unsafe, 
and I do not have all of the denominator information at hand, 
but again, you know, we could provide that.
    Mrs. Kaptur. To provide the inspection, do you focus on key 
importers?
    Dr. Acheson. In terms of the inspections, there are a lot 
of parameters that are weighed into this. From a food defense 
perspective, yes. The intelligence, the country of origin, the 
foods, those kinds of things on the food safety side, again, 
yes, in relation to proprietary records, the history of 
problems with the importers or the foods.
    Mrs. Kaptur. There is very little time remaining in my 5 
minutes, but I did want to place on the record the distinction 
between what the U.S. Department of Agriculture calls a 
``recall'' if we find something that is out there that we are 
troubled with. There are all of these stories that come out in 
the paper that we are going to recall certain products.
    The problem is that we recover almost none of it. Five 
percent or less is ever recovered, so we might read that 
something is recalled, and people say, ``Oh, I feel so safe. 
The toothpaste is recalled or the steak is recalled or the 
hamburger is recalled or the fish is recalled.'' Yet, the truth 
is that the Department of Agriculture, speaking for the 
Department of Agriculture, is able to recover almost none of 
it. So it is still out there. It is still out there.
    So I just wanted to place on the record in this very 
important subcommittee the fact that some of the language that 
is used is very misleading to the public.
    I believe my time has expired, Mr. Chairman.
    Mr. Langevin. Well, the gentlelady raises a very important 
point, and the American people need to be aware of this, and we 
need to see what we can do to step up efforts to enhance the 
recall effort to make sure it actually has meaning and that the 
product is actually recovered. I could not agree more. I thank 
the gentlelady.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Etheridge, for 5 minutes.
    Mr. Etheridge. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I think it is vitally important.
    Let me ask the panelists. You know this is a critical issue 
to the American people, and I want to go back so I can come 
forward.
    In November of 2003, the GAO had a report titled 
Bioterrorism: A Threat to Agriculture and the Food Supply, and 
they found that most of USDA's and the FDA's field staff had 
not received training on security matters, and although the 
field staff were instructed to be vigilant and on heightened 
alert, they were also told not to document or to report their 
observations regarding security at the plants because the 
information could be obtained under a Freedom of Information 
Act request. My question is this:
    Has this policy changed? Number two, can you confirm that 
staff were instructed not to document or to report 
observations? Number three, do field staff currently receive 
security-specific training?
    Who wants to tackle that first? Okay.
    Ms. Maczka. Thank you, Congressman.
    Well, we perform food defense verification procedures in 
our plants every day, and I do not have the numbers with me, 
but hundreds of verification procedures are performed, and we 
document the results of those in what we call a Memorandum of 
Interview. The inspection personnel are supposed to take the 
results of that and discuss it with plant management so that 
countermeasures can be put in place. So I think our system 
there is quite strong.
    Mr. Etheridge. Well, let me ask you a question. You did not 
answer my question.
    Number one, has the policy changed? Was that correct what 
GAO put out in 2003 or was that incorrect?
    Ms. Maczka. The policy has not changed. We have been doing 
these food defense verification procedures since the events of 
9/11, and we continue to do them, and our staff does get 
ongoing training, by the way. We have food defense awareness 
training of all of our field staff as well as headquarters 
staff.
    Mr. Etheridge. So we do document?
    Ms. Maczka. Yes, we do document.
    Mr. Etheridge. We do report the observations?
    Ms. Maczka. Yes, we do.
    Mr. Etheridge. To whom?
    Ms. Maczka. To the trade associations and to industry so 
that countermeasures can be put in place, and we also analyze 
the information at headquarters to look at trends.
    Mr. Etheridge. So it does come to the Department?
    Ms. Maczka. Absolutely.
    Mr. Etheridge. Okay. Does anyone else want to comment on 
that?
    The FDA.
    Dr. Acheson. Yes. This is David Acheson. I will speak on 
the FDA side.
    In terms of the training, we have been aggressively 
adopting a training program with our inspectors, mainly focused 
on raising awareness and having them understand the importance 
of giving out guidances to the industry in terms of what they 
can do to ensure the security of the food supply.
    As I mentioned in my oral, we have developed a program 
called ALERT, which is heavily focused on raising awareness. It 
basically operates from farm all the way through to retail. 
Virtually every inspector has been trained on ALERT. We have 
developed a Web-based training system for that, suitable for 
both industry and for our inspectors. Certainly, about 2 months 
ago, we were up to--about 95 percent, 96 percent of the 
inspectors had received that training and were implementing it, 
and we have used this in some of our assignments as well.
    Mr. Etheridge. Okay. So it is currently an operation that 
is ongoing?
    Dr. Acheson. Yes, that is correct.
    Mr. Etheridge. Thank you.
    Dr. McGinn, can you describe what steps the Department has 
taken to lead an interagency in response to an act of 
agroterrorism or other disasters in the agricultural sector? 
Because, obviously, your department would have that charge. 
Specifically, what plans have you developed, what training 
exercises have you done, and what are the staffing changes in 
the Department to accomplish the mission in your department?
    Dr. McGinn. Okay. As it relates to the staffing issues, our 
office is new, the Office of Health Affairs, and currently we 
are an issuer and are actually adding people in the area of 
food as well as in animal agriculture, in public health, and 
agro threat. This year, we are hoping to, as the IG report 
said, add the persons who are needed to actually staff up this 
coordinating role up to about 11 people the first year, and 
then by the end of 2009 we are looking to add up to about 40 
people to actually do this coordinating role and several 
million dollars to do this effort. That is not a lot 
considering it is one-sixth of the economy and that this is a 
critical infrastructure for our country.
    In terms of the exercising and the planning and in terms of 
attacks on our country, one of the main ways that we within the 
Department of Agriculture are preparing for that is in actually 
assisting the States to be prepared because any incident that 
is going to be of national significance is going to be in a lot 
of States at the same time. So one of our key responsibilities 
is to provide grants to the States to be able to then utilize 
and to actually do the training and exercising and build the 
kinds of capacities that we need to have in order to be able to 
respond in multiple States at any given time.
    Mr. Etheridge. Can you tell us where we are along that 
track in terms of getting that done?
    Dr. McGinn. In terms of the grand analysis, that is one of 
the key things, that I add personnel to our office, which I 
intend to do. We have already begun the analysis of this, and 
we are looking at what States are actually spending on those 
grants in terms of building this kind of preparedness, and the 
research capacity within the labs as well as the field 
personnel are critical, as you know.
    In order to effectively do this kind of analysis with the 
grants, I am going to need some additional--the personnel that 
we are bringing on staff right now to actually do that, and I 
will be able to follow through on it. My intention is to do an 
annual review of those grants and then to be able to share that 
information back with the States so that they will be able to 
do a better job of competing for those resources to build 
capacity in the States.
    Mr. Etheridge. Thank you, Mr. Chairman. My time has 
expired.
    Mr. Langevin. I thank the gentleman.
    Given the import of this issue and the fact that I know 
Chairman Thompson wanted to question--he is on his way back--
with the panel's indulgence, we are going to go to a second 
round of questions. So, with that, I will begin recognizing 
myself.
    I wanted to inquire of Dr. McGinn: The Inspector General 
released a report in February on the role of DHS in post-
harvest food security. The IG noted that there are four main 
limitations in DHS' efforts. First, DHS must improve internal 
coordination. Second, DHS needs to engage its public and 
private food sector partners more effectively. Third, DHS could 
do more to prioritize resources and activities based on risk. 
Finally, DHS must fully discharge its food sector 
responsibilities.
    So my question is how many staffers has DHS dedicated to 
this mission, and how have you worked to improve these areas?
    Dr. McGinn. Within the 30 programs across DHS, there are 
several people who are actually involved, but in our office 
currently, I am an office of one, but I have the ability to 
actually add up to five people as FTEs and then some detailees 
as well to get to eleven by the end of this first year that we 
are in place so that the IG Office or the IG report recommended 
that we have a very limited number of staff and that we need to 
actually add to our resources to actually be able to discharge 
our responsibilities, not just for HSPD-9 but for the other 
HSPDs, as well as other issues as were mentioned by the 
Executive order and the Office of Budget and Management. There 
are lots of different issues that we are actually working to 
synchronize our resources in.
    Mr. Langevin. Do you feel that level of resources in 
staffing is going to be adequate to complete your mission?
    Dr. McGinn. It is very adequate to start the job in this 
first year of our existence. We are a new office, and we are 
rapidly developing capabilities, not just in the veterinary 
area but also in the medical area as well. Coordinating those 
responsibilities across all of DHS is a huge task as well. So, 
yes, we have got the resources to start the job, and then our 
ramp-up over the next couple of years will in fact give us the 
full capability to discharge those responsibilities.
    Mr. Langevin. To the panel, Mr. Kennedy's testimony that we 
will hear later suggests that food and ingredient movement is 
not well characterized across firms--or food and ingredient 
products. He states that a clearinghouse for such information 
that would be accessible for research and threat purposes would 
be a significant step forward.
    What efforts are underway to create such a tool?
    Dr. Acheson. This is Dr. Acheson at FDA.
    I am not sure I quite understand the scope of the question. 
Is it suggesting that the traceability is inadequate?
    Mr. Langevin. That is what he is suggesting, yes.
    Dr. Acheson. Okay. Under the Bioterrorism Act, there is a 
requirement for certain facilities to maintain records of one 
up and one back; in other words, where they receive the 
material from and where they send it. That has served us well 
in relation to recent outbreaks. Obviously, we have not had to 
test it in a terrorist situation, but that structure has 
allowed us to, essentially, trace forward and trace back when 
an outbreak occurs, to determine origins and where food has 
gone.
    Mr. Langevin. Would anybody else on the panel care to 
comment?
    Ms. Maczka. We also have procedures in place to trace 
forward and to trace back.
    Mr. Langevin. Thank you.
    Let me ask this last question within the time that I have 
left.
    China has claimed that the U.S. is raising unnecessary 
alarm about the safety of their food products. According to one 
of their ministers, ``one company's problem does not make it a 
country's problem. If some food products are below standard, 
you cannot say all of the country's food is unsafe,'' end 
quote. Do you agree?
    Dr. Acheson. Let me take the first shot at that.
    I would agree that one company's problem does not mean that 
there is a problem nationwide. However, if we return to the 
example of the imported fish, we have been putting one company 
at a time on import alert as we have been demonstrating that 
their products are problematic and of concern to the public 
health in the United States. Beginning last October, we 
expanded our surveillance of these categories of fish and did a 
lot of testing, and overall, about 25 percent of the species 
that we had concerns about from a variety of different 
companies contained these unapproved anti-microbial agents. So 
that was clearly not just one company, and it was at the point 
where we had to say this had to be countrywide. It is correct 
to say it is not 100 percent, but I do not believe for 1 minute 
that we are overreacting. I think it is very important that we 
do this.
    Mr. Langevin. Anybody else on the panel?
    Ms. Maczka. Our process is such that we not only determine 
if a country's system is equivalent to us and is eligible to 
export to us, but we also look into whether establishments 
should be certified. So we take it on an establishment-by-
establishment basis as well as a country basis.
    Mr. Langevin. I thank the panel.
    The Chair now recognizes the gentleman from Texas, Mr. 
McCaul, for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    Dr. McGinn, I look forward to seeing your office go from a 
one-man shop to many hirees in your office and in ramping up 
your efforts. I know you are under a lot of--I will not say 
``stress''--but a lot of responsibilities for one person to 
bear, so I look forward to seeing that progress.
    My second round of questioning has to do with something 
that impacts probably more of my home State of Texas, and that 
is foot and mouth disease. When I go down to some of the border 
towns, you actually see cattle going back and forth between 
Mexico and Texas. It has been going on for a long time, and 
obviously the threat of contamination is real. In Minnesota, we 
had a recent scare of foot and mouth disease which, actually, 
turned out not to be foot and mouth disease, but it did 
provide, I think, an opportunity for the USDA and the DHS to 
sort of test their efforts in working together on this. My 
question is to the panel.
    Could you comment on the coordination between the USDA and 
the DHS on that issue in this particular case? Then if you 
could comment also on the overall threat, if you will, of foot 
and mouth disease, which would have a real damaging impact not 
only on border States but on the whole ranching industry?
    Dr. McGinn. I will lead off.
    As it relates to that recent incident that you were 
describing, it was an excellent opportunity, as most incidences 
are, to develop additional strengthening capability. Some of 
the encouraging things that we did in a collaborative sort of 
way was we were immediately on the cell phones with each other. 
We have each other's cell phone numbers. We call each other any 
time, day or night. Certainly, when the incident was brought to 
our attention it was in the evening, and the questions or the 
requests that came to us were of an intel nature, and so what 
we were asked to do was to look at the intentional aspects of 
this to rule out or to rule in these sorts of things early on 
because the sooner you can determine if there is an intentional 
component, particularly in a biological or in a chemical 
situation, you are much farther ahead of the ability to contain 
that situation. So we were asked, and we worked through the 
night, actually, on behalf of the USDA to actually determine 
the issues of risk around intentional disruption.
    Another thing that was, really, very encouraging that was 
done was Customs and Borders Protection and the USDA worked 
together to look at if in fact we were to have an incident that 
would progress, that we would need to be able to know in the 
last few weeks what animals had actually come across the border 
so that we would know the size of the tracing-out that needed 
to be done, and it was incredibly encouraging how quickly that 
information was able to be brought together from their joint 
efforts, and they got not just all of the cattle and swine, but 
they got down to the camels and the goats and everything else 
that had come into the country over that period of time.
    So those two are two great examples of some increased 
collaborative work that was done.
    One more that I would add to that is the Center of 
Excellence--and you will hear from Shaun Kennedy this 
afternoon--which worked closely with the plant owners in 
Minnesota to actually deal with that situation, so that there 
is a feedback loop from the private sector that these Centers 
of Excellence are so helpful in creating for all of us. That 
was a part of that incident as well. So those are three 
examples of increased and excellent coordination.
    Mr. McCaul. That is good to hear.
    Mr. Baldwin, do you have any comments?
    Mr. Baldwin. I would just echo what Dr. McGinn has said. I 
think that we have found that our cooperation with the USDA, 
especially on the foot and mouth issue, has been tremendous. I 
mentioned earlier in my testimony that I think that 87 percent 
of our criteria in our automated commercial systems are 
dedicated to agriculture and food systems, and I will tell you 
that those are predominantly on the foot and mouth issue that 
we have been addressing for quite a few years. So I think that 
the work we have done in the past few years on foot and mouth 
with the USDA has been a tremendous example of how cross-
cutting work with the agencies is really the way to go and how 
it has proven to be successful, and we are always working to 
improve that.
    Mr. McCaul. Dr. Maczka, you mentioned in your opening 
statement the avian flu in poultry. Obviously, that is of great 
concern as the risks can be very high. We have talked a lot 
about the fish coming from China as being contaminated.
    How much of our poultry is actually imported from Asian 
countries?
    Ms. Maczka. Right now, we receive--none of our products 
are--no products are coming in from China. No meat, poultry or 
egg products, FSIS-inspected products, are imported from China, 
and no establishments, processing establishments, are certified 
to export to us.
    Mr. McCaul. That is good to hear.
    In terms of poultry that is imported, I would assume most 
of the poultry is homegrown in the United States, that most of 
the poultry consumed in the U.S. is actually raised in the 
United States.
    Ms. Maczka. The numbers that I gave before, 6 to 8 percent, 
of our poultry and meat are exported, and I do not have the 
breakdown of what is meat and what is poultry, but I can get 
that to you.
    Mr. McCaul. In terms of what Americans consume, most of 
that is homegrown in the United States and is raised and not 
imported?
    Ms. Maczka. That is correct.
    Mr. McCaul. I see my time has expired.
    Mr. Langevin. I thank the gentleman.
    The Chair is now pleased to recognize the chairman of the 
full committee, the gentleman from Mississippi, Mr. Thompson, 
for 5 minutes.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    One of the issues I think the committee is grappling with 
is who would be in charge if something happened, and I guess I 
will go with Dr. McGinn first by saying:
    If an incident of national significance were declared along 
the lines we have talked about, who would be in charge?
    Dr. McGinn. Well, if an incident of national significance 
is declared, then the Department of Homeland Security is the 
coordinator of the overall response. Therefore, we would be in 
a leadership role as it relates to that. The technical leads 
come from whatever emergency support function is involved with 
the incident. In this particular situation, if it were both the 
FDA and the USDA as technical leads, then we would be 
coordinating with them in terms of the subject matter expertise 
and the legal responsibilities within our responsibilities for 
an incident of national significance to coordinate under the 
National Response Plan.
    Mr. Thompson. So is your definition of ``coordination'' the 
equivalent of being in charge or just serving as the traffic 
cop for the particular incident?
    Dr. McGinn. Well, ``being in charge'' is exactly what it 
means, but it also recognizes that the subject matter 
expertise, whether we are talking transportation or whether we 
are talking food or health as sectors--recognizing that those 
expertises are needed in that emergency support function 
actually leads to support in that particular area. We 
definitely hope when an incident occurs, whether it is food--or 
agriculture-related, that we would be first, and most of them 
are incidents at the local level. The progression of most 
incidents is, if it progresses to the place where it is at the 
State level, then the State would be in charge. If it 
progresses further, then either the FDA or the USDA is actually 
in charge. So as the incident progresses--and they can progress 
very fast or they can progress slowly--who is in charge changes 
as it does within any incident command system-type 
responsibility, as you know from your work in firefighting.
    Mr. Thompson. Dr. Acheson, you have heard Dr. McGinn's 
comments about the coordinating role of DHS.
    Is that your understanding?
    Dr. Acheson. Absolutely, yes, yes.
    Mr. Thompson. And there is no conflict between who is in 
charge and who is the lead in this scenario?
    Dr. Acheson. No. I mean, as Dr. McGinn pointed out, things 
tend to build up at some speed or another. For example, 
spinach. The FDA was in charge of that. It was not declared a 
national emergency. We stayed in charge and we took care of it. 
We worked with other Federal agencies during the course of 
that.
    Melamine was slightly different. Again, there were very 
close coordination efforts between the FDA, the USDA, the DHS, 
and a whole variety of other Federal agencies in that context. 
So, absolutely. Depending on the level of the emergency, it 
will vary who is in charge, but we are totally in sync with 
that.
    Mr. Thompson. Dr. Maczka, would you like to respond to 
that?
    Ms. Maczka. I am in agreement with my colleagues here that 
that is pretty much the way it works, and actually we have 
tested it out in some of our State district exercises where we 
have invited our colleagues to these exercises, and it has 
played out that way.
    Mr. Thompson. So you all have basically said that there is 
no gray area as we proceed along this line in terms of who is 
in charge, whether the protocols are already established and 
all of that?
    Dr. Acheson. Yes.
    Ms. Maczka. Yes.
    Dr. McGinn. Yes.
    Mr. Thompson. Thank you.
    I think, as we go forward, you will see, Mr. Chairman, some 
other comments relating to this, but I wanted to make sure we 
were on the record with that issue.
    I yield back.
    Mr. Langevin. I thank the chairman.
    I want to thank the witnesses for their valuable testimony 
and the members for their questions. The members of the 
subcommittee may have additional questions for the witnesses, 
and we will ask you to respond expeditiously in writing to 
those questions.
    At this time, the first panel of witnesses is dismissed, 
and the Chair now calls up our next panel. Thank you.
    I would like to welcome our second panel of witnesses. 
Thank you for being here today.
    Our first witness is Shaun Kennedy, the Deputy Director of 
the National Center for Food Protection and Defense at the 
University of Minnesota. The University of Minnesota is a DHS 
Center of Excellence. We are so happy to have you here today, 
Mr. Kennedy.
    Our second witness is Dr. Lee Myers, State Veterinarian and 
Assistant Commissioner of the Animal Industry Division in the 
Georgia Department of Agriculture. Dr. Myers has spearheaded 
numerous initiatives to improve the States' and the Nation's 
capacity to prevent and to respond to agricultural emergencies, 
including acts of agroterrorism. I welcome you here today as 
well.
    Our third witness is Dr. Craig Henry, Senior Vice President 
and Chief Operating Officer of Scientific and Regulatory 
Affairs of the Grocery Manufacturers Association and Food 
Products Association. Dr. Henry, we thank you for being here, 
and please send our regards to Dr. Matthys, who was going to 
testify before we switched the schedule on him, so we 
appreciate your filling in.
    Without objection, the witnesses' full statements will be 
inserted into the record, and I will now ask each witness to 
summarize his or her statement for 5 minutes beginning with Mr. 
Kennedy.

 STATEMENT OF SHAUN KENNEDY, DEPUTY DIRECTOR, NATIONAL CENTER 
FOR FOOD PROTECTION AND DEFENSE, UNIVERSITY OF MINNESOTA--TWIN 
                         CITIES CAMPUS

    Mr. Kennedy. Mr. Chairman and members of the subcommittee, 
I would like to thank you for giving me the opportunity to 
discuss recent events involving the food system in the United 
States and our future needs for reducing the possibility of 
intentional disruption or contamination of this system.
    As you have noted, I am here today as a representative of 
the university community that is committed to finding new 
solutions to protecting the food system and also as the co-
director of the National Center for Food Protection and 
Defense.
    At the Center, we are focused on fundamental and applied 
research to develop new strategies, tools and approaches to 
address the threat of intentional food contamination. The 
university research community is one important partner with the 
public and private sectors in developing innovative solutions 
to the threat presented by intentional food contamination.
    Food terrorism is not a new threat. In fact, the use of 
food as a weapon is actually one of the oldest weapons that is 
still of concern for catastrophic harm. However, a more global 
food system now means that intentional contamination of one 
location can literally reach around the country or across the 
globe to cause economic harm, illness and even death in 
multiple locations simultaneously.
    I have been personally struck by the degree to which the 
public intuitively understands the threat of intentional 
contamination of the food system. One group of NCFPD 
researchers found that consumers would allocate more funding to 
protect the food system than a range of other critical 
infrastructures even though they perceive the relative 
probability of an attack on the food system to be lower than 
those other infrastructures. Upon reflection, this is not 
surprising. The food system is the one critical infrastructure 
where we cannot take ourselves out of the target population.
    The implications of this are not trivial. I think it is 
important to consider that a long history of Federal, State and 
local food safety regulations and enforcement has allowed us to 
be confident, not only in the safety of our food but in the 
quality of our government. A loss of public confidence in our 
ability to deliver a safe food supply could challenge both 
public trust in government and public confidence in the 
integrity of our food system.
    There is, unfortunately, however, no silver bullet for 
fortifying the food system. The strengths of our system--
affordable and fresh fruits, vegetables, meat, poultry, eggs, 
and dairy all year long--also represent the challenges of this 
complex system. The Federal and State agencies and the private 
sector which own and manage the food system have all made 
dramatic strides in protecting the food system from potential 
terrorism since it became a front and center concern. There is, 
however, much more to be done, and we should not be surprised 
by this.
    Protecting our food supply from intentional contamination 
represents a far more difficult challenge than the Mother 
Nature problems we are used to dealing with since it involves 
things that should not happen. While zero risk is, by 
definition, unachievable, through intensive and targeted 
research we can reduce the risk. Research themes that I believe 
to be central to this effort, that NCFPD are actively engaged 
in, include the following:
    The first is event modeling. That is how we can stay ahead 
of terrorists and others who want to cause us harm. One of the 
criticisms from the 9/11 Commission was that various Federal 
agencies suffered from a lack of imagination. In short, 
terrorists had explored more innovative threat scenarios than 
those for which the government had prepared. Having learned 
this lesson once, we cannot afford to do so again. Realistic, 
flexible and dynamic models of potential food system events are 
thus an invaluable tool for vulnerability and consequence 
assessment, intervention prioritization, resource allocation, 
and decision support during an event.
    The second area of focus is in agent and food matrix 
interactions. We know a great deal about how conventional 
foodborne pathogens interact with food and the environment, and 
yet it is still not entirely clear how the E. coli 0157:H7 
contaminated the spinach in last year's outbreak. Intentional 
contamination of food for public health or economic harm or 
economic opportunism elevates the challenge of understanding 
how agents interact with the food system to an entirely new 
level. Efforts are, unfortunately, complicated by the fact that 
traditional ``select agents'' comprise only a small subset of 
the agents of concern. With the food itself serving as a very 
effective and efficient delivery vehicle, the agents of concern 
go well beyond those of traditional chemical and biological 
weapons considerations.
    All of you are undoubtedly familiar with the ``sniffer'' at 
Ronald Reagan National Airport, which represents a great stride 
forward in detecting potential explosives to prevent them from 
being taken onto airplanes. Detecting potential explosives in 
air samples, however, is very different than rapidly detecting 
agents of concern in frozen cream of broccoli soup or hot dogs, 
let alone a truck of produce. Novel sample acquisition and pre-
analytical processing strategies are therefore a crucial link 
in any effective detection strategy.
    Third, the food system is very much that, a system. As 
such, it presents inherent challenges with respect to risk and 
vulnerability assessments as well as the prioritization of 
investments to enhance food system protection. Unlike many of 
the 17 critical infrastructures and key resources, it is 
primarily composed of complex systems, and it is specific 
elements within these systems and the interdependencies of 
these systems that are of most concern.
    In conclusion, Mr. Chairman and members of the 
subcommittee, thank you again for the opportunity to talk with 
you about recent food system events and the challenges they 
represent for protecting and defending our food supply. We need 
better food system intelligence, more flexible and responsive 
prevention, preparedness, response, and recovery strategies, 
and an expanded armamentarium of technologies and trained 
professionals to meet these new challenges. The university 
research community is an important partner in this national 
imperative. As Co-Director of the National Center for Food 
Protection and Defense, I am honored to have had this 
opportunity to provide you with my perspective.
    Thank you.
    [The statement of Mr. Kennedy follows:]

                 Prepared Statement of Shaun P. Kennedy

    Mr. Chairmen and Members of the Subcommittee, thank you for giving 
the National Center for Food Protection and Defense, a Department of 
Homeland Security funded Center of Excellence, based at the University 
of Minnesota (NCFPD) the opportunity to discuss recent events involving 
the food system in the United States and our future needs for reducing 
the possibility of intentional disruption or contamination of the U.S. 
food system. The rapid globalization of our food supply chain has added 
demands upon our existing food safety systems. The threat of 
intentional contamination of the U.S. food system represents a further 
significant increase in the challenges that must be addressed to reduce 
the probability of public harm. Building upon prior experiences with 
challenges in the United States, one of the important pillars of an 
effective defense is fundamental and applied research to develop new 
strategies, tools and approaches to address the threat. This program 
would include preparation, prevention, response, and recovery. The 
university research community is one important partner with the public 
and private sectors in developing innovative solutions to the problems 
presented by intentional food contamination. The National Center for 
Food Protection and Defense is honored to have the opportunity to 
provide one perspective on both the continuing research needs and also 
how university researchers such as those participating in NCFPD can 
help address the considerations of intentional attacks on the food 
system.
    Before moving into specific concerns and future needs, some 
historical perspective is provided on food system contamination to 
position the challenges ahead of us. While the horrific events of 
September 11, 2001 have changed our national view on nearly everything, 
food terrorism is not a new threat.
    The use of food as a weapon is actually one of the oldest weapons 
that is still of concern for catastrophic harm. The Athenians' 
contaminated the drinking water for the city of Kirrha of the 
Amphictyonic League in 590-600 B.C., taking advantage of the resulting 
severe gastrointestinal illness of all inhabitants to overtake the 
city. A similar strategy was employed by the Carthaginian General 
Maharbal, utilizing contamination of wine left for his enemy which then 
rendered them defenseless to his ensuing attack. In more modern times, 
the Japanese Army experimented with the use of food for the delivery of 
pathogens such as Bacillus anthracis, Shigella spp, Vibrio cholerae, 
Salmonella Paratyphi and Yersinia pestis.
    Frequently cited examples of intentional contamination of food for 
political gain or intentional harm in the U.S. include the 1984 
Rashnishee cult contamination of salad bars in Oregon and the 
disgruntled grocery worker who contaminated ground beef in Michigan in 
2002. Importantly, these historical examples all represent local 
contamination. Our ever more global food system means that intentional 
contamination at one location does not limit the impact of such an act 
to its immediate environment or a single geographic location. As 
illustrated by recent foodborne illness outbreaks as well as the recent 
contamination of wheat gluten with melamine from China, food 
adulteration from around the world can now have direct consequences 
across the nation. The challenges of our global, just-in-time food 
system represent a unique area of concern which was recognized by the 
Administration in implementing Homeland Security Presidential Directive 
9 (HSPD-9).
    The public, independent of sophisticated risk and vulnerability 
assessments, intuitively understands the concerns associated with 
intentional contamination of the food system. In a survey conducted by 
NCFPD supported researchers at the University of Minnesota in 2005, 
consumers ranked the probability of an intentional attack on the food 
system behind attacks on air transportation, all other public 
transportation, the energy grid, national monuments and the release of 
a threat agent in an urban area. In contrast, however, consumers ranked 
the food system as the infrastructure of this list in which they are 
most concerned about an attack based on their recommendation that more 
funds be invested in food protection than in the other sectors. This 
apparent paradox is actually not surprising. The food system is the one 
critical infrastructure that reaches into every home, every day, with 
the potential for those of ill will to cause direct, widespread harm. 
It is the one critical infrastructure where you can not take yourself 
out of the target population.
    The intuitive insight of the public into the importance of 
attending to the defense of the food system does not, unfortunately, 
translate into easy, readily available solutions to close potential 
vulnerabilities. The federal and state agencies involved in the food 
system have made dramatic strides in protecting the food system from 
potential terrorism since it became a front and center concern. 
Similarly, the private sector, which owns and manages the food system, 
has also worked incredibly hard to identify and address potential food 
system vulnerabilities. There is, however, much more to be done, and we 
should not be surprised by this.
    For many of us, Upton Sinclair's expose and novel ``The Jungle'' 
was our introduction to food safety and the need for private and public 
sector efforts to ensure a safe food supply. After more than one 
hundred years experience with the food safety regulations that this 
groundbreaking book helped push forward, food safety continues to pose 
a significant public health challenge. In the last year, foodborne 
illness outbreaks associated with spinach, lettuce and peanut butter, 
among others, have reminded us of these concerns. This spring the 
melamine contamination of vegetable proteins, diethylene glycol 
contamination of toothpaste and drug residues in fish serve as 
surrogate models of how intentional food adulteration can pose a far 
more significant challenge than unintentional food contamination. There 
is thus much more work to be done to protect the food system. Some of 
these research needs that are central to effective and full 
implementation of HSPD-9 are addressed by NCFPD.

Event Modeling
    One of the primary criticisms from the 9/11 Commission was that the 
various federal agencies suffered from a ``lack of imagination''. In 
short, terrorists had explored more innovative threat scenarios than 
those for which the government had prepared. Having learned this lesson 
once, we can not afford to do so again. The recent melamine 
contamination provides a stark reminder, even though it was a simple 
case of economic subterfuge. Although not its apparent intent, the 
event outlined a pathway of contaminating a pet food raw material as a 
means of getting a contaminant into animal feed so that it could make 
its way into the human food supply. While no public harm resulted from 
this non-obvious scenario, it did demonstrate the ability to 
contaminate the U.S. food system from afar. It is therefore worth 
further investigation if only for the economic and psychological 
consequences of such an event.
    Realistic, flexible and dynamic models of potential food system 
events are thus a very important tool for consequence and vulnerability 
assessment, development of shields and mitigation strategies, resource 
allocation and decision support during an event. One such modeling 
system has been developed through collaboration of NCFPD investigators, 
the Food and Drug Administration--Center for Food Safety and Applied 
Nutrition (FDA-CFSAN), the U.S. Department of Agriculture--Food Safety 
Inspection Service (USDA-FSIS), the Centers for Disease Control (CDC) 
and a broad range of state agency experts and the private sector. 
Although highly successful, including its use for the 2008 Bioterrorism 
Report from the National Bioterrorism Analysis and Countermeasures 
Center, efforts on this and other models have highlighted some 
significant challenges. While there are specific research projects 
already underway in each of these areas, there is still far more to do:
        <bullet> Food and ingredient movement is generally very well 
        understood within firms, but it is not well characterized 
        across firms or food and ingredient products. This importantly 
        includes the degree to which the federal, state and local 
        agencies can access specific details on movement either in real 
        time or for planning purposes. Given that supply chain 
        management is the core competency of many food system 
        companies, it is unrealistic to expect them to provide details 
        on how the system works in real time without clear assurances 
        of the protection of such information. A clearinghouse for such 
        information that would be accessible for research and threat 
        assessment purposes, but with no potential for private sector 
        competitive disadvantage, would be a significant step forward;
        <bullet> Imported products, especially ingredients, represent a 
        special challenge with which the current data and information 
        systems were not designed to deal. The Department of Commerce 
        data on imported food products is based on a categorization 
        system designed to ensure compliance with various tariffs, 
        duties and import/export restrictions. Efforts by USDA such as 
        the Offshore Pest Inspection System (OPIS) and the FDA's 
        Operational and Administrative System for Import Support 
        (OASIS) are significant strides forward, but more robust 
        systems to both enable analysis of product and country specific 
        imports over time as well as real time targeting for inspection 
        based on such analyses would be beneficial;
        <bullet> Like all catastrophic event models, food system event 
        models are based on a broad range of assumptions of how the 
        various stakeholders in an event would respond--from the 
        impacted food company to potential patients and everyone in-
        between. Event models would be much more useful for all 
        involved if there were a more robust, exercise driven database 
        on probable responses and their potential effectiveness.

Agent Behavior
    One of the outstanding questions from the E-coli 0157:H7 outbreak 
associated with spinach last year is how was the spinach actually 
contaminated--did the bacteria come from the soil, animal feces, 
process/harvest cross--contamination, irrigation/surface water 
contamination or some other source? This challenge stems at least 
partially from limited understanding of the bacteria's interaction with 
such diverse environments, something which the industry has stepped 
forward to address through a competitive research program. Intentional 
contamination of food for public health or economic harm elevates the 
challenge of understanding how agents interact with the food system to 
an entirely new level. This importantly encompasses agent/matrix based 
vulnerability assessments, new detection and diagnostic strategies and 
potential event response.
    DHS, EPA, FDA and USDA, among others, have probed various aspects 
of this select agent/matrix challenge. Fundamental projects at both FDA 
and USDA on some select agents and other contaminants of concern, and 
how they might impact product characteristics or survive in food 
products, have increased our knowledge base. NCFPD investigators' 
efforts on detection (e.g., botulinum neurotoxin detection 
technologies, micro-fluidic pre-analytical sample processing), 
inactivation (e.g., Bacillus anthracis process inactivation) and 
decontamination (multiple agents in complex systems) are important 
steps forward but also illustrative of the challenges ahead, including;
        <bullet> Traditional ``Select Agents'' comprise only a small 
        subset of the agents of concern. With the food itself serving 
        as a very effective and efficient delivery vehicle, the agents 
        of concern go well beyond those of traditional chemical and 
        biological weapons considerations. If the food can be used to 
        deliver nutritionally important, targeted levels of vitamins 
        and minerals, agents that can cause harm could also be thus 
        delivered. The range of agents that need to be well understood 
        consequently is far longer than the Select Agents of general 
        concern;
        <bullet> The range of potential agents highlights a detection 
        challenge. Melamine is a good example of a potential agent that 
        would only have been found in the wheat gluten if you knew to 
        look for it. Conventional quality assurance test methods would 
        not have highlighted its presence. This would also be true for 
        a broad range of food/agent combinations so there is a need for 
        both specific detection technologies for specific agents of 
        concern and broadly useful techniques to rapidly identify that 
        something is amiss and thus requires further testing;
        <bullet> Understanding how such agents behave in complex food 
        matrices and processes is a nascent area of research, and one 
        that is not traditionally rewarded. Knowing that a particular 
        chemical will turn a certain fluid food product a strange 
        color, thus eliminating that combination as a potential threat, 
        is an incredibly valuable finding for removing a food/agent 
        combination from the list of those of concern. It is not, 
        however, the subject of traditional federally-funded research. 
        Results in this area, nevertheless, will make a significant 
        difference in enabling focus on a smaller set of agent/food 
        combinations;
        <bullet> Private companies, academia, national laboratories and 
        a range of agencies have devoted a great deal of effort to 
        novel detection technologies, pushing the scientific frontier 
        forward in innumerable ways. All of you undoubtedly are very 
        familiar with the ``sniffer'' at Ronald Reagan National 
        Airport, which represents a great stride forward in detecting 
        potential explosives to prevent them being taken onto 
        airplanes. Food systems, however, provide a unique challenge 
        due to the complexity of the food matrix itself. Food systems 
        from frozen cream of broccoli soup to hot dogs make the 
        challenge ever more so difficult than air or bodily fluids. 
        Novel sample acquisition and pre-analytical processing 
        strategies are therefore a crucial link in any effective 
        detection strategy.

Systems Strategies
    The systems-based nature of the food system presents inherent 
challenges with respect to risk and vulnerability assessments as well 
as prioritization of investments to enhance food system protection. 
Unlike many of the seventeen critical infrastructures and key 
resources, it is primarily composed of complex systems and it is the 
interdependencies of these systems that are of most concern in the food 
system, not specific assets at a location with an address. This is the 
very reason that DHS is funding several projects to look at new 
approaches for determining criticality and assessing risk and 
vulnerability for systems-based infrastructures. While working toward 
new additions to the tool kit for risk and vulnerability assessments 
for the food system, there are a number of other systems focused 
efforts that can both deliver near term improvements as well as form 
the foundation for long term fundamental improvements. Current projects 
at NCFPD in food supply chain security and transportation system 
resiliency are being coupled with economic assessment tools to help 
focus potential investments. In addition, new approaches to both public 
health systems surveillance/response and social sciences such as risk 
communication are important ongoing NCFPD research efforts and aim at 
closing other research gaps. Examples include:
        <bullet> For many foodborne illness outbreaks today, the 
        detection system that identifies that a food has been 
        contaminated is the public health system. For the melamine 
        contamination it was veterinarians identifying unusual patterns 
        of illness and for the E-coli 0157:H7 associated with spinach 
        outbreak last year it was the public health authorities at 
        state and local level. In both cases, however, much of the food 
        had already been consumed before anyone identified the problem. 
        Any approach that could therefore decrease the time from first 
        presentation of illness to recognition of the outbreak could 
        dramatically reduce the potential consequences.
        An ongoing example of such efforts that includes investigators 
        from NCFPD, other academic institutions and collaborators 
        across federal agencies and associations is an examination of 
        how various local, state and federal agencies respond to and 
        manage foodborne illness disease outbreak investigations. The 
        goal is to develop a set of performance standards that result 
        in an even more rapid response to any food related disease 
        outbreak than is already provided today;
        <bullet> Reducing the potential vulnerability within any 
        specific food supply chain, including its distribution system, 
        first requires characterizing how that system functions in the 
        interdependent infrastructures we have today. Once 
        characterized, more effective vulnerability and risk 
        assessments are possible, thus highlighting points for the most 
        effective introduction of interventions by either the private 
        or public sector. Projects are underway that look at best 
        practices in the food industry as a starting point. These 
        studies will be complemented by recently initiated efforts on 
        more detailed analyses of the transportation system and 
        imported product pathways. Perhaps more so here than in any 
        other area, public-private partnerships are crucial to moving 
        things forward as each group has detailed information in 
        different areas that have to be brought together for an 
        effective outcome;
        <bullet> A challenge for all investments in terrorism 
        prevention, response and recovery is determining how much 
        should be spent to reduce the probability or the consequences 
        of an attack. In either the private or the public sector, there 
        is a limited amount of potential funding available and it has 
        to be focused on the points of greatest impact. This is perhaps 
        even more important in the food system than in some of the 
        other critical infrastructures because of its complicated, 
        globally dispersed and highly dynamic, privately held, nature. 
        Secondary benefits for food defense-motivated investments, 
        alternative investment returns through vehicles such as 
        insurance/re-insurance and better means of capturing the 
        potential impact of events at the firm and system level are all 
        areas of ongoing research that should help guide future 
        investments;
        <bullet> In the focus on ``hard'' tools for event prevention 
        and response, the importance of ``soft'' tools such as risk 
        communication is often overlooked. Effective risk communication 
        before, during and after an event will significantly reduce the 
        consequences of the event itself. Food, because of its very 
        personal nature, requires that any such risk communication 
        strategies take into account the very different information and 
        communication needs of the range of groups and cultures in the 
        U.S. Research on how to communicate most effectively with 
        various underserved and non-traditional audiences is 
        highlighting the range of strategies required. This research 
        importantly includes the current collaboration of NCFPD 
        investigators and other experts with the various federal, 
        state, local and private sector groups who are front and center 
        in any food system event. Products such as the NCFPD developed 
        Risk Communication Best Practices are only a start in the 
        significant effort to use risk communication as an effective 
        intervention strategy.

Summary
    Outstanding progress has been made by both the private and public 
sectors in reducing the probability and potential impact of intentional 
food contamination. Much more, however, is needed for full and 
effective implementation of HSPD-9. This includes the need for ongoing 
basic through applied research to address each of the primary policy 
areas identified in HSPD-9 for effective protection of the food system:
        <bullet> Prioritization of the critical food protection and 
        defense needs is a continual process due to the dynamic nature 
        of our food system. As the system changes, our research 
        strategies, prevention efforts and preparedness must change. 
        Supply and demand changes, new products, new markets, and new 
        consumer demands drive the ever changing nature of our food 
        system. The shift of corn from animal feed to ethanol 
        production illustrates this well;
        <bullet> Forewarned is forearmed. Understanding changes 
        underway and anticipating their impacts underpins effective 
        early warning systems and robust prevention and preparedness. 
        Public-private partnerships can support robust food system 
        intelligence to recognize potential threats. While imports of 
        wheat gluten from China nearly doubled between 2005 and 2006, 
        and economic adulteration was rampant, we were unaware;
        <bullet> Mitigating vulnerabilities at critical production, 
        processing, distribution and other nodes builds off of the 
        identification and prioritization of critical elements and 
        resources within the food system, but includes the need to 
        develop new mitigation strategies as the vulnerabilities 
        continue to evolve. Collaboration across DHS, EPA, FDA, USDA, 
        state/local agencies, the private sector owners of the food 
        system and academia will be an important ongoing partnership 
        for vulnerability mitigation strategy/technology development 
        and cost effective deployment;
        <bullet> Melamine contamination, antibiotic residues in 
        imported fish and other imported product adulterations 
        illustrate the need for enhanced screening procedures for 
        imported products. Foodborne illness outbreaks associated with 
        domestically sourced products reinforce that the same need 
        exists for domestic production. Unfortunately it is just as 
        unlikely to successfully ``test in'' food system defense as it 
        is to ``test in'' food safety. Enhanced procedures for 
        targeting inspection and detection will continue to be 
        important from the farm (wherever in the world it is) through 
        distribution to the final containment point, prior to consumer 
        access;
        <bullet> Given the degree to which the global food system is 
        necessarily open and therefore potentially vulnerable, efforts 
        must include enhancing response and recovery procedures to deal 
        with the realistic probability that there will be an actual 
        food system event. Both public/private partnerships and very 
        innovative strategies for preparedness will be required for 
        effective response and recovery efforts;
        <bullet> Determining the right way to communicate to 
        underserved communities is best not done in the face of a 
        crisis just as designing practical facility decontamination and 
        contaminated product disposal protocols is best not done when 
        you have contaminated facilities and products. It will take 
        continual effort to develop flexible strategies to make 
        response and recovery efforts most effective;
        <bullet> Across all of these policy goals for HSPD-9, the need 
        to develop the future leaders in food protection and defense is 
        central to creating the enduring capability that is needed in 
        the future. The students, from high school through post-
        doctoral, that are engaged in NCFPD and other academic programs 
        in food protection and defense are how the policy goals 
        outlined by HSPD-9 and addressed above are made sustainable 
        over the long haul.
    In conclusion, Mr. Chairmen and Members of the Subcommittee, thank 
you again for the opportunity to talk with you about recent food system 
events and the challenges they represent for protecting and defending 
our food supply. The threat of intentional contamination of our food is 
real. While we all have come to enjoy an abundant, affordable, diverse 
and safe food supply as our birthright, our overall successes have made 
us complacent. Our food system is global and will always be global: we 
all demand coffee and chocolate; bananas and bonita. . .and our year-
round cornucopia of food results from an ever-changing global supply 
chain. Ironically, the very advances that afford us these luxuries also 
create new dilemmas: a small intentional contamination can become a 
national foodborne disease outbreak due to the scale of production and 
wonder of the supply chain. We need better food system intelligence, 
more flexible and responsive prevention, preparedness, response and 
recovery strategies, and an expanded armamentarium of technology, 
training professionals and tested interventions to meet these new 
challenges. The university research community is an important partner 
in this national imperative. As Co-Director, on behalf of the National 
Center for Food Protection and Defense (NCFPD), we are honored to have 
provided you with our perspective on continuing research needs and how 
university researchers can help address this global threat to food 
system and American way of life, and defend the safety of the food 
system through research and education.

    Mr. Langevin. Thank you, Mr. Kennedy.
    The Chair now recognizes Dr. Myers for 5 minutes.

STATEMENT OF DR. LEE M. MYERS, STATE VETERINARIAN AND ASSISTANT 
    COMMISSIONER OF ANIMAL HUSBANDRY, GEORGIA DEPARTMENT OF 
                          AGRICULTURE

    Dr. Myers. Mr. Chairman and members of the committee, thank 
you for the opportunity to testify as to the State involvement 
in protecting our Nation's food and agricultural systems. My 
name is Lee Myers. I am the State Veterinarian and Assistant 
Commissioner with the Georgia Department of Agriculture, and I 
am appearing here today on behalf of the National Association 
of the State Departments of Agriculture and as President of the 
United States Animal Health Association. NASDA represents the 
commissioners, secretaries and directors of agriculture in the 
50 States and 4 territories, and the USAHA has served as the 
Nation's animal health forum for well over a century. I would 
like to outline the critical role that State agriculture 
departments play in defending agriculture and food in our 
country and describe our efforts and challenges to build 
capacity to combat food and agricultural emergencies.
    State agriculture departments license, permit, inspect, and 
oversee activities along the entire farm to fork continuum in 
cooperation with our Federal partners, with the USDA and the 
FDA. You may be surprised to hear that 80 percent of all food 
inspections nationwide are conducted by representatives of 
State and local authorities. State employees by the thousands 
are on the ground each day, inspecting agricultural facilities 
at the operational level. We own farms; we own buying stations, 
slaughterhouses, food processors, cold and dry storage units, 
warehousers, wholesalers, retail and food service 
establishments. We also oversee the transportation of 
agricultural commodities and products between all of these 
entities. Our employees collect samples, analyze those samples 
in State laboratories, and issue seals of approval that 
commodities or products meet the government standards to be 
transported, planted, processed or otherwise consumed by the 
general public.
    When problems arise, such as these recent recalls that have 
been discussed earlier today of spinach, peanut butter, canned 
meat products, and pet foods, it is the employees of the State 
Departments of Agriculture who respond within hours to track 
down these contaminated products, assure that these recalled 
items are removed from the grocery shelves, and directly 
oversee their destruction. Also, State Departments of 
Agriculture are the primary agencies responsible for the 
protection, response and recovery to animal and plant pests and 
diseases, natural disasters and other hazards that can harm the 
agricultural industry.
    We must recognize that 99 percent of emergencies are not 
incidents of national significance and are managed by State and 
local authorities, not the Federal Government. This includes an 
outbreak of a foreign animal disease, which would be managed 
through a unified command structure with our colleagues in the 
USDA, utilizing State-issued quarantines and State requirements 
for carcass disposal and State requirements for debris removal. 
The DHS recognizes that State regulatory programs and 
laboratories are the backbone of the Nation's public network 
for ag and food safety.
    What I have described, gentlemen, is the boots on the 
ground, front-line defense for our Nation's food and ag. This 
is ``a day in the life'' of the State Department of 
Agriculture. Although the vast majority of resources and these 
tactical operations and interfaces with the private sector are 
realized at the community level, States are the most 
underfunded component of the national food and ag security 
strategy. Available funding is irregular; it is modest and on a 
catch-as-catch-can basis. So how can Congress help us get it 
right and overcome the challenges of building the necessary 
capability to combat food and ag emergencies?
    Firstly, there is an urgent need for Congress to provide 
consistent and sustained funding to State agricultural 
authorities, to develop agricultural security programs and 
abilities within each State. The USAHA at its last annual 
meeting passed a resolution urging Congress to appropriate 
funding to States for the development of animal emergency 
management plans and the implementation of sustainable 
capabilities. It is difficult to rationalize that the U.S. 
Government doles out billions to protect our ability to surf 
the World Wide Web, and yet, the March 2007 Congressional 
Research Service Report indicates that agriculture has received 
on average 2 percent of the nondefense Homeland Security budget 
over the last 5 years to assure that we have a safe and secure 
food supply, one of the primal essentials to sustain life. Ag 
and food defense must become a national priority and require 
that it be named as a State priority on State strategic plans. 
We believe that resources should be directed to each State 
agency and that Congress and Federal departments should develop 
a detailed, integrated budget with sustainable dollars.
    Secondly, we recommend that Congress request Federal 
departments to work with States to expedite the development and 
the implementation of tools to identify critical infrastructure 
and key resources and conduct vulnerability assessments. NASDA, 
in cooperation with the USDA, the FDA and the DHS, announced 
the availability of a model food emergency response template 
over a year ago, and this template provides a guidance for 
managing food emergencies of varying magnitudes. However, State 
government agencies need assistance to develop and to implement 
their food emergency plans, and we believe it is cost-effective 
to invest in State and local governments with these valuable 
tools. NASDA has also partnered with other stakeholders to 
develop similar tools for the animal and plant sectors, but 
again, resources are short to complete the development and the 
implementation for tactical work in the States.
    Thirdly, there is no operational, comprehensive and secure 
communication network for agriculture to share these alerts of 
threats and linking local, State, Federal, and private partners 
with the appropriate security clearances. The DHS has 
identified strengthening information-sharing and collaboration 
as a specific priority, but quite frankly, progress is moving 
at a snail's pace, and as a consequence we have these 
duplicative communication systems that rarely communicate with 
each other. A single integrated Homeland Security communication 
network for all sectors, including ag and food, should be 
imperative and a time certain established. The fulfillment of 
these three requests would be a good start in mitigating the 
current crisis of confidence that was referenced earlier.
    In conclusion, the State Departments of Agriculture and the 
USAHA appreciate the efforts of Congress and the administration 
to enhance the safety and security of our food supply, but yet 
there is a lot of work that needs to be done, and we want to be 
in full partnerships with our Federal colleagues to help ready 
America to prepare for, to plan for and to stay informed during 
significant agricultural or food emergencies.
    Thank you, Mr. Chairman, for the opportunity to share a 
State perspective with the committee.
    [The statement of Dr. Myers follows:]

                 Prepared Statement of Dr. Lee M. Myers

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify on the safety and protection of our Nation's 
food and agriculture system against terrorist attacks, major pests and 
diseases and other emergencies. My name is Lee Myers. I am the State 
Veterinarian and Assistant Commissioner of Animal Industry for the 
Georgia Department of Agriculture, and I appear here today on behalf of 
the National Association of State Departments of Agriculture (NASDA).
    NASDA represents the commissioners, secretaries and directors of 
agriculture in the fifty states and four territories. States clearly 
form the first line of defense against the threat of a terrorist attack 
against our food supply. Today, I would like to broadly outline the 
critical role the state agriculture departments play in food safety and 
defense, and describe our efforts and challenges to prepare for food 
and agriculture emergencies.

Complexity of Regulation for Food and Defense of the Agriculture Sector
    The ``farm to table'' food supply chain is a complex system that 
includes millions of acres of cropland, billions of livestock and 
poultry, thousands of feedlots, processing plants, warehouses, and 
packaging and distribution networks that bring food from around the 
nation and the world to neighborhood markets and restaurants across the 
nation.
    The threat of a terrorist attack on the food and agriculture 
industries is likely to involve the contamination of commodities rather 
than the destruction of infrastructure. However, the diverse and 
widespread nature of the industry makes it extremely difficult to 
identify and secure every facility that might be a potential target. In 
the case of food, for example, introduction of minute levels of certain 
hazardous agents could cause widespread harm, including serious 
economic and social disruption. Local, state and federal partners as 
well as the industry itself have already taken important steps to help 
protect the food and agriculture industry from terrorist attack. NASDA 
believes there needs to be a greater linkage at all levels of 
government and the private sector of resources, expertise, and 
initiatives to achieve our shared security and emergency preparedness 
goals.

Roles of State Agriculture Departments in Food Safety and Defense
    Protecting the nation's food and agriculture industry demands the 
coordinated effort of public, private and university partners in the 
same way that all of these stakeholders have cooperated for decades on 
issues of food safety, animal health and plant protection. In the area 
of food safety, for example, the statistics are surprising: while this 
is the shared responsibility of all partners, approximately 80% of all 
food safety inspections are conducted by state and local agencies.
    State agriculture departments need sufficient field inspection 
forces to promote biosecurity of food and agriculture businesses; 
enhance prevention by enforcing uniform food and agriculture safety and 
security laws with industry; provide routine surveillance of food, 
plant and animal products; respond quickly in the event of an attack; 
and provide the means to restore confidence in the food and agriculture 
sector. States agriculture departments are the lead agencies in the 
prevention, detection and eradication of plant and animal pests and 
diseases in accordance with the national and state response plans.

Vulnerability
    Recent food safety events have made regulatory agencies and 
industry realize the landscape of food safety and defense is changing. 
Risks include the tremendous growth of the imported foods market with 
limited regulatory oversight and centralized food production, 
processing and storage. According to USDA's Foregin Agriculture Service 
(FAS) statistics, 48 percent of America's agricultural consumption was 
imported in 2007. This includes ``bulk'' products such as wheat and 
cotton, ``intermediate'' products such as oils and livestock, 
``consumer oriented'' products such as butchered meat and vegetables, 
and ``other'' products such as timber and seafood.
    State regulatory programs and laboratories are currently the 
backbone of the Nation's food safety network. However, threats to the 
food supply typically cross state borders and have national 
implications. There are limited resources to develop preparedness and 
response plans for animals and plants (i.e. crops, hay, pasture, and 
rangeland). ``Point source'' facilities exist in agriculture (plans to 
protect them are similar to other fixed facilities). The ``nonpoint 
sources'' are more difficult to plan for, but need to be carefully 
considered in any agriculture preparedness and response plans.

Vulnerability Assessments in the Food and Agriculture Sector
    The assessment of terrorist threats to food and agriculture and 
evaluation of the agriculture industry's vulnerabilities will form the 
basis for developing a preparedness and response strategy for the 
Nation's food and agriculture industry. The challenge is to determine 
the likelihood of various forms of attack and identify on a priority 
basis the gaps in the existing systems.
    The states have been conducting this activity for several years. In 
July 2004, NASDA and it's affiliate organization, the Association of 
Food and Drug Officials (AFDO) conducted a survey of states to collect 
information about homeland security activities in state departments of 
agriculture. The purpose of the survey was to obtain a baseline 
assessment of state initiatives, including emergency response and 
planning, vulnerabiilty assessments, specific funding for agriculture 
and food defense, and training. All fifty states responded to this 
baseline survey. The survey data found that many states had completed a 
substantial number of vulnerability assessments utilizing a variety of 
methods from formal surveys and expert panels to informal assessments 
during regular inspections. The survey found that many states had 
developed plans across all sectors of the plant, animal, and food areas 
to mitigate perceived vulnerabilities.The survey also found that states 
have participated in dozens of exercises or drills to test emergency 
response capability and most included other state or federal agencies. 
Specific highlights of the survey results are:
        <bullet> 52% of respondents indicated that their food program 
        had received some level of funding for food security 
        initiatives.
        <bullet> 56% or 28 states have developed a written food 
        emergency response plan.
        <bullet> 44% or 22 states have conducted some type of food and 
        agriculture vulnerability assessment.
        <bullet> 18% or 9 states have developed some type of 
        vulnerability reduction plan to address food and agriculture 
        vulnerabilities.
    The baseline survey results indicate that states are engaged in 
many areas of food and agriculture defense, but more needs to be done.
    In addition, states are working with our federal partners in 
several activities. We are participating in the Administration's Food 
and Agriculture Coordinating Council (FACC) and Government Coordinating 
Council (GCC) to help meet the goals of Homeland Security Presidential 
Directive 9 (HSPD-9). Many state agriculture departments have 
participated in vulnerability assessments through the Strategic 
Partnership Program on Agroterrorism (SPPA), and we commend USDA for 
this collaboration. SPPA is a Federal Bureau of Investigation (FBI)-led 
partnership with FSIS, the Food and Drug Administration (FDA) and the 
Department of Homeland Security (DHS) that brings a variety of 
stakeholders together to conduct vulnerabilty assessments on a variety 
of food commodity systems. One goal of the SPPA initiative is to 
identify countermeasures that need to be developed.
    However, state departments of agriculture need access to the 
findings of SPPA to help develop cost-effective measures to enhance our 
ability to prevent an attack, detect an attack at the earliest possible 
time, respond to protect both the public health and industry and 
recover from an attack by restoring public confidence and the economic 
viability of affected sectors. NASDA urges USDA, FDA, DHS, and other 
federal partners to complete risk and vulnerability assessments in all 
areas of the food and agriculture industry and share information 
relevant to the development of specific state preparedness strategies. 
Such information sharing is imperative as states develop and refine 
individual State Homeland Security Strategies (SHSS) and will be 
important for the seamless integration of state plans into the National 
Homeland Security Strategy.
    These initial efforts have strengthened our ability to prevent, 
rapidly detect, and respond to bioterrorism incidents, but need to be 
expanded. One key issue at the state level is the amount of effort 
required to accomplish this huge task. DHS, FDA, and UDSA have funding 
to accomplish vulnerability assessments, but the availability of 
funding is a ``catch as catch can'' basis from state to state. Funds 
need to be targeted directly to the state departments of agriculture to 
accomplish this work.
    Without better targeted and consistent funding, we will have to 
compete with other non-agriculture in-state homeland security entities. 
For example, the state homeland security grants have an 80/20 split, 
with the local governments receiving 80% of the funding. We realize 
that all emergencies are local, and for the most part this is a model 
that works well. However, there is no local authority for agriculture 
agencies as exists for public health, fire services, or law 
enforcement. The agricultural authority in most states rests with the 
state agriculture department; but since these departments are 
considered a ``state'' entity, they do not qualify for the local 
funding. This discrepancy needs to be remedied to benefit state food 
defense capability.

Challenges for State Departments of Agriculture
    <bullet> Emphasis Needed on Food Defense
    The President's National Homeland Security Strategy recognizes the 
importance of securing the Nation's food supply and designated 
agriculture as a ``critical infrastructure.'' However, ``food defense'' 
is difficult to achieve and needs to be considered one of the highest 
priorities for DHS. NASDA has been concerned that the emphasis on 
homeland security in border protection overshadows the need to remain 
vigilant in protecting the food and agriculture industry from the 
introduction of pests and disease at the border. We strongly believe 
that prevention of animal and plant terrorism and protection for the 
Nation's food supply must be considered a critical priority of DHS.

    <bullet> Federal Funding and Support
    Managing the short and long term consequences of an attack on the 
food supply is among the responsibilities of state and local government 
supplemented by the resouces of the federal government. Issues related 
to activities such as initial response, animal and plant quarantines, 
withhold orders, tracing of contaminated product, secure communications 
following an event, and short and long term recovery are some of the 
many responsibilities faced by state governments.
    To date, federal support for state departments of agriculture for 
agriculture and food defense has been very limited and inconsistent. 
Modest USDA support was provided to enhance animal and plant 
laboratories and to begin work on projects including rapid notification 
and other systems. While almost a billion dollars in FY03 was provided 
through the Centers for Disease Control (CDC) to state health agencies 
for uses including food security, agriculture departments have been 
excluded from receiving funds. In June 2003, NASDA released a state 
resource survey conducted by AFDO. The survey data indicated that of 
$960 million federal counter-terrorism funding given to states, a mere 
$43 million (4.5%) went to Plant and Animal Disease Response, 
Surveillance and Testing; and $3.6 million (0.4%) was devoted to 
protecting all other elements of the food supply, such as 
manufacturing, processing, distribution, storage and retail levels for 
food.
    Federal funds should be better targeted and consistent to help 
states accomplish many of the tasks described above. The Congressional 
Research Service (CRS) issued a Report to Congress on March 12, 2007 
titled ``Agroterrorism: Threats and Preparedness.'' The report notes 
that ``as a percentage of non-defense budget authority for homeland 
security, agriculture receives about 2.1% of the total.'' The report 
further notes that ``regular appropriations for agriculture in DHS are 
irregular and tied to particular initiatives, such as university 
research grants or facility construction.''

<bullet> DHS Grant Program
    NASDA has been very concerned that the overall decreased funding 
available to states under the DHS Homeland Security Grant Program will 
have a significant impact on states' abilities to prepare for 
emergencies affecting food and agriculture. The problem is further 
complicated by the fact that the grant program is currently one of the 
only sources of funding to states to support homeland security 
preparedness in all sectors. DHS could address this problem by assuring 
that the risk calculation--which is one of two components that is used 
to determine each state's allocation under the grant program--fully 
considers the risks, vulnerabilities, and impacts associated with 
threats to our food and agriculture sector.
    With appropriate funding, states could:
    <bullet> develop programs dedicated to food defense, animal 
defense, and plant defense;
    <bullet> improve inspection, testing and surveillance activities;
    <bullet> conduct additional threat, vulnerability and risk 
assessments;
    <bullet> work with industry to identify critical infrastructure, 
key resources, and develop mitigation strategies and defense 
capabilities.

<bullet> Food and Agriculture Defense Planning
    The states are particularly interested in one activity where DHS 
could assist in food defense planning and preparedness training for 
state agriculture, health and emergency management agencies. In 
Feburary 2006, NASDA, in cooperation with USDA's Food Safety Inspection 
Service (FSIS), the Food and Drug Administration (FDA), and the 
Department of Homeland Security (DHS), announced the availability of a 
model Food Emergency Response Plan Template. The template is a tool 
that will enhance the protection of the Nation's agricultural industry 
and food security through increased prevention, detection, response, 
and recovery planning.
    The template provides states with a guide for developing a food 
emergency response plan. It is designed to assist states with 
development of either a stand-alone plan for responding to a food-
related emergency or an addendum to an existing all-hazard state 
emergency response plan. Because a food emergency could occur at any 
point in the food chain from farm to fork, including pre-harvest 
production and transportation, the application of this template assists 
in managing emergencies with varying magnitude and scope.
    The template is also a ``building block'' in the national effort to 
develop a seamless system of food defense from local, state and federal 
perspectives. It identifies how these efforts will be effectively 
integrated with the National Response Plan (NRP) and state response 
plans, including descriptions for responding to, mitigating and 
recovering from a domestic incident. In addition, the template provides 
a baseline structure for preparing state-level plans to protect 
critical infrastructure and key resources identified through the 
National Infrastructure Protection Plan (NIPP).
    The state agriculture departments and other state government 
agencies need assistance to develop and implement their food emergency 
plans, along with preparedness training and education. NASDA has asked 
DHS to provide initial funding for this activity. We believe it is 
cost-effective to provide state and local governments with a valuable 
readiness tool to facilitate seamless regional and national responses 
to food emergencies.
    In addition to the food defense template, NASDA has partnered with 
others at the state and regional level to develop animal and plant 
defense planning and response templates. These templates are in a final 
stage of development, but additional funding is needed for full 
implementation and associated training. These templates should be 
incorporated into the context of an all-hazards approach.

<bullet> Communications and Coordination of State and Federal Resources
    Providing the means for the food and agriculture sector to 
communicate during all phases of emergency management, particularly 
during a response, is the foundation for overall preparedness. There is 
a vital need to establish a well coordinated and efficient 
communication strategy that links agriculture stakeholders and allows 
for the rapid dissemination of information. Since local and state 
agriculture or health departments will often be the first to respond to 
a food emergency, communication channels between local, state and 
federal partners must be clearly defined and practiced. The same is 
true for any animal or plant emergency as well. Some of the information 
that needs to be efficiently shared includes: specific threat alerts 
from intelligence partners; incident notifications from field staff, 
industry or others; routine surveillance information from inspections, 
laboratory analyses and other local and state sources; and other 
information deemed critical to preventing human illness, death or 
serious economic harm to the industry from a terrorist attack at any 
juncture from farm to fork.
    State and federal governments must effectively communicate and 
coordinate resources in an emergency using the Incident Command 
Structure (ICS). Despite the federal emphasis on ICS, the response to 
the recent melamine contaminated proteins was not managed using ICS. 
States had no situational awareness and could not effectively respond 
to their constituents. The Nation's slow response eroded consumer 
confidence in the pet food industry and threatened the confidence of 
the human food supply. While not a replacement for ICS in this event, 
NASDA set up and operated an information network to keep directly 
affected states informed.
    The use of ICS would have allowed the federal government to 
leverage state resources during the response to the melamine incident 
and other national recalls. Resources include animal diagnostic 
laboratories, food testing laboratories, and regulatory and 
administrative personnel to repond to and support the concerted effort. 
As we strengthen our laboratory resources and other response 
capabilities, management of resources on a national scale using ICS 
will become increasingly important.
    At present, there are serious impediments to establishing such a 
system which need to be addressed. These include:
        <bullet> The loss of information through unnecessary 
        ``classification'' of documents, and the inefficient processing 
        of security clearances for state agriculture officials;
        <bullet> Federal resistance to accepting investigation results, 
        recalls and other actions from nationally accredited state and 
        local laboratories;
        <bullet> The lack of an operational, comprehensive and secure 
        communications network to share threat alerts and other 
        information linking local, state, federal and private partners, 
        with appropriate security clearance;
        <bullet> The lack of a comprehensive incident notification 
        process for the food and agriculture industry;
        <bullet> The lack of adequate risk communications preparedness 
        and response planning and training; as a result, states are 
        hampered in their ability to disseminate adequate safety and 
        technical information to the media and public during an 
        incident.
    Many state agriculture officials have experienced substantial 
delays in the processing of their security clearances. In order for 
NASDA to function as an important organization, assisting in the 
liaison between state and federal governments, and participate fully in 
the homeland security initiatives of the food and agriculture sector 
government coordinating council, key staff have a need to know certain 
sensitive information. There is an immediate need for DHS to expedite 
security clearance applications for key state agriculture personnel.
    NASDA also believes more effort is needed to address the 
communications gap bewteen state and federal partners in the sharing of 
critical information and intelligence. Federal agencies should review 
currently classified information and make determinations about whether 
it needs to remain classified for security purposes. The results of 
state and local inspections and laboratory analyses found to be 
consistent with federal requirements should be recognized as equivalent 
to federal inspections and analyses. Development of rapid 
communications and incident notification systems should have top 
priority and include both public and private sector decision-makers.
    NASDA supports ongoing work being done by DHS to implement the 
Homeland Security Information Network (HSIN). HSIN could be a 
significant communications tool for local, state and federal partners, 
but the system is not yet operational, despite years in the making.
    Another important area is the need to protect the confidentiality 
of information. Because the majority of agricultural assets are in the 
private sector, necessary information may be proprietary or pertain to 
trade secrets or business operations. Congress should require that such 
information obtained from the states be maintained as confidential.

Recommendations to Enhance Food and Agriculture Defense Capabilities
    As we have emphasized throughout our testimony, states clearly form 
the first line of defense against the threat of a terrorist attack 
against our food supply. The federal government should capitalize on 
the proven strengths of the state programs by providing funding, 
guidance, and coordination of resources to effectively protect the 
agriculture and food sector. NASDA offers the following recommendation 
to enhance our food and agriculture defense capabilities:
        <bullet> Congress and federal departments should develop a 
        detailed integrated budget for food and agriculture defense, as 
        requested by HSPD-9.
        <bullet> DHS should survey state departments of agriculture to 
        determine homeland security requirements; further DHS should 
        fund these requirements as a priority through state grants or 
        other federal legislation that directs resources for food and 
        agriculture defense.
    <bullet> DHS should develop an action action review process for 
agriculture and food incidents of national importance; such review 
should identify the gaps, lessons learned, and solutions to improve 
reponse and coordination.
    <bullet> DHS Office of Health Affairs should review the Homeland 
Security State Grant Program for food and agriculture defense and 
publish annual guidance for this sector to better target resources.

Conclusion
    The state agriculture departments appreciate the efforts by 
Congress and the Administration to enhance the safety and security of 
the Nation's food supply and the agricultural production system which 
supports it. As partners in the federal system, we stand ready to work 
with the Committee and Congress to accomplish these goals.

    Mr. Langevin. Thank you, Dr. Myers.
    The Chair now recognizes Dr. Henry to summarize his 
statement for 5 minutes.

 STATEMENT OF DR. CRAIG HENRY, SENIOR VICE PRESIDENT AND CHIEF 
      OPERATING OFFICER, SCIENTIFIC AND REGULATORY AFFAIRS

    Mr. Henry. Thank you, Mr. Chairman and members of the 
subcommittee, for inviting GMA to participate in this hearing 
to discuss Federal efforts to mitigate vulnerabilities to the 
food supply chain.
    The food industry is committed to assuring the safety and 
security of the U.S. food supply. Food defense addresses the 
intentional adulteration of food products and/or ingredients 
using chemical, biological, radiological agents. This requires 
a vigilant effort from the food manufacturer to know how to 
identify the vulnerabilities and to adopt effective mitigation 
strategies.
    The food industry has worked collaboratively with various 
Federal agencies for several years now to ensure the best 
practices are identified and disseminated and to develop 
mechanisms for Federal agencies to share intelligence with the 
food industry that can enable companies to target their 
vigilance.
    In preparing for a deliberate attempt to contaminate the 
food supply, food companies have participated in vulnerability 
assessments with government officials, with industry trade 
associations or independently, and participated as well in 
Table Top Exercises designed to simulate an actual attack on 
the food supply.
    Food safety and food defense are the ultimate goal of all 
food companies, and achieving that goal requires the 
cooperative efforts of the regulatory agencies; that is 
Federal, State and local, as well as the food industry.
    Deliberate contamination of the food supply is still viewed 
as a relatively low potential risk but a serious concern versus 
food safety concerns from conventional contamination or product 
mishandling or mislabeling, which also includes economic 
adulteration, which has the potential to be a food safety 
event.
    I would like to mention the Strategic Partnership Program 
on Agroterrorism. The ``SPPA,'' as it is referred to, is a 
cooperative initiative among Federal and State government 
agencies and private sector volunteers to provide government 
and industry with more a complete, sector-wide perspective of 
food and agricultural defense. Under the initiative, 
vulnerability assessments are conducted in the food and 
agriculture sector using CARVER+Shock evaluation to help 
distinguish between real and perceived food defense 
vulnerabilities and risks.
    The Public Health Security and Bioterrorism Preparedness 
and Response Act of 2002, otherwise known as the ``Bioterrorism 
Act,'' provided the FDA with the authority to promulgate 
regulations concerning the registration of food facilities, the 
establishment and maintenance of records, prior notice of 
imported food shipments, and the administrative detention of 
food. The FDA rules are in place and are being enforced. 
Unfortunately, funding for the 600-plus additional inspectors 
initially provided to the Center for Food Safety and Applied 
Nutrition to better enforce the regulations has evaporated, and 
the Agency has had to reduce staffing to cover the budget. This 
has largely negated any gain in efficiency the Agency perceived 
by having prior notice of all food imports so they could 
coordinate sampling and inspection efforts. Agency funding is 
critical to enforcement operations.
    The GMA is an active member of the Food and Agriculture 
Sector--Government Coordinating Council. This is a self-
organized, a self-run and a self-governed committee composed of 
members in the food and agricultural sectors, and it serves as 
the government's point of entry into each sector for developing 
and coordinating a wide range of infrastructure protection 
activities and issues.
    There is also the Food and Agriculture Sector Joint 
Committee on Research. This committee has identified a number 
of private sector needs such as better vulnerability assessment 
tools. As mentioned previously today, the FDA recently released 
a CARVER+Shock software tool that provides a means for all 
companies to conduct a vulnerability assessment of their 
operations. CARVER+Shock vulnerability assessment tool is used 
to assess the vulnerabilities within a system or infrastructure 
to an attack. As you may know, ``CARVER'' is an acronym for 
Criticality, Accessibility, Recuperability, Vulnerability, 
Effect, and Recognizability.
    A seventh attribute, ``Shock,'' has been added to the 
original six to assess and combine health, economic, 
psychological impacts of an attack within the food industry.
    Lastly, I would like to mention another valuable tool, 
which is the Table Top Exercise. Joint industry, regulatory 
agency, health department, and law enforcement officials 
participate in training exercises simulating an intentional 
product contamination event.
    Thank you for the opportunity to be here with you today, 
and I am pleased to answer any questions you may have.
    [The statement of Mr. Matthys follows:]

               Prepared Statement of Dr. Allen W. Mathys

              Mr. Chairman and Members of the Subcommittee

    I am Allen Matthys, Vice President, Federal and State Regulations, 
Grocery Manufacturers Association (GMA). Thank you for inviting GMA to 
participate in this Hearing to discuss Federal efforts to mitigate 
vulnerabilities in the food supply chain. The food industry is 
committed to assuring the safety and security of the U.S. food supply. 
This includes company or third part audits as well as a review of any 
government inspection reports.
    Food safety concerns deal with identifiable risks and incorporate 
mitigation steps (including Hazard Analysis Critical Control Point 
(HACCP) evaluations, time/temperature processes, etc.) to control or 
reduce the likelihood of a problem occurring. Food defense addresses 
the intentional adulteration of food products and/or ingredients using 
chemical, bacteriological and/or radiological agents. This requires a 
vigilant effort from the food manufacturer to know how to identify the 
vulnerabilities and to adopt effective mitigation strategies.
    The food industry has worked collaboratively with various federal 
agencies for several years to ensure that best practices are identified 
and disseminated and to develop mechanisms for federal agencies to 
share intelligence with the food industry that can enable companies to 
target their vigilance.
    In preparing for a deliberate attempt to contaminate the food 
supply, food companies have participated in vulnerability assessments 
with government officials (the Strategic Partnership Program 
Agroterrorism (SPPA)), with industry trade associations, or 
independently and participated in Table Top Exercises designed to 
simulate an actual attack on the food supply. The SPPA program 
introduced industry to the CARVER + Shock vulnerability assessment but 
the information was available only to those companies that participated 
in the SPPA event. FDA recently released a CARVER + Shock software tool 
that provides a means for all companies to conduct a vulnerability 
assessment of their operations.
    Food safety and food defense are the ultimate goal of all food 
companies. Achieving that goal requires the cooperative efforts of the 
regulatory agencies (federal, state, and local) and the food industry.

Food Industry Action
    When information surfaced indicating that the food and agriculture 
sector was considered as a potential target for terrorist 
organizations, regulatory officials communicated this information to 
the industry. FDA officials indicated that they had conducted an 
internal analysis of several food product categories using the CARVER + 
Shock analyses and identified a number of considerations that affect 
the risk that a food, at a particular point in its production, could 
become the target of intentional contamination. The following four 
characteristics were common to each of the food products identified as 
being at a higher risk:
    <bullet> Large batch size, resulting in large number of servings
    <bullet> Short shelf life or rapid turnaround at retail and rapid 
consumption
    <bullet> Uniform mixing of contaminant into food
    <bullet> High accessibility to the critical node of production, 
processing or distribution
    The ``higher risk'' foods received priority attention by FDA for 
the identification and implementation of preventive measures. Likewise, 
USDA began a similar analysis of meat and poultry products. [The 
initial reports were then provided to Department of Homeland Security 
(DHS) officials and duly classified as ``Top Secret'' and thus became 
inaccessible to food industry representatives.]

Points to Cover:
    Deliberate Contamination still viewed as a low potential risk 
versus food safety concerns from conventional contamination or product 
mishandling or mislabeling (also economic adulteration has potential to 
be a food safety event).
    Strategic Partnership Program Agroterrorism (SPPA)
    Individual food companies have volunteered to participate in the 
SPPA program for several commodity groups identified by FDA/USDA as 
fitting the potential target profile. The SPPA is a cooperative 
initiative among federal and state government agencies and private 
sector volunteers to provide government and industry with a more 
complete sector-wide perspective of food and agriculture defense. Under 
the initiative, vulnerability assessments are conducted in the food and 
agriculture sector using CARVER + Shock* evaluation to help distinguish 
between real and perceived food defense vulnerabilities and risks 
within the food and agriculture sector. It also assists in identifying 
potential mitigation measures and strategies that may be appropriate 
for the food and agriculture sector. In addition, the SPPA has assisted 
in the identification of research needs and the allocation of research 
investments to address priority needs.
    These vulnerability assessments with industry on a variety of foods 
regulated by the Food and Drug Administration a number of research 
questions were generated. The commodities evaluated were dairy 
products, fruit juices, bottled water, water used for food processing, 
and infant formula. The research questions fell into the following 
general categories:
    <bullet> partitioning of chemical compounds into the water or lipid 
fractions of a food;
    <bullet> thermal stability of chemical and microbiological agents;
    <bullet> stability of chemical and microbiological agents to acidic 
and alkaline pH;
    <bullet> changes in food conductivity upon exposure to chemical 
agents;
    <bullet> UV inactivation of biological agents;
    <bullet> effectiveness of disinfection agents against chemical and 
biological agents;
    <bullet> oral toxicity of chemical agents; and
    <bullet> filtration to eliminate or reduce chemical and biological 
agents
    A summary of the main research results released to date is provided 
at
    http://www.cfsan.fda.gov/dms/defres05.html

Regulatory Requirements under Bioterrorism Act
    The Public Health Security and Bioterrorism Preparedness and 
Response Act of 2002 (Bioterrorism Act) provided FDA with the authority 
to promulgate regulations concerning registration of food facilities, 
establishment and maintenance of records, prior notice of imported food 
shipments and administrative detention of food. FDA rules are in place 
and being enforced. Unfortunately, funding for the 600+ additional 
inspectors initially provided to CFSAN to better enforce the 
regulations has evaporated and the agency has had to reduce staffing to 
cover the budget. This has largely negated any gain in efficiency the 
agency received by having prior notice of all food imports so they 
could coordinate sampling and inspection efforts. Agency funding is 
critical to enforcement operations.
    GMA is an active member of the Food and Agriculture Sector--
Government Coordinating Council (FASCC).FASCC
    A self-organized, self-run and self-governed committee, composed of 
members in the food and agriculture sector that serves as the 
government's point of entry into each sector (i.e., plant and animal 
producers, processors/manufacturers, restaurants/food service, retail, 
warehouses and agriculture production) for developing and coordinating 
a wide range of infrastructure protection activities and issues (e.g., 
research and development, outreach, information sharing, vulnerability 
assessments/prioritization, shielding and recovery).
    GCC FASCC: The government counterpart to the SCC that is 
established to enable interagency coordination of agriculture and food 
defense strategies and activities, policy, and communication across 
government and between the government and each sector to collaborate 
and develop consensus approaches to the CI/KR protection. Membership is 
comprised of various levels of government (Federal, State and 
Territorial, local and tribal). .

Food and Agriculture Sector Joint Committee on Research

Guidelines available to industry
Materials available from FDA, USDA, and industry
http://www.cfsan.fda.gov/dms/defguids.html

Private Sector Needs
    <bullet> Better vulnerability assessment tools (FDA software tool 
attempts to address this need)
    <bullet> Efficient area surveillance technologies
    <bullet> Chemical/biological agent detection sensors--must be 
rapid, inexpensive, low false positive, low false negative, multi-
agent, multi-food, easy to use, low acquisition and operation costs
    <bullet> Definitive cleaning/sanitizing and decontamination methods
    <bullet> Traceability tools
    <bullet> Robust communication tools between the food industry and 
federal, state and local authorities
    <bullet> A clear understanding of how a bioterrorist event will be 
communicated to consumers and coordinated with other stakeholders
    <bullet> Basic understanding of CBR agents
    <bullet> Coordinated activities between the various federal 
agencies are still confusing and needs to be clarified including how 
state authorities are integrated into the food defense strategies and 
tactics

CARVER + Shock Vulnerability Assessments--Tools for individual company 
evaluations
    *CARVER + Shock is an offensive targeting prioritization tool 
adapted from the military version (CARVER) for use in the food 
industry. The tool can be used to assess the vulnerabilities within a 
system or infrastructure to an attack. It allows the user to think like 
an attacker to identify the most attractive targets for an attack. By 
conducting a CARVER + Shock assessment of a food production facility or 
process, the user can determine the most vulnerable points in their 
infrastructure, and focus resources on protecting the most susceptible 
points in their system. Conduct vulnerability assessment; identify 
critical nodes, under take mitigation steps to reduce vulnerability.
    CARVER is an acronym for the following six attributes used to 
evaluate the attractiveness of a target for attack:
    <bullet> Criticality--measure of public health and economic impacts 
of an attack
    <bullet> Accessibility--ability to physically access and egress 
from target
    <bullet> Recuperability
    <bullet> ability of system to recover from an attack
    <bullet> Vulnerability--ease of accomplishing attack
    <bullet> Effect--amount of direct loss from an attack as measured 
by loss in production
    <bullet> Recognizability--ease of identifying target
    A seventh attribute, Shock, has been added to the original six to 
assess the combined health, economic and psychological impacts of an 
attack within the food industry.
    The attractiveness of a target can then be ranked on a scale from 
one to ten on the basis of scales that have been developed for each of 
the seven attributes. Conditions that are associated with lower 
attractiveness (or lower vulnerability) are assigned lower values 
(e.g., 1 or 2), whereas, conditions associated with higher 
attractiveness as a target (or higher vulnerability) are assigned 
higher values (e.g., 9 or 10). Evaluating or scoring the various 
elements of the food sector infrastructure of interest for each of the 
CARVER-Shock attributes can help identify where an attack is most 
likely to occur in that infrastructure. Federal agencies, such as FDA 
and the Food Safety and Inspection Service (FSIS) of the United States 
Department of Agriculture (USDA), have used this method to evaluate the 
potential vulnerabilities of farm-to-table supply chains of various 
food commodities. The method can also be used to assess the potential 
vulnerabilities of individual facilities or processes.

Table Top Exercise
    Joint industry/regulatory agency/health department/law enforcement 
officials participate in training exercises simulating an intentional 
product contamination event.

    Mr. Langevin. Thank you, Dr. Henry. I am glad that you 
brought up the CARVER+Shock program. I was reading in my 
briefing material about this program, and it is an important 
tool, obviously.
    Again, I want to thank all of the witnesses for their 
testimony. I will now recognize myself for 5 minutes.
    To the panel, based on your work with the Federal 
Government over the years, how would you grade the Federal 
effort on food security?
    We will start with you, Mr. Kennedy.
    Mr. Kennedy. I have been greatly encouraged by the 
collaboration we have received since we started with the 
National Center for Food Protection and Defense and how all 
three of the primary agencies are very much working with us on 
advancing the research to try and further protect the food 
system. We work very closely with FSIS, with CFSAN and with the 
Office of Health Affairs and DHS, and as I believe Carol Maczka 
mentioned in the first panel, we are now working together on an 
imported foods research project specifically related to China 
and to other foreign countries.
    Mr. Langevin. Thank you.
    Dr. Henry.
    Mr. Henry. From the industry perspective, I would say the 
process that has been put forth by the Federal Government has 
certainly matured and improved since the onset of 9/11 
initially, and I think during the early years the industry saw 
a real challenge amongst the various agencies to have, if you 
will, nice, coordinated communications so that each agency knew 
what was going on, how the funding was being applied, what the 
net results were going to be, and I think that that has really 
portrayed itself very well in recent years. Currently, through 
the SPPA initiative and other integrated stakeholder programs, 
we are much better set now to execute a program, should it 
occur, with an event that develops within the United States.
    Mr. Langevin. Dr. Myers.
    Dr. Myers. I believe there have been tremendous efforts put 
forward by the Federal Government. However, there still remains 
a large disconnect between the Beltway here in the Washington 
area and Federal departments and what is happening in the real 
world--boots on the ground level--with State governments. State 
governments need to be brought in as full working partners, 
many times at the developmental stage rather than at the end of 
the process where we are asked for casual comments very often 
on short timelines. We want to be full working partners 
throughout the continuum, developing from the initial policy 
development stage to full implementation.
    So there has been tremendous effort, I think, particularly 
a working collaboration between Federal Governments, but there 
needs to be great enhancement of reaching out and working with 
local and State partners.
    Mr. Langevin. So to quantify this a little more, I want to 
ask each of you to assign a letter grade to the Federal 
Government's efforts on food security.
    Mr. Kennedy.
    Mr. Kennedy. I would say a ``B'' at this point.
    Mr. Langevin. Dr. Henry.
    Mr. Henry. I would concur. A ``B'' would be appropriate.
    Dr. Myers. I concur, a ``B.''
    Mr. Langevin. Thank you.
    Mr. Kennedy, the University of Minnesota has a great food 
security simulation that has been funded by DHS.
    How has this simulation been put to work, and can you tell 
us about some problems that your scientists are most concerned 
about today?
    Mr. Kennedy. The simulation that, I believe, you are 
referring to is something called the Consequence Management 
System, and it is built by obtaining data from the private 
sector in how food actually moves within the system, both 
internationally and in the United States, combined with public 
health system response data on how we would expect an actual 
outbreak to progress. So it allows us to provide more realistic 
evaluations of how potential intentional food contaminations 
would unfold, what would the consequences be, and therefore, 
how would certain interventions change that outcome to reduce 
the possible consequences.
    One of the challenges in developing a system like this is 
that it is very dependent upon the private sector data, and 
quite understandably, the private sector needs to check that 
information, so we do not have an easy vehicle to ensure that 
we have all of the appropriate data into the models on private 
sector food movement.
    The second challenge that we encounter is we do not have a 
good idea of exactly how the public health system will respond 
if there is an event. As a simple example, in a research study 
2 years ago, the researcher found that emergency room 
physicians when presented with a case history got Bacillus 
anthracis right 75 percent of the time on the first try and 
botulinum neurotoxin right 50 percent on the first try. How 
fast will we know when it actually happens? That is an unknown 
in our models.
    Mr. Langevin. Thank you.
    Briefly, Dr. Henry, you spoke about the CARVER+Shock 
program. I know one of your biggest issues of the private 
sector is a better vulnerability assessment tool.
    So can you expand upon how the CARVER+Shock software tool 
is helping you and what more the private sector is looking for 
in this area?
    Mr. Henry. Certainly.
    The CARVER+Shock tool now being brought to bear online by 
the FDA is a very positive step forward. As you know, a number 
of our members are large as well as small and very small 
production facilities. They do not have the luxury of coming to 
various places, especially like Washington, D.C., to obtain 
training in the area of CARVER+Shock. This online tool will 
provide an excellent vehicle for them to capture that 
information and match it against their own in-house food 
defense program. We see the CARVER+Shock program, of course, 
being enhanced through additional efforts such as the one that 
we will be carrying forth with GMA later on this year where we 
will be doing an online Web and are basically open to certainly 
our members and others, where they can gain hands-on input, ask 
questions and try to expedite the utilization of that tool.
    Mr. Langevin. Very good. Thank you, Dr. Henry.
    I thank the panel.
    The Chair now recognizes the ranking member, Mr. McCaul of 
Texas, for 5 minutes.
    Mr. McCaul. Thank you.
    When we look at this threat, I see two scenarios. One is 
manmade. One could be intentional, deliberate, an act of 
terrorism. The other, probably more likely, scenario is 
accidental. It could be natural. It certainly could be manmade 
but not an intentional act.
    I agree with you, Dr. Henry, that the threat level of a 
deliberate attack is low, and let us hope it stays that way, 
but the risk could be very high. Dr. McGinn and I discussed, 
you know, one nightmare scenario of botulism being put in an 
ice cream factory which distributes all throughout the country, 
and of course children would be the primary consumers, and I 
know there are all sorts of nightmare scenarios. My first 
question is:
    We just heard from the panel of Federal experts--the FDA, 
the DHS, the USDA--about their efforts. One of the biggest, 
more recent concerns is the importation of contaminated fish 
from China. That could be just as damaging as a deliberate 
attack. So whether we are importing from a country that 
actually intentionally wants to harm us through that vehicle or 
whether it is just accidental, how confident are you--and this 
is to the panel as a whole--that our ability to screen and 
sample as our imports come into this country--how confident are 
you in terms of our ability to secure and make safe the food 
coming into this country?
    Ms. Myers. I may take an initial stab at that. That is one 
of the things we are struggling with at the State level, is the 
increase in ethnic and diversity of foods, many times that have 
foreign labels that are difficult for us to translate, with 
symbols we don't understand. And these type of foods are 
increasing at an alarming rate through imports.
    So I think we are very concerned about the type of foods, 
the volume, and the different mechanisms by which they land on 
the shelves. Our ability can only be as good as we are informed 
and trained. And so, again, I point to the disconnect that we 
really need better information sharing; we need better training 
tools. A lot of these are actually tested in State 
laboratories. And I may use the melamine as a recent example. 
You may remember, actually, it was the veterinary community 
that discovered the problem initially in companion animals. And 
so there is a disconnect again between companion animal 
surveillance, what we might see there. The majority of these 
diseases through animals are zoonotic; they are contagious from 
animals. So we have a lot of shoring up to do. There are a lot 
of lessons learned and gaps that we need to overcome. And a lot 
of this was discovered in State veterinary labs first. So as 
was pointed out, I think our main gap is the ability to quickly 
detect that something is there before we diagnose it or 
recognize it as an outbreak.
    Mr. McCaul. Thank you, Dr. Myers.
    Dr. Henry?
    Mr. Henry. Yes. I think the foremost issue here on dealing 
with imports or any other products coming into the United 
States, but particularly focusing today on food, is funding. As 
you may be aware, GMA is a member of the Coalition for a 
Stronger FDA. Many efforts have been put forth here on the Hill 
to try to have Congress focus on the lack of funding that is 
necessary, as was brought up in my testimony. Funding, tied 
with proper resource allocation, is paramount to getting the 
job done. I think that, as Dr. Acheson testified earlier, that 
when you have known agents, it makes it a lot easier to go out 
there and try to make sure your screening and your inspection 
process is adequate and efficacious. Certainly the situation 
with melamine, the food industry, along with the Federal 
Government and the State agencies, we are all kind of 
scratching our head, and we are working very diligently right 
now to try to identify what the unknown agents are. And in this 
case, of course, it was pretty well defined as not an intent of 
harm, but more as an intent of economic adulteration to create 
a low-grade product into a high-grade product and then command 
a higher price.
    I think, as we go through this process, we also need to 
look at the funding, which Dr. Myers brought to bear. In the 
case of CARVER+Shock or the SPPA meetings or anything else, the 
State agencies certainly are not getting the funding they need 
and many times do not have the resources to attend a lot of 
these events. And I think that that is paramount, especially if 
we are going to maintain a close communication and operating 
system to address these things.
    I certainly want to touch upon two other areas, and that is 
the importance of risk-based inspection and allocating risk 
among both USDA and the Food Safety Inspection System directly 
and FDA. As you may know, GMA leads the Coalition for Risk-
Based Inspection, and certainly would look forward to Congress 
moving that along, because that is an excellent platform for 
the United States to embrace today. We also are driving now 
forth with our industry on a Food Safety Task Force, and later 
this fall, we will be holding a special symposium here on 
suppliers' best practices. And that workshop is really to get 
down and try to define what we are doing right and what we 
could do better to make sure the imports coming into the United 
States are safe and meet the quality that the consumer expects 
today. Thank you.
    Mr. McCaul. Thank you.
    Mr. Kennedy, do you have any comments?
    Mr. Kennedy. In addition to concurring with the other 
panelists, I would just like to point out one item of 
additional concern, which is that, as you look at the box of 
food that you are eating tonight or the can that you pick up, 
look at that list of ingredients and recognize how many of 
those ingredients we don't know necessarily from what country 
they came from when they are in that finished product. So as 
Mr. Langevin pointed out earlier, and in my written testimony, 
there is a comment on a repository for information on where 
food comes from, how it moves, that we can trace. Right now, if 
there were intelligence indicating that a specific country's 
source of ingredients were of concern, a food company may not 
actually know that their ingredient comes from that particular 
company or country. We don't have that supply chain 
verification mandated all the way back to the primary supplier.
    Mr. McCaul. I see my time has expired. Mr. Chairman, I 
thank you for holding this hearing. I look forward to working 
with you on legislation to address this important issue.
    Mr. Langevin. Likewise, and I thank the ranking member. I 
want to thank the witnesses for their valuable testimony and, 
again, the members for their questions.
    The members of the subcommittee may have additional 
questions for the witnesses, and I would ask that you respond 
expeditiously in writing to those questions. Your presence here 
was important, and I thank you for that. Hearing no further 
business, the subcommittee now stands adjourned.
    [Whereupon, at 12:24 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


                   Additional Questions and Responses

                    Responses from Dr. David Acheson

Submitted by Stepen R. Mason, Acting Assistant Commissioner for 
Legislation 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

Questions from the Honorable James Langevin, Chairman, Subcommittee on 
      Emerging Threats, Cybersecurity, and Science and Technology

                     Responses from Dr. Craig Henry

    Question 1.: Under the National Response Plan, DHS is supposed to 
be a ``coordinating agency'' during a terrorist attack, major disaster, 
or other emergency involving the nation's agriculture or food systems. 
Please detail your agency's experience in DHS carrying out its role as 
coordinating agency? Has this been an effective process? If not what 
have been the challenges?
    Question 2.: With more than 15 agencies administering at least 30 
laws related to food safety, how has your Department prepared against 
vulnerabilities? What type of coordination or information sharing do 
you routinely practice?
    Question 3.: What type of staffing challenges (vacancies, 
retention, recruitment, expertise, etc.) exists within your Department 
in carrying out your food mission?
    1. GMNFPA experience with DHS as a coordinating agency.
    DHS serves as the coordinating agency for the Critical 
Infrastructure Sector Coordinating Councils. Food and Agriculture is 
one of seventeen identified Critical Infrastructures as identified in 
Homeland Security Presidential Directive 7. DHS works in concert with 
FDA, USDA, State and local officials and food industry representatives 
(through the Food and Agriculture Sector Coordinating Council (FASCC) 
and its Sub-Councils) in addressing food defense issues. As the 
assigned regulatory agencies, USDA and FDA play a major role in food 
defense efforts. FDA is responsible for implementing regulations under 
the Bioterrorism Act of 2002 (Registration of Food Facilities, 
Establishment and Maintenance of Records, Prior Notice of Imported Food 
Shipments, and Administrative Detention). Likewise, Food Safety and 
Inspection Service (FSIS) and Agricultural Marketing Service (AMS) have 
implemented directives and guidelines for meat and poultry 
establishments and government purchase contracts respectively that 
incorporate food defense initiatives into the plant environment. FDA 
has prepared a single source web link to assist the food industry in 
meeting its food defense obligations http:www.cfsan.fda.gov/dms/
defterr.html.

    2. GMNFPA experience in addressing food industry vulnerabilities.
    GMNFPA, in partnership with the Juice Products Association and 
representatives of juice processing companies conducted a vulnerability 
assessment of the juice industry using the method. In 2006--07 the 
association participated in the Strategic Partnership Program 
Agroterrorism (SPPA) vulnerability assessments for juice, baby food, 
and breakfast cereal with representatives from DHS, FDA, USDA, FBI, 
State and local food regulators. The results of these vulnerability 
assessments are classified and not directly available to the industry. 
FDA and USDA contracted to have appropriate software developed to 
permit private industry vulnerability assessments without access to the 
actual agents of concern. The software was beta tested by interested 
GMNFPA members who provided suggestions which led to appropriate 
modification and a more user friendly product. The software is now 
available on the FDA web page for downloading to a company computer for 
use to further safeguard individual company vulnerability assessments. 
Additional information on possible corrective actions.

    3. GMA/FPA staffing challenges to accomplishing food defense 
mission.
    GMA/FPA has one FTE assigned to represent the association on the 
FASCC and Sub-council and to deal with food defense related regulations 
and legislation. A significant portion of staff deal with various food 
safety issues including participation in industry training initiatives.
                               __________

  Questions from the Honorable R. Langevin, Subcommittee on Emerging 
           Threats, Cybersecurity, and Science and Technology

                     Responses from Dr. Tom McGinn

    Question 1.: Under the National Response Plan, DHS is supposed to 
be a ``coordinating agency'' during a terrorist attack, major disaster, 
or other emergency involving the nation's agriculture or food systems. 
Please detail your agency's experience in DHS carrying out its role as 
coordinating agency? Has this been an effective process? If not what 
have been the challenges?
    Respone: Secretary Chertoff created the position of Chief Medical 
Officer (CMO) within the Preparedness Directorate of the Department as 
part of the Second Stage review in July 2005. The office of the CMO 
officially commenced operations in September 2005 with a staff of three 
people. Since becoming operational, the office exceeded many of its 
original goals and milestones in 2006. On January 18, 2007, in response 
to the changing domestic security needs of the Nation, and recognizing 
the cross-cutting potential for responsibilities within the Department, 
Secretary Chertoff further expanded the role of the CMO and proposed 
that the Office be renamed the Office of Health Affairs (OHA) reporting 
directly to the Secretary through the Deputy Secretary.
    OHA's role as the coordinator of DHS's efforts related to 
protecting the Nation's food supply focuses on Homeland Security 
Presidential Directive--9 (HSPD-9) (Food and Agro-Defense). Under this 
Presidential Directive, OHA leads the coordination for HSPD-9 
implementation efforts. To assist OHA with broader access to expertise 
in its coordinating role, Deputy Secretary Michael Jackson requested 
``In the interest of coordination. . .that each Directorate and Office 
with primary expertise related to HSPD-9 (S&T, NPPD, I&A, CBP, and 
FEMA) assign a subject matter expert for each HSPD-9 provision.''
    OHA also has coordinated the support of subject matter experts from 
the DHS/S&T managed Centers of Excellence at the University of 
Minnesota and Texas A&M University to provide advice, incident 
monitoring, event assessments and the capturing of lessons learned 
during several recent food and agriculture sector incidents, such as 
the recent foot and mouth disease (FMD) outbreak in the United Kingdom.
    Also of note is the fact the OHA was tasked to chair and coordinate 
the inter-departmental working group to prepare the DHS response to the 
Presidential Executive Order on Import Safety.

    Question 2.: With more than 15 agencies administering at least 30 
laws related to food safety, how has your Department prepared against 
vulnerabilities? What type of coordination or information sharing do 
you routinely practice?
    Response: DHS is working with USDA and FDA to conduct comprehensive 
risk assessments for agricultural and food commodities, which can then 
be used to identify protective measures and research and development 
gaps. Additionally, we are working with those agencies and sector 
partners to exercise communications, response and recovery efforts. OHA 
also coordinates 30 programs within 6 Directorates, including S&T and 
IP. A major threat in the food and agriculture sectors is a crisis of 
confidence, where a poorly prevented or recognized event causes people 
to question the safety of food regionally or nationally. Therefore, a 
swift confidence-building response is a critical objective of our 
planning and exercising efforts.
    The Department of Homeland Security (DHS), U.S. Department of 
Agriculture (USDA), Food and Drug Administration (FDA), and the Federal 
Bureau of Investigation (FBI) are collaborating with the private 
industry and the states in a joint initiative referred to as the 
Strategic Partnership Program for Agroterrorism (SPPA) Initiative. The 
SPPA Initiative is a true interagency coordinated partnership program, 
where an industry member or trade association and a state volunteer to 
participate. Each assessment involves a site visit followed by 
facilitated discussions between industry and government 
representatives. During the course of this program, every Food and 
Agriculture Sector sub-sector will be studied (i.e. production, 
processing, retail, warehousing, and transportation) in order to assess 
vulnerabilities across the entire farm-to-table continuum. The primary 
purpose of the program is, in full partnership with the private sector 
and the states, to validate or identify vulnerabilities at specific 
points within the agriculture and food supply chain and the sector as a 
whole. These visits are built upon the work done by the Sector Specific 
Agencies (SSAs) in order to assist in implementing the National 
Infrastructure Protection Plan (NIPP) and the food and agriculture 
Sector Specific Plans (SSP). All of the visits are being conducted on a 
voluntary basis.
    A sector focused information sharing strategy that addresses 
incident information reporting, sector defense guidance and event 
lessons learned, such as those from the SPPA program, is essential. 
Such information sharing programs fall within the purview of DHS.
    It is also important to note that information sharing must be based 
upon accurate and timely data. Often, open source information from 
developing events typically flow much faster than anticipated, 
frequently outpaces the ability to validate, analyze and interpret such 
information. As a result, information is sometimes made available to 
the private sector before the government is informed. Therefore, 
several important information sharing channels have been developed that 
will aid the sector. For example, while not yet mature and fully 
functional, a sector specific portal on the Homeland Security 
Information Network (HSIN) is being developed.
    Significantly, DHS is leading an interagency effort to establish a 
National Biosurveillance Integration Center (NBIC). NBIC's mission is 
to provide situational awareness and facilitate early recognition of 
biological events, to include natural disease outbreaks, accidental or 
intentional use of biological agents, and emergent biohazards through 
the acquisition, integration, analysis and dissemination of information 
from existing human disease, food, agriculture, water, meteorological, 
and environmental surveillance systems and relevant threat and 
intelligence information. NBIS will coordinate and gather 
biosurveillance information across the federal government and 
disseminate biosurveillance information to contributing partners for 
use by senior decision-makers.
    In response to the mandates specified in HSPD-9 and HSPD-10, 
reflected in the above mission statement, DHS established the NBIS 
Program and by December 2005 achieved a nascent operational capability 
with a 24/7 Watchdesk in the National Operations Center (NOC). 
Concurrently, development of the NBIS Operational Display System (NODS) 
IT system began. In September 2006, a contract was awarded for 
development and fielding of the NBIS 2.0 IT system as a follow-on to 
the initial NBIS NODS System. Throughout this period to the present, 
the program has continued to add subject matter expertise while 
negotiating increased involvement and participation from prospective 
future member departments and agencies. In January 2007, Memorandums of 
Understanding (MOUs) were established with the Departments of State, 
Agriculture, Defense, Interior, and Health and Human Services. 
Subsequently Department of Transportation was added through an existing 
umbrella MOU. As the program evolves, an estimated five additional 
Federal NBIS Member Agencies (NMAs) will be added (11 total), in 
addition to select private sector and international organizations.
    With the passage of Public Law 110-53 on August 3, 2007, the NBIS 
mission and the role of the partner agencies have been reinforced and 
codified.

    Question 3: What type of staffing challenges (vacancies, retention, 
recruitment, expertise, etc.) exists within your Department in carrying 
out your food safety/defense mission?
    Response: In the near term, OHA is actively recruiting five 
additional staff and leveraging the support of NPPD and SMEs from the 
sector specific Centers of Excellence The FY08 budget funds enough 
personnel to continue a focus on the veterinary and agro-defense 
policies, modestly expand partnership efforts and enhance operational 
and strategic planning efforts, as well as ad-hoc incident 
coordination. In FY 2009, the OHA Food, Agriculture and Veterinary 
(FAV) Defense Office will continue to be involved with policy, planning 
and preparedness efforts, as well as sector specific strategic planning 
at the Federal, state and local levels. The OHA FAV Defense Office will 
continue to lead coordination efforts between DHS entities, as well as 
between other Federal, state, local and private level entities.
    One challenge to current coordination efforts is that preparations 
for a FAV-related emergency are, as is often the case, simultaneous 
with real-time events. This requires that DHS have enough staff 
capability to plan, coordinate, communicate, and respond to events and 
responsibilities now, as well as plan, coordinate, and communicate for 
future emergencies. Further, events such as infected swine importation 
from Canada into Minnesota, and the U.K. FMD outbreak have shown that 
an incident does not have to be intentional to cause great harm at a 
national level. These recent events all required a direct or indirect 
role for the OHA FAV Defense Office. These incident management 
activities have included interagency coordination, information/event 
reporting and providing advice directly to the Secretary and White 
House Homeland Security Council. These incidents have also required OHA 
to lead the coordination and integration of effort within DHS, and with 
state, local and private sector entities.
    The OHA FAV Defense office must continue its efforts to work with 
FDA, USDA, and our other partners to protect our homeland against food, 
agricultural and veterinary threats. This includes the implementation 
and coordination of over 30 DHS-specific biodefense/agrodefense 
activities under HSPD-9.

    Question 4.: Dr. McGinn, do you believe your Department needs 
additional authorities to fulfill your HSPD-9 responsibilities?
    Response: None at this time. However, as OHA expands its engagement 
with the private sector and the states, other authorities may be 
required to protect sensitive private sector information that is 
critical to understanding and sharing sector specific risk, threat, 
criticality, vulnerability, sector component shielding and mitigation 
strategies.

    Question 5.: Dr. McGinn, can you describe what steps the Department 
has taken to lead an interagency response to an act of agro-terror or 
other major disasters in the agriculture sector? Specifically, what 
plans have you developed and what training exercises have you 
completed?
    Response: DHS, in accordance with HSPD-5, has drafted a revised 
National Response Framework (NRF) that provides the policy and 
operational framework for response to all major incidents and 
disasters, including those that might occur with the food and 
agriculture infrastructure. Under DHS guidance and coordination, each 
sector specific agency has developed annexes to provide sector specific 
guidance for the response to such events. The National Response 
Framework is in the comment period. OHA is working with NPPD to gather 
state and industry response to the documents.
    The Framework is designed to simplify the National Response Plan 
for senior officials. OHA co-led a working group on animal issues as 
part the revisions to the NRP in February of 2007. While the proposed 
Framework document does add some information about service and 
companion animals, it does not include recommendations from the animal 
issue working group for a mission area[0] that would address the 
disaster management needs of the broader livestock and pet populations. 
This is a short coming for the private sector and does not provide the 
needed guidance for federal, state and local governments when dealing 
with the needs of these populations in times of disaster.
    DHS, in accordance with HSPD-7, has developed and published the 
National Infrastructure Protection Plan (NIPP) that provides guidance 
for developing protection and event mitigation plans for our critical 
infrastructures. In addition, USDA and FDA, developed the Sector-
Specific Plans (SSP) for agriculture and food. These SSPs provide an 
overarching planning framework for a cooperative effort between 
Federal, state, local and tribal governments and the private industry 
to protect agricultural and food systems from the effects of major 
disasters or a terrorism event that targets or impacts the food and 
agriculture sector.
    DHS is also advancing scientific research and analysis through 
several national facilities. The Plum Island Animal Disease Center 
(PIADC) is one such facility that provides diagnostic, research, and 
teaching services to prevent the introduction and spread of foreign 
animal diseases. As PIADC is aging and becoming increasingly costly to 
operate, DHS is working with USDA to build the next-generation 
laboratory that will allow advanced research to understand and develop 
better preventions against the threats to humans, crops, and animals. 
DHS sponsors two university Centers of Excellence to study emerging 
issues related to food and agro defense. One center at the University 
of Minnesota, conducts research on food defense and actually has 
developed a tool that allows rapid analysis of the probable 
distribution footprint for a contaminated food product and of the 
potential human morbidity and mortality from such events. The other is 
a Center of Excellence at Texas A&M University where research into the 
potential threats to animal agriculture is conducted.
    DHS also wants to integrate the various border defenses and enhance 
them with human and technological capabilities to defend this country 
against the deliberate or accidental introduction of foreign pathogens 
or pests that could affect the viability of our crops and animals. One 
key part of our border defense is the agricultural specialists within 
DHS' Customs and Border Protection (CBP). These inspectors are 
specifically trained and capable of focusing on reducing the risk from 
imported foods, plants, or animals. Agricultural inspectors intercept 
more than 4,000 prohibited meat, plant, and animal products every day 
at US ports of entry. DHS recently formed a task force with the USDA to 
address the concerns of agricultural stakeholders and to identify and 
close gaps in the inspection process.
    In March of 2004, after a series of facilitated conferences, firms 
and organizations representing a broad range of constituents across the 
food and agriculture sector created the Food and Agriculture Sector 
Coordinating Council (FASCC). Shortly after the formation of the FASCC, 
DHS, USDA and FDA agreed to form a government counterpart to the FASCC 
called the Government Coordinating Council (GCC). The two councils work 
collaboratively on sector defense initiatives and information sharing. 
The industry sector coordinating council (SCC) is comprised of private 
companies and associations representing key components of the food 
system. The SCC has seven sub-councils spanning the farm-to-table 
continuum--agricultural input, animal producers, plant or crop 
producers, food processors, retail operations, warehouses and import/
export establishments. The government coordinating council (GCC) is 
comprised of Federal, state, tribal and local governmental agencies 
responsible for a variety of activities including agricultural, food, 
veterinary, public health, laboratory, and law enforcement programs. In 
simple terms, the SCC and GCC are the liaison bodies that will plan, 
coordinate, and implement homeland security policies and programs for 
the food and agriculture sector. These bodies pre-date the NIPP and 
were created to build upon the Information Sharing Analysis Center 
(ISAC) approach to information sharing.
    DHS has also engaged the Centers of Excellence at the University of 
Minnesota and Texas A&M to assist in developing food and agriculture 
disease and product adulteration event modeling tools, as well as 
training tools and programs. Additionally, the DHS Office of Grants and 
Training has funded several university and community college training 
and training tool development efforts that are focused on the food and 
agriculture sector. Finally, there have been numerous regional and 
state sector specific response exercises funded by DHS, such as High 
Plains Guardian, an exercise conducted by the State of Kansas.

    Question 6.: According to a February 2007 DHS Inspector General 
report, DHS does not have a clearly defined system of authorities or 
adequate staffing to carry out food sector responsibilities. What has 
been done to address this issue?
    Response: With the assignment of departmental responsibility for 
coordinating DHS roles and missions under HSPD-9, OHA FAV Defense 
Office is currently expanding its staff base and mission capability. 
The present office staff expansion is focused on the recruitment and 
hiring of 5 additional sector specialists in the near term and to 
continue the growth of the sector focused staff in FY08. OHA has a 
Senior Sector Specialist that has joined the FAV team under an American 
Association for the Advancement of Science (AAAS) Fellowship and is 
also negotiating with the DHS/S&T Office of University Programs for an 
additional Fellow within this specialty to be assigned to work out of 
the FAV Defense Office to work the intersection of the Research, 
Development (S&T) and the OHA Operational missions.

    Question 7.: According to the 2007 DHS Inspector General report, 
``until DHS develops a method to adequately track federally funded 
research efforts, the United States will lack a coordinated national 
approach to protect against agroterrorism, possibly resulting in gaps 
or needless duplication of effort.'' Are there currently any 
coordinated efforts to track federally funded research?
    Response: Initial steps have been taken to track federally funded 
food and agricultural defense research. DHS has provided FDA and USDA 
with a summary of each of its projects in this area for use by the Food 
and Agricultural Sector Joint Committee on Research and for inclusion 
in the 2007 Food and Agricultural Sector Critical Infrastructure/Key 
Resources Protection Annual Report. ``In addition, an effort has been 
initiated at the DHS sponsored National Center for Food Protection and 
Defense to develop a combined database listing all DHS, USDA, and FDA, 
academic and industry programs in this area.

    Question 8.: GAO issued two reports in 2002--on foot-and-mouth 
disease and on mad cow disease--examining U.S. measures for preventing 
those diseases from entering the United States. Because of the sheer 
magnitude of international passengers and cargo that enter this country 
on a daily basis and the inspection resources that are available, 
completely preventing the entry of those diseases may not be feasible. 
GAO found that USDA did not provide timely guidance to border 
inspectors for screening cargo and international passengers after foot-
and-mouth disease struck Europe in 2001.
    What federal efforts have been taken to address this vulnerability?
    How has communication improved between USDA and border inspectors?
    Our nation's ports could be unnecessarily vulnerable to the 
intentional introduction of a disease or pest, unless the Department is 
able to analyze the reasons for declining agricultural inspections and 
streamline the flow of information between USDA and DHS inspectors at 
ports of entry.

    What federal efforts have been taken to address this vulnerability?
    Response: The United States Department of Agriculture (USDA) and 
U.S. Customs and Border Protection (CBP) developed a joint procedure 
that specifically identified the roles and responsibilities of CBP 
Agriculture Specialists (CBPAS) at the ports of entry regarding 
products received from restricted countries. Both agencies agreed to 
amend their existing Memorandum of Understanding (MOU), which addresses 
the agencies' respective functional responsibilities and requirements 
for coordination at Headquarters and in the field. The MOU was signed 
on February 9, 2003 which gave CBP the authority to enforce USDA 
restrictions.
    As a result, CBP and USDA performed an assessment of the controls 
in place to prevent shipments listed as being on hold in CBP's database 
from exiting ports of entry without proper authorization. Animal and 
Plant Inspection Services (APHIS) and CBP have established that if CBP 
has any questions about a shipment, they will contact the APHIS subject 
matter expert to request guidance on clearance. Currently, CBP 
personnel thoroughly review the documentation associated with shipments 
received from Foot-and-Mouth Disease (FMD) affected countries to ensure 
that prohibited product is refused entry, when appropriate. As 
necessary, CBP requests guidance or technical expertise from USDA on 
imported products. Agriculture Programs and Liaison (APL) has issued 
alerts, musters, and memoranda updating the field with the latest 
information and instructing CBP personnel to thoroughly review the 
documentation associated with shipments received from FMD-affected 
countries.

    How has communication improved between USDA and border inspectors?
    Response: CBP recognizes the importance of communicating and 
working collaboratively with USDA to identify, address and develop 
measures to exclude harmful plant pests and foreign animal diseases in 
protecting American agriculture. The revised MOU stipulates that the 
headquarters Agriculture Programs and Liaison (APL) office will 
continue to assist CBP Directors of Field Operation (DFOs) with any 
significant changes in operational procedures that require consultation 
with USDA in accordance with the MOA prior to implementation.
    CBP and USDA communicate relevant and vital information between 
both agencies. The USDA, APHIS is in a unique position of being both a 
partner and ally to CBP in fulfilling its agricultural mission. 
Conversely, CBP collects and maintains valuable information that 
contributes to the USDA's scientific knowledge base, upon which the 
USDA determines national policies and procedures to protect this 
country from agro-terrorism and other forms of agricultural economic 
harm. CBP has arranged training for USDA employees at the National 
Targeting Center (NTC) to hone their skills in targeting. There is 
presently one USDA liaison at the NTC to assist with the development of 
the agro-terrorism rule concepts and certain agricultural health and 
safety concerns. Data sharing allows USDA to develop specific alerts 
and targeting information for CBP, which are used at the ports of entry 
(POEs). Targeting plans call for CBP to enhance advance targeting 
systems support to collect information that will better identify, 
monitor, and report on current and emerging threats.
    Daily communications between CBP and APHIS Headquarters, monthly 
meetings between executive Directors from APL and APHIS, quarterly 
meetings between the Assistant Commissioner Office of Field Operations 
and APHIS Deputy Administrator, as well as quarterly meetings between 
the Commissioner and APHIS Administrator, all provide timely 
opportunities to discuss and share information at various levels USDA 
and CBP are responsible for communicating relevant and important 
agricultural information up and down their respective chain of command, 
as needed. This protocol enables every level of management to remain 
fully appraised of USDA information and to assess its potential impact 
at the local level.
                               __________

Questions from the Honorable James Langevin, Chairman, Subcommittee on 
      Emerging Threats, Cybersecurity, and Science and Technology

           Responses from Lee M. Myers, DMV, MPH, Dipl. ACVPM

    Please Note: The responses below are submitted on behalf of the 
National Association of State Departments of Agriculture. The 
statements are intended to represent state agriculture departments as a 
whole and not any individual state agency.
    Question 1: Under the National Response Plan, DHS is supposed to be 
a ``coordinating agency'' during a terrorist attack, major disaster, or 
other emergency involving the nation's agriculture or food systems. 
Please detail your agency's experience in DHS carrying out its role as 
coordinating agency. Has this been an effective process? If not what 
have been the challenges.
    Response: The National Association of State Departments of 
Agriculture (NASDA) believes that it is too early to project the 
effectiveness of DHS as a coordinating agency during an agriculture or 
food emergency. Hurricane Katrina has been the only major emergency 
since the formation of DHS and there are many reports detailing the 
lessons learned to this disaster. State agriculture representatives 
from Louisiana and Mississippi expressed frustration about the lack of 
federal government coordination and slow assistance to the agriculture 
sector during Hurricane Katrina. Many individuals, businesses, and 
agencies have not yet received financial compensation from the federal 
government as a result of hurricane damage.
    One of the primary issues that Congress has not yet resolved is the 
application of agriculture to the Stafford Act. The provisions of 
agriculture and food should be clearly outlined in the Stafford Act and 
should not be subject to individual interpretation. In the event of 
natural disaster, the agriculture and food sector should receive 
emergency assistance and compensation to help minimize disruption of 
the food supply. The responsibilities of federal agencies for 
agriculture and food during an emergency should be codified to minimize 
competing interests and agency conflicts.

    Question 2: With more than 15 agencies administering at least 30 
laws related to food safety, how has your Department prepared against 
vulnerabilities? What type of coordination or information sharing do 
you routinely practice?
    Response: State agriculture agencies have completed a substantial 
number of vulnerability assessments utilizing a variety of methods, 
although states are relying upon the federal government to provide 
consistent tools for data collection and assessment. The joint efforts 
of the FBI, DHS, USDA, and FDA to develop a Strategic Partnership 
Program Agroterrorism (SPPA) initiative are encouraging. NASDA 
appreciates the FDA providing the assessment tool on-line for use by 
private industry in the food sector, and encourages the USDA to 
complete a similar on-line version for production agriculture. Only 
through consistent data collection and analysis in each state can a 
national threat matrix be formulated. State government agencies need 
additional resources to conduct these assessments, and develop and 
implement their food emergency plans. States need assistance in 
implementing cost-effective measures that enhance our ability to 
prevent an attack, detect an attack at the earliest possible time, 
respond to protect both the public health and industry and recover from 
an attack by restoring public confidence and the economic viability of 
affected sectors.
    As indicated in my written and oral testimony, there is no 
operational, comprehensive and secure communications network for 
agriculture to share threat alerts and other information linking local, 
state, federal, and private partners, with appropriate security 
clearances. Current methods of routine communication are primarily 
through a hodge-podge system of emails and conference calls, neither of 
which provide a secure environment.

    Question 3: What type of staffing challenges (vacancies, retention, 
recruitment, expertise, etc.) exists within your Department in carrying 
out your food safety/defense mission?
    Response: States are in dire need of additional human resources to 
fully implement their food safety/defense duties. State appropriations 
specifically for agriculture defense have been limited and the homeland 
security duties in most states are being assumed by personnel with full 
schedules in traditional regulatory programs.
    Recruitment and succession planning is vital for the success of 
state food defense programs. It is critical that states successfully 
attract highly qualified career employees. With the majority of state 
employee salaries well below the market midpoint, recruiting and 
retaining a workforce to develop new programs and ensure business 
continuity is challenging to say the least.
    The development and implementation of a national food defense 
strategy must be identified as a national priority and the compensatory 
resources allocated to state agriculture authorities from Congress.

                                 <all>

</pre></body></html>
